                                                                                           January 31, 2007
PREFACE

        We are providing this interagency report for your information and use. This
review was conducted as a cooperative effort by the Offices of Inspector General in the
Departments of Commerce, Defense, Energy, Homeland Security, State, and the Central
Intelligence Agency.

        Public Law 106-65, “National Defense Authorization Act for FY 2000,” section
1402 requires that the Offices of Inspector General (OIGs) prepare an annual report for
Congress through 2007 on the transfer of militarily sensitive technology to countries and
entities of concern. The Act further requires that the Inspectors General of the
Departments of Commerce, Defense, Energy, and State, in consultation with the
Directors of Central Intelligence and the Federal Bureau of Investigation,1 conduct an
annual review of the adequacy of export control policies and procedures in the U.S.
Government.

        An amendment to the National Defense Authorization Act for FY 2001 requires
the Inspectors General to report on the status of recommendations made in prior annual
reports. This year2 the OIGs conducted an interagency review of U.S. export controls for
the People’s Republic of China.

       This report discusses issues that affect more than one agency and includes
separate appendixes containing the agency-specific reports. The report is in three
volumes:

            •   Volume I contains the interagency findings and reports from the Departments
                of Commerce, Defense, Energy, and State OIGs.

            •   Volume II, marked For Official Use Only, contains the agency-specific report
                that the Department of Homeland Security OIG issued, and a followup report
                on recommendations made in previous years by the OIGs.

            •   Volume III, classified as Secret, contains the agency-specific report issued by
                the Central Intelligence Agency OIG, as well as an appendix to the
                Department of Commerce OIG’s report.

       There are no interagency recommendations in this year’s report; therefore,
management comments are not required. However, we requested management comments
on agency-specific draft reports from the appropriate officials and, when provided, we
considered them in preparing this report. Management comments provided in response to
individual agency reports are included in those reports.

        This interagency report is required by Congress and will support Congress and the
Administration in shaping the future of Federal export licensing policies and procedures
related to the license process for exports destined for the People’s Republic of China.



1
    The Federal Bureau of Investigation does not play an active role in the licensing process for export-
     controlled technology and therefore did not participate in this interagency review.
2
    This year’s interagency report fulfills our annual statutory requirement for 2006.
                      Offices of Inspector General of the
    Departments of Commerce, Defense, Energy, State, Homeland Security, and
                       the Central Intelligence Agency
Report No. D-2007-050                                                                    January 31, 2007

                Interagency Review of U.S. Export Controls for China

                                          Executive Summary

Background
The United States controls the export of dual-use commodities1 and munitions2 for
national security and foreign policy purposes under the authority of several laws,
primarily the Export Administration Act of 19793 and the Arms Export Control Act of
1976. Commodities are subject to the licensing requirements contained in the Export
Administration Regulations for dual-use commodities or the International Traffic in
Arms Regulations for munitions.

Of the 15,018 dual-use export license applications received by the Department of
Commerce’s Bureau of Industry and Security in FY 2004, 1,728 were for exports to
China and 200 were for exports to Hong Kong. The State Department’s Directorate of
Defense Trade Controls received 73 munitions license applications for exports to China
in FY 2004 and 85 license applications for exports to Hong Kong.

Objective
To satisfy the National Defense Authorization Act reporting requirement for this year,4
the Inspectors General from the Departments of Commerce, Defense, Energy, Homeland
Security, State, and the Central Intelligence Agency agreed to conduct a review of U.S.
export controls for China. Our overall objective was to assess the effectiveness of the
U.S. Government’s export control policies and practices with respect to preventing the
transfer of sensitive U.S. technologies and technical information to China.
Review Results
The interagency review identified areas needing improvement to promote a more
effective system of controls over exports to China. Specifically, the Offices of Inspector
General (OIGs) at Commerce, Defense, Energy, Homeland Security, State, and the
Central Intelligence Agency reported the following results.
1
    Dual-use commodities can be used for commercial or military purposes.
2
    Munitions can be military weapons, ammunition, and equipment.
3
    Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C. app. Sec. 2402(2). Although the act
    last expired on August 21, 2001, the President extended existing export regulations under Executive
    Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency
    Economic Powers Act.
4
    This year’s interagency report fulfills our annual statutory requirement for 2006.
The Commerce OIG determined that the coordination between the various Federal export
licensing agencies was adequate during the dispute resolution process for dual-use export
license applications involving China. However, the Commerce OIG highlighted several
concerns related to U.S.-China export control activities, including:

       •   export control regulations and policies related to China should be strengthened,

       •   Bureau of Industry and Security end-use check5 programs in China and Hong
           Kong need to be improved, and

       •   Bureau of Industry and Security efforts to ensure compliance with license
           conditions could be enhanced.

In addition, the Commerce OIG reported that Commerce’s National Institute of Standards
and Technology and the National Oceanic and Atmospheric Administration both actively
exchange scientific information and expertise under the 1979 U.S.-China Science and
Technology agreement. The Commerce OIG found that these agencies appeared to be
complying with or are in the process of complying with export control regulations during
the exchange of information related to the agreement.

The Defense OIG found that its Department needed to document its analyses on export
applications, insert documents into its automated system to support its analyses, and
elevate decisions to the extent possible to produce a decision that supports national
security. Within the Department of Homeland Security, the OIG determined that the
relationship between export-related arrests and the export screening process was limited
and did not allow a conclusion to be drawn on the effectiveness of Customs and Border
Protection’s screening process.

The State Department OIG found licensing policies and procedures on the commercial
export of defense items were ineffective in some cases as shown by the results of the
Department’s own end-use monitoring program. At the Department of Energy, the OIG
determined personnel were appropriately participating in the export license review
process to control the export of critical technologies to China.

The CIA OIG reported that its agency provided the Department of Commerce generally
timely reviews of dual-use commodity export license applications involving Chinese end
users or intermediaries. However, the CIA was unable to fully meet Department of State
requirements. CIA intelligence support to the Department of State is the subject of a
recommendation in this year’s CIA export controls audit report.
Followup on Previous Interagency Reviews
As required by the National Defense Authorization Act for 2001, Appendix G
(Volume II) provides the status of recommendations from previous years’ agency-
specific and interagency reports.

Recommendations and Management Comments
There are no interagency recommendations in this year’s report; therefore, management
comments are not required. The participating OIGs made recommendations specific to

5
    End-use checks help verify the legitimacy of dual-use export transactions.

                                                       ii
their own agencies. Recommendations, management comments, and OIG responses are
included in the separate reports that each office issued. They may be found in
Appendix B (Commerce), Appendix C (Defense), Appendix D (Energy), Appendix E
(State), and Appendix F (Homeland Security). Appendixes B, C, D, and E, are in
Volume I and Appendix F is in Volume II. The recommendations on previous
interagency reviews are in Volume II; and Appendixes H, I, and J contain the classified
results of work completed by the Central Intelligence Agency and the Department of
Commerce in Volume III.




                                           iii
Table of Contents

Executive Summary                                                                   i

Introduction                                                                       1

Background                                                                         2

Objective                                                                          5

Effectiveness of Controls Over Exports to China                                    5

Appendixes
          A. Scope and Methodology                                                  7
               Interagency Scope                                                    7
               Interagency Methodology                                              7
          B. Department of Commerce Report                            (Volume I) B-1
          C. Department of Defense Report                             (Volume I) C-1
          D. Department of Energy Report                              (Volume I) D-1
          E. Department of State Report                               (Volume I) E-1
          F. Department of Homeland Security Report (FOUO)1          (Volume II) F-1
          G. Followup on Prior Interagency Reviews (FOUO)            (Volume II) G-1
          H. Central Intelligence Agency Report (SECRET//NOFORN2)   (Volume III) H-1
          I. Department of Commerce Appendix (CONFIDENTIAL)          (Volume III) I-1
          J. Department of Commerce Appendix (SECRET//NOFORN)        (Volume III) J-1




1
    FOUO – For Official Use Only
2
    NOFORN – No Foreign National
Introduction
    Public Law 106-65, “National Defense Authorization Act for FY 2000,” section
    1402 requires that the Offices of Inspector General (OIG) provide an annual
    report to Congress through 2007 on the transfer of militarily sensitive technology
    to countries and entities of concern. The Act further requires that the Inspectors
    General of the Departments of Commerce, Defense, Energy, and State, in
    consultation with the Directors of Central Intelligence and the Federal Bureau of
    Investigation, conduct an annual review of the adequacy of export control policies
    and procedures in the U.S. Government.

    To comply with the first-year requirement of the Act, the OIGs conducted
    agency-specific and interagency reviews of compliance with license requirements
    for releasing export-controlled technology to foreign nationals in the United
    States. Also, the OIGs reviewed Government actions to protect against the illicit
    transfer of U.S. technology through select intelligence, counterintelligence,
    foreign investment reporting, and enforcement activities.

    Two interagency reports were issued to fulfill the first-year requirement of the
    Act: Report No. D-2000-109, “Interagency Review of the Export Licensing
    Process for Foreign National Visitors,” issued on March 24, 2000, and Report
    No. 00-OIR-05, “(U) Measures to Protect Against the Illicit Transfer of Sensitive
    Technology,” issued on March 27, 2000.

    To meet the second-year requirement of the Act, the OIGs conducted an
    interagency review to assess policies and procedures for developing, maintaining,
    and revising the Commerce Control List and the U.S. Munitions List. The
    interagency report, D-2001-092, “Interagency Review of the Commerce Control
    List and the U.S. Munitions List,” was issued in March 2001.

    To meet the third-year requirement of the Act, the OIGs conducted an interagency
    review of the Federal automation programs that support the export licensing and
    enforcement process. That interagency report, D-2002-074, “Interagency Review
    of Federal Automated Export Licensing Systems,” was issued in March 2002.

    To meet the fourth-year requirement of the Act, the OIGs conducted an
    interagency review of U.S. Government actions to enforce export controls and
    prevent or detect the illegal transfer of militarily sensitive technology to countries
    and entities of concern. That interagency report, Report No. D-2003-069,
    “Interagency Review of Federal Export Enforcement Efforts,” was issued in
    April 2003.

    To meet the fifth-year requirement of the Act, the OIGs conducted an interagency
    review on the release of export-controlled technology to:

       •   foreign nationals at U.S. academic institutions,

       •   Federal contractors and other private companies, and

       •   research facilities.

                                          1
           That interagency report, Report No. D-2004-062, “Interagency Review of Foreign
           National Access to Export-Controlled Technology in the United States,” was
           issued in April 2004.

           To meet the sixth-year requirement of the Act, the OIGs conducted an interagency
           review to assess whether the current export licensing process could help deter the
           proliferation of chemical and biological commodities. An interagency report,
           Report No. D-2005-043, “Interagency Review of the Export Licensing Process
           for Chemical and Biological Commodities,” was issued on June 10, 2005.

           This year1 the OIGs conducted an interagency review of U.S. controls over
           exports to China.


Background
           The United States controls the export of commodities and technologies for
           national security, foreign policy, antiterrorism, and nonproliferation reasons,
           under the authority of several laws. The primary legislative authority for
           controlling the export of goods and technologies with both commercial and
           military applications is the Export Administration Act of 1979.2 The export of
           Defense munitions is controlled under
           authority of the Arms Export Control
           Act of 1976.
                                                                  Technologies Sought
           China’s Military Modernization                                by China
           Strategy and Acquisition of Foreign
           Technologies. The Chinese government                • Information Technology
           has made public statements and DoD                  • Microelectronics
           issued a 2005 study demonstrating that              • Nanotechnology
           China seeks to modernize its military
           through an aggressive program of                    • Space Systems
           domestic industrial reform and                      • Innovative Materials
           acquisition of key weapons and                      • Propulsion Systems
           technologies from foreign sources.3                 • Missile Systems
           Specifically, China’s so-called “grand              • Computer-aided
           strategy” includes three main                         Manufacturing and Design
           modernization and technology
           acquisition components: (1) “selective          Source: U.S. Department of Defense

1
    This year’s interagency report fulfills our annual statutory requirement for 2006.
2
    Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C. app. Sec. 2402(2). Although the act
    last expired on August 21, 2001, the President extended existing export regulations under Executive
    Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency
    Economic Powers Act.
3
    U.S. Department of Defense, Office of the Secretary, “The Military Power of the People’s Republic of
    China,” Washington, DC: U.S. Department of Defense, 2005; Keith Crane, Roger Cliff, Evan Medeiros,
    James Mulvenon, and William Overholt, “Modernizing China’s Military: Opportunities and Constraints,”
    MG-260. Santa Monica, CA: RAND Corporation, 2005.

                                                        2
           modernization” of its existing strengths in electronics, missile-related
           technologies, and precision-strike weapons; (2) “civil-military integration” aimed
           at reforming China’s defense industries; and (3) acquisition of advanced foreign
           technologies that can be used to enhance China’s military capabilities.

           To achieve its military modernization plan, the Chinese government employed its
           “Three-Ways Policy,” which includes: (1) technology acquisition from foreign
           sources, (2) joint development with foreign entities, and (3) domestic research
           and development. As indicated in the Chinese government’s outline for the
           “Tenth Five-Year Plan for National Economic and Social Development (2001-
           2005),” China continues to seek a number of high technologies (see box on page
           2).

           U.S. Export Controls for China. The U.S. Government’s continuing concerns
           over China’s human rights violations and the threat of proliferation of weapons of
           mass destruction support continuing economic sanctions towards China, even as
           U.S.-China economic relations continue to deepen. The Tiananmen Square
           sanctions are one of the prime sources of U.S. export controls toward China.4
           These sanctions were established following the Chinese government’s response to
           the demonstrations at Tiananmen Square in 1989. The Tiananmen sanctions most
           pertinent sections include: (1) the prohibition of U.S. arms exports to China,
           (2) restrictions on certain dual-use exports, and (3) U.S. export and licensing
           restrictions on Chinese entities engaged in proliferation of missiles and/or
           weapons of mass destruction.

           U.S. Export Control Policies and Practices for Hong Kong. China and the
           United Kingdom agreed to the terms of Hong Kong’s transfer from the United
           Kingdom back to China in a 1984 Joint Declaration. The declaration calls for
           Hong Kong to be a Special Administrative Region of China that “will enjoy a
           high degree of autonomy” except for defense and foreign affairs. Hong Kong is
           to remain a separate territory and retain its status as a free port for 50 years.

           The United States-Hong Kong Policy Act of 1992 states that the U.S.
           Government will continue to treat Hong Kong as a separate territory with respect
           to economic and trade matters. Also, the Act stated that the U.S. Government
           will support Hong Kong’s continued access to sensitive technologies if those
           technologies are protected. Therefore, the U.S. export control policy for Hong
           Kong is less restrictive than the policy for China. The U.S. Government applies
           different licensing policies and standards to Hong Kong than it does to China,
           reportedly because of Hong Kong’s ability to maintain an effective export control
           system and the U.S. concerns over China’s proliferation and military activities.

           Thus, Hong Kong receives preferential licensing treatment. For example,
           exporters do not need to submit license applications to obtain U.S. Government
           approval for exports to Hong Kong for many dual-use items, such as certain types
           of ball bearings and optical sensors. However, those items require a license for
           export to China. Further, the United States generally approves export
           applications even when an export license to Hong Kong is required.

4
    Section 902 of the Foreign Relations Authorization Act, FYs 1990 and 1991 (P.L. 101-246; 22 U.S.C.
    2151 note).

                                                     3
     China Dual-Use Export License Application Trends. From FYs 2001 through
     2005, applications for dual-use export licenses to China increased from 1,313 to
     1,722, an increase of 31.2 percent. During FY 2005, 1,058 of the
     1,722 applications (61.4 percent) were approved, 26 (2.5 percent) were denied,
     and 332 (19.3 percent) were returned to the exporter without action.

     Applications for Exporting Munitions to China. The State Department’s
     Directorate of Defense Trade Controls received 73 license applications for
     exports to the People’s Republic of China in FY 2004 and 85 license applications
     for exports to Hong Kong. The State Department approved 10 and denied 63 of
     the 73 applications for the People’s Republic of China. Hong Kong received
     licenses for 46 of the 85 applications.


Responsibilities of Federal Departments for Processing Export
  License Applications
     Commerce. The Department of Commerce’s Bureau of Industry and Security
     (BIS) administers the Export Administration Regulations by developing export
     control policies, issuing export licenses, and enforcing the laws and regulations
     for dual-use exports. After BIS conducts its initial review, the license application
     is referred to the Defense, Energy, and State departments, unless those agencies
     have delegated their decision-making authority to the Department of Commerce.
     If the application involves an item controlled for reasons relating to the protection
     of encryption technologies, Commerce also refers it to the Justice Department. In
     addition, as of November 2003, BIS requires its licensing officers to forward all
     China export license applications to the Central Intelligence Agency’s Center for
     Weapons Intelligence, Nonproliferation, and Arms Control (WINPAC) for an
     end-user review.

     Central Intelligence Agency. The CIA provides intelligence support to the
     Department of Commerce on dual-use license applications and to the Department
     of State on munitions license applications. CIA analysts review comprehensive
     intelligence records to provide information to these agencies that will assist them
     with making decisions to approve or deny licenses.

     During FY 2004, the Department of Commerce’s BIS submitted license
     applications to WINPAC, some of which were for exports to China. In addition
     to providing intelligence support to BIS, WINPAC analysts and experts are also
     actively involved in export licensing advisory and oversight groups.

     Defense. Although the Departments of Commerce and State are responsible for
     issuing export licenses, the Department of Defense reviews license applications
     and recommends approval, approval with conditions, or denial of licenses
     involving dual-use and munitions commodities or technology. The Defense
     Technology Security Administration (DTSA) serves as the Department’s focal
     point for processing license applications and advises the Under Secretary of
     Defense for Policy on issues related to the transfer of sensitive technology and the
     export of dual-use items and munitions. DTSA also assists in developing export

                                           4
     control policies and procedures that are necessary to protect U.S. national security
     interests.

     Energy. The Energy Department’s Office of International Regimes and
     Agreements reviews license applications and recommends approval, approval
     with conditions, or denial of licenses. Energy reviews licenses involving nuclear,
     chemical, biological, and missile dual-use and munitions commodities or
     technology referred to it by the Commerce and State departments.

     State. Under the Arms Export Control Act, the State Department’s Bureau of
     Political-Military Affairs, Directorate of Defense Trade Controls (PM/DDTC)
     administers the International Traffic in Arms Regulations (ITAR). The Bureau of
     Political-Military Affairs administers the ITAR by:

         •   developing export control policies,

         •   registering companies and academic institutions to export munitions,

         •   issuing licenses and compliance provisions, and

         •   maintaining the U.S. Munitions List.

     Also, the State Department reviews munitions export licenses and approves,
     conditionally approves, or disapproves an applicant’s license, including those
     related to the release of export-controlled technology to foreign nationals in the
     United States.

     Homeland Security. As the enforcement arm at U.S. ports for the State and
     Commerce Departments, the Department of Homeland Security’s Customs and
     Border Protection (CBP) is responsible for ensuring that licensable exports, in this
     case exports to China, are processed in accordance with applicable laws and
     regulations. CBP uses the Immigration and Customs Enforcement Exodus
     Command Center as a liaison with the State and Commerce Departments to
     answer questions that may arise as to whether a shipment is licensable. CBP
     officers are directed to send any such questions to the Exodus Command Center
     for resolution.


Objective
     Our overall objective was to assess the effectiveness of the U.S. Government’s
     export control policies and practices with respect to preventing the transfer of
     sensitive U.S. technologies and technical information to China.


Effectiveness of Controls Over Exports to China
     The interagency review identified agency-specific areas needing improvement to
     promote a more effective system of controls over exports to China. However, this

                                          5
year’s interagency report contains no findings or recommendations. Therefore,
management comments are not required.

The participating OIGs made specific recommendations for their own agencies.
Those recommendations, management comments, and OIG responses are
included in the separate reports that each office issued. See Appendixes B
through F and H through J.




                                   6
Appendix A. Scope and Methodology

Interagency Scope

     The interagency review assessed the effectiveness of the U.S. Government’s
     export control policies and practices for preventing the unauthorized transfer of
     sensitive U.S. technologies and technical information to China. Specifically, we
     examined whether current licensing and enforcement practices and procedures
     were consistent with relevant laws and regulations, as well as established national
     security and foreign policy objectives.

     In addition, we assessed the effectiveness of coordination among the various
     Federal agencies during the dispute resolution process for export license
     applications involving China. The participating review teams were from the
     Departments of Commerce, Defense, Energy, State, Homeland Security, and the
     Central Intelligence Agency.


Interagency Methodology

     To coordinate the review issues related to the export licensing process for exports
     to China and determine the work to be performed by each OIG team, the six OIGs
     participated in an interagency working group and held monthly meetings while
     conducting agency-specific reviews.

     Interagency working group members also attended meetings sponsored by the
     Department of Commerce’s Operating Committee and its Advisory Committee on
     Export Policy. In addition, interagency working group members attended an Air
     Force-sponsored briefing on its multi-agency China program.

     This report summarizes the work completed by the six interagency working group
     members. The four unclassified OIG reports are contained in Volume I, a For
     Official Use Only report is in Volume II, and a SECRET//NOFORN report and
     appendixes from the Central Intelligence Agency OIG and the Commerce OIG
     reports, respectively, are in Volume III. The interagency review was performed
     between May 2005 and October 2006.




                                          7
Appendix B. Department of Commerce Report




                    B-1
U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              BUREAU OF INDUSTRY
                    AND SECURITY


           U.S. Dual-Use Export Controls for
              China Need to Be Strengthened

                         Final Report No. IPE-17500/March 2006




                            PUBLIC
                            RELEASE

               Office of Inspections and Program Evaluations
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   The Inspector General
                                                   Washington, D.C. 20230


March 30, 2006




MEMORANDUM FOR:                David H. McConnick
                               Under Secretary for Industry and Security


FROM:

SUBJECT:
                               Johnnie E.                        .controls~
                                                                  &: -
                                                          se Export
                                                      d (IPE-17500)

As a follow-up to our March 9, 2006, draft repo      ttached is our final report on dual-use
export controls for China, the seventh report required by the National Defense
Authorization Act for Fiscal Year 2000, as amended. As you know, the act mandates that
we issue a report to the Congress on the policies and procedures ofthe U.S. government
with respect to the export of technologies and technical infonnation to countries and
entities of concern by March 30 of each year through 2007. This year's report focuses on
U.S. export controls for the People's Republic of China (China).

While our review found that coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license
applications involving China, we identified a number of areas of concern related to U.S.-
China export control activities. We offer a number of specific recommendations on page
42 that we believe will help strengthen these activities, if implemented. This report
contains two classified appendices that have been provided under separate cover.
Appendix C discusses end-use checks in China and is classified CONFIDENTIAL.
Appendix D is classified SECRETINOFORN and highlights concerns with the sharing
and utilization of intelligence infonnation within BIS' Export Enforcement.

We are pleased to note that BIS, in its written response to our draft report, indicated that
it has already taken or plans to take action on our recommendations. We request that you
provide us with an action plan addressing the status ofthe recommendations in our report
within 60 calendar days.

We thank you and other members of the BIS staff for your assistance and courtesies
extended to us during our review. If you would like to discuss this report or the requested
action plan, please call me at (202) 482-4661 or Jill Gross, Assistant Inspector General
for Inspections and Program Evaluations, at (202) 482-2754.

Attachment
U.S. Department of Commerce                                                                                    Final Report IPE-17500
Office of Inspector General                                                                                               March 2006


                                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND ............................................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 13

OBSERVATIONS AND CONCLUSIONS ................................................................................. 17

     I. Export Control Regulations and Procedures Related to China Should Be Strengthened.. 17
        A. BIS regulations raise some conventional weapons concerns ..................................... 17
        B. BIS’ public statements regarding licenses to China are inconsistent with the EAR .. 21

     II. BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved ............ 23
         A. End-use checks in China still face challenges ............................................................ 23
         B. BIS needs to more aggressively monitor potential diversions of export-controlled
            items from Hong Kong to China................................................................................ 23
         C. BIS needs to improve staffing continuity for its operations in Hong Kong
            and China .................................................................................................................... 29

     III. BIS’ Monitoring of License Conditions Could Be Enhanced ........................................... 32
          A. BIS should ensure that there is a technical review of technical documentation
             submitted by exporters or end users pursuant to license conditions........................... 33
          B. China post shipment verification license conditions were not properly marked for
             follow-up..................................................................................................................... 34

     IV. NIST and NOAA Conduct Various Activities Pursuant to the 1979 U.S.-China
         Science and Technology Agreement ................................................................................. 36
         A. NIST’s Science and Technology exchange activities with China .............................. 36
         B. NOAA’s Science and Technology exchange activities with China............................ 39

SUMMARY OF RECOMMENDATIONS .................................................................................. 42

APPENDICES
  Appendix A: Acronyms ........................................................................................................ A-1
  Appendix B: Interagency Dual-Use Export Licensing Process ............................................ B-1
  Appendix C: End-Use Checks in China (CONFIDENTIAL)*............................................. C-1
  Appendix D: Intelligence Sharing Issues for End-Use Check Targeting
     (SECRET/NOFORN)* .................................................................................................... D-1
  Appendix E: BIS Management Response ..............................................................................E-1
  Appendix F: NOAA Management Response .........................................................................F-1

*Appendices C and D are available separately from the Office of Inspector General
U.S. Department of Commerce                                                                Final Report IPE-17500
Office of Inspector General                                                                           March 2006


                                         EXECUTIVE SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an eight-year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. The NDAA mandates that the
Inspectors General report to the Congress no later than March 30 of each year, until 2007.

The United States controls the export of sensitive goods and technologies for national security,
foreign policy, and nonproliferation reasons under the authority of several different laws. The
primary legislative authority is the Export Administration Act of 1979.1 Under the Act, the
Commerce Department’s Bureau of Industry and Security (BIS) administers the Export
Administration Regulations (EAR) by developing export control policies, issuing export licenses,
and enforcing the laws and regulations for dual-use exports.

Serious concerns exist over the People’s Republic of China’s (China’s) weapons of mass
destruction proliferation record, the adequacy of its export control policies, and its efforts to
obtain sensitive technologies to advance its military capabilities. A critical question is the U.S.
government’s capacity to implement effective controls over U.S. exports to China. In addition,
while current U.S. policy2 supports the Hong Kong Special Administrative Region’s (Hong
Kong) high degree of autonomy established under the Joint Declaration signed by the United
Kingdom and China in 1984 and the Basic Law promulgated by China in 1990, the U.S.
government has been tasked with monitoring Hong Kong’s ability to maintain an effective and
transparent export control regime.

Between FYs 2001 and 2005, the number of China export license applications received by BIS
increased approximately 31 percent. Of the 17,129 total export license applications received by
BIS in FY 2005, 1,772 (approximately 10 percent) were for exports to China. Some U.S. high
technology industries cite export controls as significant barriers to (1) reducing the $193.9 billion
U.S. trade deficit with China in FY 2005 and (2) increasing legitimate U.S. exports to China,
which totaled $38.9 billion. That same fiscal year, the value of approved exports to China
requiring export licenses totaled $2.4 billion (approximately 6.2 percent of total U.S. exports to
China), while the value of denied export licenses equaled $12.5 million (less than 1 percent).
The value of applications returned without action totaled $587.4 million.3

To satisfy the FY 2006 NDAA reporting requirement, the Inspectors General from the
Departments of Commerce, Defense, Energy, Homeland Security, and State, and the Central
1
  Although the act last expired on August 21, 2001, the President extended existing export regulations under
Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency
Economic Powers Act.
2
  The United States-Hong Kong Policy Act of 1992, as amended, establishes the authority of the U.S. government to
treat Hong Kong as a non-sovereign entity distinct from China for the purposes of U.S. domestic law based on the
principles of the 1984 Sino-British Joint Declaration.
3
  It should also be noted that the existence of U.S. export control regulations towards China might have a
discouraging effect on potential U.S. exports to China that may lead U.S. companies to not apply for export licenses.
                                                          i
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


Intelligence Agency agreed to conduct a review of U.S. export controls for China.4 Within
Commerce, we sought to evaluate (1) the consistency of BIS’ export control policies, practices,
and procedures regarding China with relevant laws and regulations; (2) the effectiveness of
coordination among federal agencies during the dispute resolution process for export license
applications involving China; (3) the potential for diversion of sensitive commodities from Hong
Kong to China; (4) the effectiveness of BIS’ end-use check program in China and Hong Kong;
and (5) what activities Commerce bureaus are engaged in pursuant to the 1979 U.S. and China
Science and Technology Agreement and, to the extent practicable, whether they are adhering to
export control regulations.5

While our review found that the coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license applications
involving China, we identified a number of areas of concern related to U.S.-China export control
activities. Our specific observations are as follows:

Export Control Regulations and Policies Related to China Should Be Strengthened. There
is no regulatory basis to deny an export license application solely on the basis of military end use
if the item is not controlled for “national security” reasons. As a result, military end users in
China may be receiving sensitive U.S. commodities that can be used in the development of
conventional weapons. During the course of our review, we identified two China export license
applications that the U.S. government was unable to deny despite significant concerns over the
risk of diversion to unauthorized end users or end uses.

In addition, we found that BIS’ public statements about its export control policy for China are
inconsistent with the EAR. Specifically, while the EAR states, “[i]tems may be approved even
though they may contribute to Chinese military development or the end-user or end-use is
military,” BIS officials have repeatedly stated that BIS does not approve export licenses to
military end users in China. This inconsistency results in a lack of transparency to exporters and
may cause difficulties in implementation and application of export controls within the
interagency export licensing community (see page 17).

BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved. End-use
checks, an important part of the license review and enforcement process, verify the legitimacy of
dual-use export transactions controlled by BIS. A pre-license check (PLC) is used to validate
information on export license applications by determining if an overseas person or firm is a
suitable party to a transaction involving controlled U.S.-origin goods or technical data. Post
shipment verifications (PSVs) strengthen assurances that exporters, shippers, consignees, and

4
  Although not mandated by the NDAA for FY 2000, the Department of Homeland Security Office of Inspector
General participated in this year’s review.
5
  The NDAA for FY 2003 [Public Law 106-398, Section 1207(d)(2)(F)] requires the Commerce Office of Inspector
General to assess the extent to which programs and activities conducted under the Agreement Between the
Government of the United States of America and the Government of the People’s Republic of China on Cooperation
in Science and Technology, signed in Washington, DC on January 31, 1979, as amended and extended (hereafter
referred to as the S&T Agreement) are carried out in compliance with export control laws and regulations, especially
those governing deemed exports. The term “deemed export” derives from Section 734.2(b)(2)(ii) of the EAR, which
states “any release of technology or source code subject to the EAR to a foreign national… is deemed to be an
export to the home country or countries of the foreign national.”
                                                         ii
U.S. Department of Commerce                                                     Final Report IPE-17500
Office of Inspector General                                                                March 2006


end users comply with the terms of export licenses, by determining whether goods exported from
the U.S. were actually received by the party named on the license and are being used in
accordance with the license provisions. BIS Export Control Officers (ECOs) conduct end-use
checks in China and Hong Kong.

While the reluctance of the Chinese government to allow requested end-use checks has often
precluded the U. S. government from performing many checks, agreement to the End Use Visit
Understanding (EUVU) by both countries in April 2004 afforded BIS the ability to conduct end-
use checks on a wider spectrum of licensed goods and technologies in China. Nonetheless, the
Chinese government has periodically slowed end-use visit cooperation since agreement to the
EUVU. In addition, a number of the terms for conducting end-use checks outlined in the
agreement are somewhat restrictive. Furthermore, we found that neither PLCs nor PSVs were
being performed within prescribed time limits. We present our specific concerns on this issue in
a classified appendix to this report (see Appendix C, classified CONFIDENTIAL).

Based on our review of BIS’ Hong Kong end-use check program, we determined that BIS is not
aggressively enough monitoring potential diversions of export-controlled items from Hong Kong
to China. Specifically, BIS’ policy at the time of our review sought to have



          Given the relative ease of conducting end-use checks in Hong Kong compared to
China (due the size of the territory and the lack of host government restrictions on conducting
such checks), it seems reasonable that more end-use checks can be done.

In addition, BIS was not adequately targeting PSVs for shipments that can be exported to Hong
Kong without a license but would require a license to China.
                                   . However, four shipments were covered by a license
exception and were eligible for re-export from Hong Kong to China without a license. As a
result, these particular PSVs were an inefficient use of ECO resources. We identified two main
reasons for the poor targeting of “no license required” shipments to Hong Kong, including (1)
inadequate upfront research by the Office of Enforcement Analysis (OEA) and (2) inadequate
intelligence sharing between the Office of Export Enforcement and OEA.

Finally, we noted that BIS does not have a formal staffing plan in place to help ensure continuity
in its assignments of ECOs in Hong Kong and China. Specifically, there is currently no pool of
talent within BIS (e.g., a law enforcement agent with Mandarin Chinese language skills) from
which to draw replacement ECOs. Moreover, the ECO in Hong Kong is scheduled to depart post
in May 2006 (after recently extending his assignment) and the term of the current ECO in China
expires in December 2006. BIS recently informed us that it has selected a candidate for the
Hong Kong position, but he is not expected to arrive at post until July 2006 since he will have to
obtain basic law enforcement training (see page 23).

BIS’ Efforts to Ensure Compliance with License Conditions Could Be Enhanced. The
ability to place conditions on a license is an important part of the license resolution process, as
well as an additional mechanism to monitor certain shipments. Of the 55 standard license

                                                 iii
U.S. Department of Commerce                                                                 Final Report IPE-17500
Office of Inspector General                                                                            March 2006


conditions, six require the licensee to submit export documentation to BIS regarding the
shipment of a controlled commodity. A seventh condition, referred to as “Write Your Own”
(WYO), allows licensing officers to formulate unique requirements, which may also include
reporting requirements. Export Administration is responsible for monitoring five of these
conditions (including the WYO condition), and Export Enforcement the remaining two.

While BIS has a process to track whether or not exporters actually submit documentation
pursuant to six of the seven license reporting conditions6 provided the licenses are properly
marked, it does not require licensing officers to actually review the documentation. As a result,
we identified 11 China cases that required exporters to submit technical documentation pursuant
to conditions uniquely formulated by the interagency licensing agencies that did not receive a
technical review. Without a substantive, technical review of the documentation, BIS cannot
determine whether the exporter (and/or end user) is complying with the intent of the license
conditions.

In addition, we identified five China licenses that required a PSV but were not properly marked
by the licensing officer with “Condition 14.”7 Instead the text of the PSV condition was
recorded in the WYO condition despite a countersigning process meant to ensure that licenses
applications are processed appropriately, including making sure that license conditions are
accurately reflected on the license applications. As such, these licenses were not entered into
Export Enforcement’s tracking system, which is monitored by OEA. While the exporters
submitted the required shipping documentation to BIS for three of the five licenses,8 this
information was not forwarded to OEA. Because of the time that elapsed between the date of
shipment and OEA’s actual receipt of the shipping documents after our inquiry, OEA was not
able to initiate the PSV request per the terms of the April 2004 End Use Visit Understanding. As
a result, BIS cannot determine whether the goods involved in these cases were diverted to
unauthorized end users or end uses (see page 32).

NIST and NOAA Conduct Various Activities Pursuant to the 1979 Agreement with China
on Science and Technology. In 1979, the governments of the United States and China entered
into an agreement to promote cooperation in the field of science and technology. Under this
agreement, individual U.S. government agencies may engage their Chinese counterparts in
activities to promote the exchange of information and expertise in specific areas of science and
technology. The Commerce Department’s National Institute of Standards and Technology
(NIST) and the National Oceanic and Atmospheric Administration (NOAA) both maintain active
protocols under the agreement.9



6
  Licenses requiring exporters to submit post shipment reports on high-performance computer exports to certain
countries are monitored separately from Export Enforcement’s Conditions Follow-up Subsystem.
7
  When a licensing officer marks “Condition 14” on a license application, the license is automatically entered into
Export Enforcement’s Conditions Followup Subsystem and targeted for subsequent monitoring. Exporters are
required to submit copies of Shipper’s Export Declarations to OEA following the initial shipment, which then
initiates a PSV.
8
  According to BIS, shipments had not yet been made against the remaining two licenses as of January 17, 2006.
9
  According to the Department of State, a total of six Cabinet-level Departments and four independent federal
agencies maintained active protocols under this agreement as of April 2005.
                                                         iv
U.S. Department of Commerce                                                  Final Report IPE-17500
Office of Inspector General                                                              March 2006



Overall, we found that NIST appears to be complying with export control regulations with
respect to activities undertaken pursuant to the 1979 S&T Agreement. Specifically, we inspected
12 of the 129 EAR-controlled items at the Gaithersburg, Maryland campus to determine whether
Chinese national visitors could have access to the controlled technologies. We found that
although long-term Chinese foreign national visitors were not always vetted for security
purposes prior to gaining access to some rooms or laboratories that contained EAR-controlled
items, those items were locally secured such that they were restricted from access. In addition,
NIST reported that all short-term Chinese foreign national visitors are escorted by NIST
personnel at all times and are not allowed to access EAR-controlled technology. Further, NIST
has instituted a program to conduct an "upfront" review of its research activities to determine
whether technology used and/or created by NIST researchers and their staff (including foreign
guest researchers) is subject to U.S. export control laws.

During the course of our fieldwork at NOAA, we found that it was in the process of conducting
an inventory of EAR-controlled items at its facilities where foreign nationals (including some
Chinese foreign nationals) were present or that contained critical infrastructure. NOAA
completed its initial inventories of EAR-controlled technology at these facilities in December
2005 and made a preliminary determination that no deemed export licenses were required.
According to NOAA, on February 16,2006, BIS provided favorable feedback regarding
NOAA's inventories and assessment, including NOAA's conclusion that there are no instances
where deemed export licenses are needed for any foreign nationals working in NOAA facilities.
In addition, NOAA presentations and publications developed under science and technology
activities appeared to contain publicly available information and, therefore, would not be subject
to dual-use export controls. Finally, Commerce's Office of Security informed us that no Chinese
foreign national visitor or guest researcher is given unescorted access into NOAA facilities until
after the completion and adjudication of a background investigation. While it appears that
Chinese foreign nationals did not have access to EAR-controlled technology, we did not verify
the controls in place limiting foreign national access (see page 36).

We also found that employees from both NIST and NOAA who traveled to China




This report contains two appendices that contain classified information. Appendix C, as noted
above, discusses end-use checks in China and is classified CONFIDENTIAL. Appendix D is
classified SECRET/NOFORN and highlights concerns with the sharing of intelligence
information between Export Enforcement's Office of Export Enforcement and its Office of
Enforcement Analysis that could be helpful in targeting end-use checks in Hong Kong.




                                                v
U.S. Department of Commerce                                                  Final Report IPE-17500
Office of Inspector General                                                             March 2006




On page 42, we list a summary of the recommendations we are making to address our concerns.



In its March 23, 2006, written response to our draft report, the Under Secretary for Industry and
Security stated that BIS had taken or is in the process of taking steps to meet the report’s
recommendations. In addition, NOAA’s written response to our draft report stated that it agrees
with our overall findings and recognizes the continued need to heighten awareness within its
research community to ensure compliance with the Export Administration Regulations. Where
appropriate, we have made changes to the report and recommendations in response to both
formal and informal comments from the two agencies. We discuss pertinent aspects of their
responses in appropriate sections of the report. The complete responses from BIS and NOAA
are included as appendixes to this report




                                                vi
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


                                              BACKGROUND

The United States controls the export of dual-use items for national security, foreign policy, and
nonproliferation reasons under the authority of several different laws. Dual-use items are goods
and technologies determined to have both civilian and military uses. The primary legislative
authority for controlling the export of dual-use commodities is the Export Administration Act
(EAA) of 1979, as amended.12

Under the Act, the Department of Commerce’s Bureau of Industry and Security (BIS)
administers the Export Administration Regulations (EAR) by developing export control policies,
issuing export licenses, and enforcing the laws and regulations for dual-use exports. In FY 2005,
BIS had 361 full-time equivalent staff members and an appropriation of approximately $67.5
million. Its two operating units principally responsible for export controls are Export
Administration and Export Enforcement.

U.S.-China Relations and Dual-Use Export Control Concerns

                        China is a communist state with the world’s largest population
                        (approximately 1.3 billion) and one of the world’s fastest growing
                        economies. In the last 14 years, its economy has grown at an average
                        rate of 10 percent; its gross domestic product (GDP) grew 9.5 percent in
                        2004 and the World Bank projected GDP growth of 9.3 percent in 2005.
                        China has become the world’s third largest trading nation behind the
United States and Germany, and is an important trading partner of the United States. U.S.
exports to China totaled $38.9 billion in FY 2005, making it the fifth largest export market for
U.S. exports. However, Chinese imports to the United States in FY 2005 exceeded $232.9
billion.13 The United States is also a significant investor in China, with its investment there
growing from $2 billion in 1995 to $15 billion in 2004.14

China’s export control system has been criticized in the past by many western nations for its
insufficiency in controlling the exports of sensitive technologies and weapons to nations of
global and regional security concerns. However, China has been trying to improve certain
aspects of its export control system. For example, China is a signatory of the Nonproliferation
Treaty, the Chemical Weapons Convention, the Biological Weapons Convention, and the
Comprehensive Test Ban Treaty. Further, China became a member of the Nuclear Suppliers
Group, a multilateral control regime for nuclear technologies, in 2004.15


12
   Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C app. sec. 2402(2). Although the Act expired on
August 20, 2001, the Congress agreed to the President’s request to extend existing export regulations under
Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority under the International
Emergency Economic Powers Act.
13
   U.S. Census Bureau, Trade in Goods (Imports, Exports and Trade Balance) with China, available at
www.census.gov/foreign-trade/balance/c5700.html, accessed January 18, 2006.
14
   U.S. Government Accountability Office. China Trade: U.S. Exports, Investment, Affiliate Sales Rising, but Export
Share Falling, GAO-06-162, December 2005.
15
   China has submitted its application to join the Missile Technology Control Regime, but member states have been

                                                        1
U.S. Department of Commerce                                                              Final Report IPE-17500
Office of Inspector General                                                                         March 2006


China’s Military Modernization Strategy and Acquisition of Foreign Technologies

Public statements by the Chinese government and a recent study by the U.S. Department of
Defense support the understanding that China seeks
to modernize its military through an aggressive
program of domestic industrial reform and
                                                             Some Technologies Sought
acquisition of key weapons and technologies from
                                                                        by China
foreign sources that it currently lacks domestically.16
Specifically, China’s so-called “grand strategy”            • Information Technology
employs three main components: (1) “selective               • Microelectronics
modernization” of its existing strengths in electronics
                                                            • Nanotechnology
and missile-related technologies to further develop its
                                                            • Space Systems
capabilities in command, control, communications,
computers, intelligence, surveillance and                   • Innovative Materials
reconnaissance (commonly referred to as C4ISR),             • Propulsion Systems
and precision-strike weapons; (2) “civil-military           • Missile Systems
integration” aimed at reforming China’s defense             • Computer-aided
industries; and (3) acquisition of advanced foreign            Manufacturing and Design
technologies that can be used to enhance its military
                                                          Source: U.S. Department of Defense
capabilities.17

To achieve its military modernization plan, the
Chinese government has employed its “Three-Ways Policy,” which entails: (1) importation of
foreign technologies, (2) joint development with foreign entities, and (3) domestic research and
development.18 As indicated in the Chinese government’s outline for the Tenth Five-Year Plan
for National Economic and Social Development (2001-2005), China still continues to seek a
number of high technologies (see box above).19

U.S. Dual-Use Export Control Policies and Practice Toward China

The U.S. government’s continuing concerns over China’s human rights violations and the threat
of proliferation of weapons of mass destruction have resulted in the maintenance of economic
sanctions towards China even as U.S.-China economic relations continue to deepen. One of the
prime sources of U.S. export controls toward China today are the Tiananmen Square sanctions,20
which were enacted following the Chinese government’s response to the demonstrations at


resisting China’s admittance. In addition, China has begun participating in plenary sessions of the Wassenaar
Arrangement—a multilateral control regime for conventional weapons and related dual-use technologies—at the
urging of the United States, but is not a member.
16
   U.S. Department of Defense, Office of the Secretary, The Military Power of the People’s Republic of China.
Washington, DC: U.S. Department of Defense, 2005; Keith Crane, Roger Cliff, Evan Medeiros, James Mulvenon,
and William Overholt, Modernizing China’s Military: Opportunities and Constraints, MG-260. Santa Monica, CA:
RAND Corporation, 2005.
17
   Keith Crane, et al, 154-157.
18
   U.S. Department of Defense Office of the Secretary, 23.
19
   Ibid.
20
   Section 902 of the Foreign Relations Authorization Act, FYs 1990 and 1991 (P.L. 101-246; 22 U.S.C. 2151 note).

                                                        2
U.S. Department of Commerce                                                                  Final Report IPE-17500
Office of Inspector General                                                                             March 2006


Tiananmen Square in 1989. Some of the most pertinent sections include: (1) the prohibition of
U.S. arms exports to China, (2) restrictions on certain U.S. exports of dual-use items (e.g., items
controlled for crime control and regional stability), and (3) U.S. export and licensing restrictions
on Chinese entities of concern that have been found to have engaged in proliferation of missiles
and/or weapons of mass destruction.21

Further, the United States controls dual-use exports to China for reasons of national security,
chemical and biological weapons proliferation, nuclear proliferation, missile technology,
regional stability, and crime control. These controls are primarily derived from international
multilateral export control regimes, and the lists of items controlled are mutually agreed upon
between participating states. According to BIS, it generally practices a policy of denial for
exports of dual-use items to Chinese military end users and other entities that have significant
ties to the military.

Industry Concerns Over U.S. Dual-Use Export Controls for China

Despite recent increases in U.S. exports to China, the U.S. business community continues to
have concerns about the U.S. government’s dual-use export control policies toward China and
their perceived impact. Some U.S. high technology industries cite export controls as significant
barriers to reducing the $193.9 billion U.S. trade deficit with China in FY 2005 and increasing
legitimate U.S. exports to China, which totaled $38.9 billion. That same fiscal year, the value of
approved exports to China requiring export licenses totaled $2.4 billion (approximately 6.2
percent of total U.S. exports to China), while the value of denied export licenses equaled $12.5
million (less than 1 percent). 22 Applications returned without action totaled $587.4 million.

Nevertheless, it should be noted that certain sectors within the U.S. high-technology industry are
impacted significantly more by dual-use export controls than others, as many companies in those
sectors tend to develop and market specialized technologies and products that may be deemed
sensitive for national security reasons and, thus, more strictly controlled. Further, the existence
of U.S. export control regulations towards China can have a discouraging effect on potential U.S.
exports to China that may lead to self-imposed restrictions by U.S. companies in order to avoid
potentially lengthy license application processing times and license denials.

U.S. Export Control Policies and Practice Toward Hong Kong

                         China and the United Kingdom agreed to the terms of Hong Kong’s
                         reversion from the United Kingdom back to China in their 1984 Joint
                         Declaration. The declaration calls for Hong Kong to be a Special
                         Administrative Region of China that “will enjoy a high degree of
                         autonomy” except in the conduct of defense and foreign affairs. Under
                         the “one country, two systems” formulation, Hong Kong is to remain a
separate customs territory and retain its status as a free port for 50 years.

21
  Congressional Research Service, China: Economic Sanctions. Washington, DC: CRS, May 18, 2005: 1-2.
22
  Approval of a license does not necessarily mean that the export will occur within the same fiscal year or at all
because licenses are valid for two years and many are not acted upon by the exporter for various reasons.

                                                          3
U.S. Department of Commerce                                                                                        Final Report IPE-17500
Office of Inspector General                                                                                                   March 2006


The United States-Hong Kong Policy Act of 1992 calls upon the U.S. government to continue to
treat Hong Kong as a separate territory with respect to economic and trade matters and to support
Hong Kong’s continued access to sensitive technologies so long as such technologies are
protected. Therefore, the current U.S. export control policy toward Hong Kong is less restrictive
than that applied to China. Specifically, the U.S. government applies different licensing policies
and standards to Hong Kong than it does to China, reportedly because of Hong Kong’s ability to
maintain an effective export control system and concerns over China’s proliferation and military
activities. Thus, Hong Kong receives preferential licensing treatment. For example, for many
dual-use items (e.g., “composite structures” or laminates, certain types of ball bearings, and
certain optical sensors), exporters do not need to submit license applications to obtain prior U.S.
government approval for exports to Hong Kong, while those items would require a license for
export to China. Further, approval is generally granted even when an export license to Hong
Kong is required (see Figure 1).

Figure 1: Hong Kong Dual-Use Export License Applications Processed by BIS
                              160
                              140                      133
     Number of Applications




                                         118 120 122
                              120
                                    99
                              100
                                                                                                        78
                              80
                              60
                                                                                             37 34 43
                              40                                                                             25                    28
                              20                               8   5     5          3                                          0
                                                                                0                                  0   0   0
                               0
                                          Approved                     Denied            Returned Without Action       Pending
                                          FY2001             FY2002                 FY2003          FY2004         FY2005

Source: Export Administration, Bureau of Industry and Security

Dual-Use License Application Process for Exports to China

When BIS receives a license application, either manually or electronically, it is entered into the
Export Control Automated Support System (ECASS).23 ECASS screens all new applications to
determine whether the listed parties (1) have registration numbers in ECASS or need numbers
assigned and (2) raise concerns or Aflags@ that require the application to be referred to the Office
of Export Enforcement (OEE).24 Applications flagged by the system are simultaneously referred
to OEE and the licensing officers (LOs) in Export Administration. Unflagged applications are
referred only to the LOs for processing.




23
  ECASS is an unclassified system that processes and stores dual-use export licensing information for BIS.
24
  Generally, applications referred to OEE are those involving parties on BIS’ watchlist, which lists parties identified
as warranting increased scrutiny for export license purposes. OEE agents may also put flags on certain parties that
they are interested in seeing, such as parties involved in an ongoing investigation.

                                                                                    4
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


According to Executive Order 12981,25 BIS has nine days to conduct its initial review. During
this review, the LO first verifies the export control classification number (ECCN) the applicant
obtained from the Commerce Control List (CCL). The CCL lists commodities, software, and
technology subject to the export licensing authority of BIS. Each ECCN contains a brief
description of the item(s). Items that are subject to the EAR but not listed on the CCL are
designated as AEAR99."26

After verifying the ECCN, the LO reviews the license requirements and license exceptions for
that ECCN. The LO then (1) determines the reasonableness of the end use specified by the
exporter, (2) documents the licensing history of the exporter, (3) documents the licensing history
of the ultimate consignee or end user(s), (4) documents the reason(s) for not referring a license
application to the other agencies (if applicable), and (5) provides a written recommendation on
whether to approve or deny the application. After the LO’s review is completed, the application
is referred to the Departments of Defense, Energy, and State unless those licensing referral
agencies have delegated their decision-making authority to Commerce.27

In addition, as of November 2003, BIS requires its LOs to forward all China export license
applications to the Central Intelligence Agency’s Weapons Intelligence, Nonproliferation, and
Arms Control Center (WINPAC) for an end-user review. It should be noted that both agencies
are currently working on a new protocol outlining the specific procedures for WINPAC’s export
license review process, including China applications.

Under the Executive Order, the referral agencies must provide a recommendation to approve or
deny the license application to the Secretary of Commerce within 30 days of receipt of the
referral and all related required information. To deny an application, the referral agency is
required to cite both the statutory and regulatory basis for denial, consistent with the provisions
of the EAA and the EAR. An agency that fails to provide a recommendation within 30 days is
deemed to agree with the decision of the Secretary of Commerce (see Appendix B for a flow
chart depicting the licensing process).

Most export licenses for China are issued with conditions that require the exporter to abide by
certain restrictions. The conditions are primarily used to control proliferation of the commodity
by limiting the end-use or restricting access to the commodity to specific end users (see Chapter
III for more discussion on license conditions).

Dispute Resolution Process for China Export License Applications

If there is disagreement on whether or not to approve a pending license application after the 30-
day review period, the application is referred to a higher-level interagency working group called
the Operating Committee (OC), which meets weekly. Under Executive Order 12981, the OC has
25
   Executive Order 12981, as amended—Administration of Export Controls, December 5, 1995.
26
   EAR99 essentially serves as a “basket” designation for items that are subject to the EAR but not listed on the
CCL. EAR99 items can be shipped without a license to most destinations under most circumstances unless certain
prohibitions apply (e.g., export to an embargoed destination). The majority of U.S. exports are EAR99 items.
27
   BIS refers licenses to the Department of Justice only when the item is controlled for reasons relating to the
protection of encryption technologies.

                                                        5
U.S. Department of Commerce                                                                            Final Report IPE-17500
Office of Inspector General                                                                                       March 2006


representatives from the Departments of Commerce, Defense, Energy, and State. Non-voting
members of the OC include appropriate representatives of the CIA and the Joint Chiefs of Staff.
The Secretary of Commerce appoints the OC chairman who considers the recommendations of
the referral agencies before making a decision. While the OC Chair has the authority to decide
most cases at this level without having to reflect the recommendations of the majority of the
participating agencies, we found that the OC Chair’s decisions for China cases were generally
based on interagency consensus.28

The number of China export license                          Figure 2: Determinations for China Export
applications escalated to the OC dropped                    License Applications Escalated to the OC
significantly between FYs 2004 and 2005
                                                                                        70




                                                               Number of Applications
(see Figure 2 for a breakdown of the                                                    60
                                                                                             56
determinations for these licenses).                                                     50
                                                                                        40        29
Within five days of the OC chair’s decision,                                            30 19
a licensing referral agency may appeal or                                    7
                                                                                        20
                                                                                 2      10      2
escalate the decision to the Advisory
                                                                                         0
Committee on Export Policy (ACEP). The                      Approved         Denied       Returned
ACEP meets monthly if there are                                                         Without Action
applications to decide. It is chaired by the                       FY 2004         FY 2005
Commerce Assistant Secretary for Export
Administration, and includes Assistant           Source: Bureau of Industry and Security
Secretary-level representatives from the
Departments of Defense, Energy, and State. The ACEP also includes non-voting representatives
from the CIA and the Joint Chiefs of Staff. The ACEP’s decision is based on a majority vote.
Of the 13 China export license applications escalated to the ACEP in FY 2004, 10 were
approved and 3 were returned without action.29 In FY 2005, only three China export license
application were escalated to the ACEP, 2 were approved, and one was denied.

Within five days of an ACEP decision, any dissenting agency may appeal the majority decision
to the Export Administration Review Board (EARB). The Secretary of Commerce chairs the
EARB, and its members include the Secretaries of Defense, Energy, and State. The Chairman of
the Joint Chiefs of Staff and the Director of Central Intelligence are non-voting members of the
EARB. The EARB=s decision is based on a majority vote. Finally, within five days of the
EARB decision, any dissenting agency may make a final appeal to the President. No export
license applications for China were escalated to the EARB in FYs 2004 or 2005.




28
   Executive Order 12981, as amended, provides one exception to this rule for “ . . . license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines . . . ” For these applications, the chair of the OC is to report the “majority vote decision
of the OC” rather than his/her decision.
29
   According to the EAR, applications are typically “returned without action” by BIS for the following reasons: (1)
the applicant has requested it, (2) a BIS export license is not required, (3) BIS has not received adequate information
regarding the transaction, or (4) BIS is unable to contact the exporter to obtain additional information.

                                                           6
U.S. Department of Commerce                                                                                        Final Report IPE-17500
Office of Inspector General                                                                                                   March 2006


Overall, we found that the interagency escalation process for disputed export license applications
allows officials from dissenting agencies a meaningful opportunity to seek additional review of
such cases.

China Export License Application Trends

During FYs 2001 through 2005, the number of dual-use export license applications for China
increased approximately 31 percent from 1,313 to 1,722. The total number of all export license
applications (including deemed export license applications)30 BIS received increased roughly 58
percent from 10,839 to 17,129 during the same period (see Figure 3).

Figure 3: Export License Applications BIS Received: China vs. All Countries
                              20000
     Number of Applications




                                                                                                                               17129
                              16000                                                                        15018
                                                                                      12805
                              12000          10839               10927


                               8000

                               4000                                                                 1728                1722
                                      1313                1108                 1255

                                  0
                                       FY2001              FY2002               FY2003               FY2004              FY2005
                                             Applications Received for China          Applications Received for All Countries

Source: Export Administration, Bureau of Industry and Security

Of the 17,129 export license applications BIS received during FY 2005, 1,722 (approximately
10.1 percent) were for exports to China. Of that number, 1,058 (approximately 61.4 percent)
were approved, 26 (roughly 2.5 percent) were denied, and 332 (about 19.3 percent) were
returned without action (see Figure 4 for a breakdown of BIS’ determinations for these licenses).




30
  The total number of deemed export license applications for China has decreased over the past several years.
Specifically, approximately 53 percent of all China export license applications was for deemed exports in FY 2001
compared to 18 percent in FY 2005.



                                                                           7
U.S. Department of Commerce                                                                                      Final Report IPE-17500
Office of Inspector General                                                                                                 March 2006


Figure 4: China Dual-Use Export License Applications Processed in FYs 2001-200531
                              1400
                                                       1313
                              1200
                                                          1058
     Number of Applications




                              1000   919         880
                              800
                                           751

                              600


                              400
                                                                                        338 293 328 358 332                       306

                              200
                                                                 56 64 47 53 26                                               4
                                                                                                                 0    0   0
                                0

                                           Approved                  Denied           Returned Without Action          Pending
                                                 FY2001          FY2002       FY2003              FY2004             FY2005

Source: Export Administration, Bureau of Industry and Security

Trends in Technologies Sought by China Through Export Licensing Process

Most of the export license applications to China in FYs 2004 and 2005 involved technologies
categorized under electronics, materials processing, computers, and telecommunications and
information security (see Table 1 for a full listing of the number of export license applications
BIS received for each CCL category). According to BIS, a significant part of these applications
was for deemed exports.

Table 1: BIS License Applications for China by CCL Category, FYs 2004-2005
                                                                                                         Applications*    Applications*
  CCL                                                                                                     Received in      Received in
 Category                          Description of Category                                                 FY2004           FY2005
    0        Nuclear Materials, Facilities, and Equipment                                                     11               12
    1        Materials, Chemicals, "Microorganisms," and Toxins                                              160              190
    2        Materials Processing                                                                            503              520
    3        Electronics                                                                                     530              673
    4        Computers                                                                                       155              303
    5        Telecommunications and Information Security                                                     421              529
    6        Lasers and Sensors                                                                               78               55
    7        Navigation and Avionics                                                                          22               37
    8        Marine                                                                                            7                4
    9        Propulsion Systems, Space Vehicles, and Related Equipment                                        13               32
              Classification used for items subject to the EAR but not on the
  EAR99 CCL                                                                            97               139
*Note: Because applications may contain a request to export more than one technology, the number of
applications in this column does not equal the total number of China export applications BIS received during FYs
2004 and 2005.
Source: Export Administration, Bureau of Industry and Security

31
  As of November 2005, 4 and 306 export license applications to China received by BIS in FY 2004 and FY 2005,
respectively, remained pending and have not been processed. These include applications for deemed exports.

                                                                                  8
U.S. Department of Commerce                                                                                       Final Report IPE-17500
Office of Inspector General                                                                                                  March 2006


Export License Application Processing Times

According to BIS, average processing times for license applications involving China have fallen
by almost 53 percent from 80.2 days in FY 2001 to 38.3 days in FY 2005 (see Figure 5 for BIS’
average processing times in “Executive Order”32 days for export license applications to China
versus all countries).

Figure 5: BIS Average Processing Times in Executive Order Days: All Countries vs. China,
FYs 2001-2005
                           90          80.2
                                                                                   76.6
                           80                               73.1
     Number of E.O. Days




                           70
                           60
                           50   44.9                 45.1                  45.3                           45.4
                                                                                                   34.9                        38.3
                           40                                                                                           30.1
                           30
                           20
                           10
                           0
                                 FY 2001               FY 2002              FY 2003                 FY 2004              FY 2005
                                       All Licenses: BIS Average Processing Time          China: BIS Average Processing Time


Source: Export Administration, Bureau of Industry and Security

End-Use Checks in China and Hong Kong

End-use checks are an important part of the export licensing process that help determine whether
the end users or intermediary consignees are suitable recipients of sensitive U.S. items and
technology and would likely comply with applicable license conditions. End-use checks consist
of pre-license checks (PLCs) and post shipment verifications (PSVs) and may be requested by
any of the executive agencies involved in the interagency licensing process.33 A PLC is
conducted to establish the bona fides of a foreign entity involved in the export transaction while
the license application is being reviewed. A PSV is conducted on a foreign entity after the
license has been approved and the item has been shipped to help determine whether the licensed
item(s) is being used in accordance with the license conditions.

End-use checks in China and Hong Kong are currently conducted by Export Control Officers
(ECOs), one each based in Beijing and Hong Kong. ECOs are BIS export enforcement agents
who hold the rank of commercial officer in the Commercial Section of U.S. embassies and



32
   Executive Order (EO) 12981 prescribes processing times and does not take into account the number of days an
application is put on “hold without action”. Thus, the term refers to the actual processing time in the license review
and referral process, beginning with the day an export license application is received by BIS pursuant to the terms of
Executive Order 12981.
33
   Pursuant to Executive Order 12981, these agencies are Commerce, Defense, Energy, and State.

                                                                            9
U.S. Department of Commerce                                                              Final Report IPE-17500
Office of Inspector General                                                                         March 2006


consulates.34 ECOs handle various in-country export control activities, including conducting
end-use checks.

End-Use Check Trends in China

BIS end-use checks conducted in China have
              There are four main categories of end-use check results:

•      Favorable: at the time the party of the transaction in question was visited, it appeared to be
       either a suitable recipient (for PLCs) or a reliable recipient (for PSVs) of the licensed
       commodities.

•      Unfavorable: the subject of the transaction violated one or more license terms or conditions;
       or the subject refused to meet with the designated U.S. government personnel and allow the
       end-use check to be completed.

•      Limited: the end-use check was conducted but was not completed consistent with all
       requirements stipulated in BIS’ end-use check guidance. For a PSV, this could apply to
       situations where the bona fides of the end user and end use were verified, but certain license
       conditions were violated (e.g. intermediary was not supposed to take possession of the item
       but did).

•      Not-conclusive: the end-use check was conducted but was not completed (e.g., a PSV was
       conducted but the stated end use could not be verified because the item was not in use yet).




34
     BIS has additional ECOs stationed in Abu Dhabi, United Arab Emirates; Moscow, Russia; and New Delhi, India.

                                                        10
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


End-Use Check Trends in Hong Kong

End-use checks in Hong Kong were conducted by BIS’ Sentinel teams35 or Commercial Service
officers at the U.S. consulate in Hong Kong until March 2004, when a BIS ECO was
permanently stationed there.




1979 U.S.-China Agreement on Cooperation in Science and Technology

On January 31, 1979, the governments of the United States and China entered into an agreement
to promote cooperation in the field of science and technology (S&T Agreement).36 Under the
agreement, individual U.S. government agencies may sign protocols with their Chinese
counterparts to promote exchange of information and expertise in specific areas of science and
technology.37 Cooperative activities under these protocols include (1) exchanges of information
and data on technical developments and practices, (2) exchanges of scientists and engineers for
training purposes, and (3) collaborative research and joint organization of symposia, seminars,
and lectures.


35
   Sentinel teams, which are composed of domestic BIS special agents, are deployed to selected regions of the world
to conduct end-use checks.
36
   The NDAA for FY 2003 [Public Law 106-398, Section 1207(d)(2)(F)] requires the Commerce Office of Inspector
General to assess the extent to which programs and activities conducted under the Agreement Between the
Government of the United States of America and the Government of the People’s Republic of China on Cooperation
in Science and Technology, signed in Washington, DC on January 31, 1979, as amended and extended are carried
out in compliance with export control laws and regulations, especially those governing deemed exports. The term
“deemed export” derives from Section 734.2(b)(2)(ii) of the EAR, which states “any release of technology or source
code subject to the EAR to a foreign national… is deemed to be an export to the home country or countries of the
foreign national.”
37
   According to the Department of State, a total of six Cabinet-level Departments and four independent federal
agencies maintained active protocols under this agreement as of April 2005.

                                                        11
U.S. Department of Commerce                                                             Final Report IPE-17500
Office of Inspector General                                                                        March 2006


The Commerce Department’s National Institute of Standards and Technology (NIST) and
National Oceanic and Atmospheric Administration (NOAA) maintain active protocols under the
agreement. Specifically, during FYs 2004 and 2005, NIST had one active protocol covering
metrology and standards.38 During that same time period, NOAA had two protocols in effect,
including one that covered atmospheric sciences and was managed by the National Weather
Service (NWS). The other covered marine and fisheries sciences and was managed by the Office
of Oceanic and Atmospheric Research (OAR).




38
 In September 2005, NIST entered into a second protocol covering chemistry, physics, materials, and engineering
measurement sciences. However, this protocol was not active during the period of our review.

                                                      12
U.S. Department of Commerce                                                                 Final Report IPE-17500
Office of Inspector General                                                                            March 2006


                            OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000, to conduct eight annual assessments of the adequacy of current export controls and
counterintelligence measures to protect against the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. This is the seventh review under the
NDAA requirement.

To comply with the NDAA’s FY 2006 requirement, the Offices of Inspector General39 (OIG)
agreed to assess the effectiveness of the U.S. government’s export control policies and practices
with respect to preventing the unauthorized transfer of sensitive U.S. technologies and technical
information to China. Although current U.S. export control policy treats Hong Kong as a non-
sovereign entity distinct from China with less restrictive controls on licensed commodities, our
review also focused on the risk of diversion of export-controlled commodities from Hong Kong
to China.

Within Commerce, our objectives were to evaluate (1) the consistency of BIS’ export control
policies, practices, and procedures regarding China with relevant laws and regulations; (2) the
effectiveness of coordination between the various federal licensing agencies during the dispute
resolution process for export license applications involving China; (3) the potential for diversion
of sensitive commodities from Hong Kong to China; (4) the effectiveness of BIS’ end-use check
program in China and Hong Kong; and (5) what activities Commerce bureaus are engaged in
pursuant to the 1979 U.S.-China Science & Technology Agreement and, to the extent
practicable, whether they are adhering to export control regulations.

We conducted our evaluation from May 2005 through January 2006, under the authority of the
Inspector General Act of 1978, as amended. This evaluation also was carried out in accordance
with the Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency in 2005. At the end of our review, we discussed our findings and conclusions with
BIS’ Under Secretary, Deputy Under Secretary, and other senior BIS officials. We also briefed
other key Commerce officials from the National Institute of Standards and Technology, the
National Oceanic and Atmospheric Administration, and the Office of the Secretary.




39
     This year’s review also included the participation of the Department of Homeland Security’s OIG.

                                                          13
U.S. Department of Commerce                                                 Final Report IPE-17500
Office of Inspector General                                                            March 2006


Review of Export Controls Related to China and Hong Kong

Our methodology included the following activities:

U.S. Interviews. Within BIS, we spoke with the Deputy Under Secretary, Assistant Secretary
and the Deputy Assistant Secretary for Export Administration, and the Deputy Assistant
Secretary for Export Enforcement. Within Export Administration, we met with the Director of
the Office of Exporter Services (OExS), the Directors of the Offices of Nonproliferation and
Treaty Compliance and of Strategic Trade and Foreign Policy Controls, as well as staff from
each office. Within Export Enforcement, we met with the Director of the Office of Export
Enforcement, the Director of the Office of Enforcement Analysis (OEA), and their staff. We
also met with both the current and a former chairperson of the Operating Committee and staff, as
well as staff from BIS’ Office of Chief Counsel. Within the International Trade Administration,
we spoke with officials from the Commercial Service (CS), Market Access and Compliance, and
Manufacturing and Services.

We also spoke with officials from federal agencies directly involved with or knowledgeable
about U.S. dual-use export control policies and procedures related to China. Within the Central
Intelligence Agency, we spoke with analysts from the Center for Weapons Intelligence,
Nonproliferation, and Arms Control and the Office of Asian, Pacific, Latin American, and
African Analysis. Within the Department of Defense, we spoke with officials from the Defense
Technology Security Administration, the Air Force’s Office of Special Investigations, the Naval
Criminal Investigative Service, and the Counterintelligence Field Activity. Within the State
Department, we interviewed staff from the Bureaus of East Asian and Pacific Affairs;
Intelligence and Research; Nonproliferation; Oceans and International Environmental Scientific
Affairs; and Political-Military Affairs.

In order to better understand the views of industry on U.S. export controls for China prior to our
overseas visit, we met with several domestic U.S. industry associations, including the American
Chamber of Commerce, the National Association of Manufacturers, and the U.S.-China Business
Council. We also attended several meetings of BIS’ technical advisory committees, specifically
those dealing with information systems, materials processing and equipment, regulations and
procedures, and sensors and instrumentation. We also met with officials from the Hong Kong
Economic Trade Office in Washington, D.C.

Overseas Fieldwork. As part of our review, we traveled to Hong Kong and China to assess
U.S. dual-use export control operations. We interviewed officials at the U.S. Consulate in Hong
Kong, and the U.S. Embassy in Beijing, China. In Hong Kong, we met with the ECO and
accompanied him on three end-use visits to Hong Kong entities. We also spoke with the CS
Hong Kong’s Senior Commercial Officer and Deputy Senior Commercial Officer. In addition,
we met with the U.S. Consul General, the Deputy Principal Officer and the heads of the
consulate’s consular, economic, and political sections. Finally, we met with officials from the
Department of Defense, Homeland Security’s Immigration and Customs Enforcement (ICE), the
Federal Bureau of Investigation’s Legal Attaché, and other relevant U.S. agencies in Hong Kong.



                                               14
U.S. Department of Commerce                                                    Final Report IPE-17500
Office of Inspector General                                                               March 2006


While in Hong Kong, we also met with host
government representatives from the Trade &
Industry Department and the Customs & Excise
Department. As part of these meetings, we visited
the Lok Ma Chau Border Control Point between
Hong Kong and Shenzhen, China, to observe Hong
Kong’s customs operations where we received a
presentation and tour by the Control Points
Command Chief Superintendent and his officers.
We also met with a representative of the Hong
Kong Trade Development Council to learn about
this organization’s efforts to promote export control
compliance among Hong Kong companies.                   Lok Ma Chau Border Control Point: Cargo traffic
                                                        crossing from Hong Kong into Shenzhen, China
In China, we met with the ECO and accompanied
her and officials from the Chinese Ministry of Commerce (MOFCOM) on a visit to a Chinese
company in Guangzhou that was the subject of a prior end-use check in June 2005. We also met
with CS’ Senior Commercial Officer, the Deputy Senior Commercial Officer, the Commercial
Representative who handled end-use visits for three months in FY 2005, and the Commercial
Specialist who currently assists the ECO in her duties. Within the embassy, we spoke with the
Deputy Chief of Mission and the heads of the U.S. embassy’s consular; defense; economic;
environment, science, technology, and health; and political sections. We also met with
Homeland Security’s ICE Attaché and other relevant U.S. government officials. In addition, the
Inspector General and OIG staff met with the Director General of MOFCOM’s Department of
Scientific and Technological Development and Trade in Technology and his staff to discuss the
progress of end-use visits in China and to assess the Chinese government’s views on U.S. dual-
use export controls.

While in China, we also met with representatives from U.S. companies in the aircraft
manufacturing, computer technology and software, cooling equipment, electronics,
petrochemicals, and telecommunications industries. In addition, we met with officials from
several trade and industry associations in-country, including the American Chamber of
Commerce, U.S.-China Business Council, Association for Manufacturing Technology, China
Aerospace Science and Technology Corporation, Quality Brands Protection Committee, and
Semiconductor Equipment and Materials International.

Following our overseas visit, we met with a former ECO to Beijing. We also briefed the Under
Secretary and Deputy Under Secretary for Industry and Security on our preliminary findings.

Review of export control laws and regulations, relevant BIS guidance, and other
documents. We examined current and prior legislation, executive orders, and related
regulations, including the EAR, and prior OIG and GAO reports on export controls. In addition,
we reviewed the following documents, covering the period of FYs 2004 and 2005 (unless
otherwise indicated):



                                                15
U.S. Department of Commerce                                                                  Final Report IPE-17500
Office of Inspector General                                                                             March 2006


     •   Complete licensing histories for 146 China and Hong Kong cases processed at the OC
         and ACEP;
     •   ECASS China and Hong Kong end-use check summary data (FY 2001-2005);
     •   Response cables from post for      China and Hong Kong end-use checks that were
         initiated and/or completed in FYs 2004-2005 and their corresponding licensing histories;
     •   Export control documentation and program materials maintained by the export control
         officers in Hong Kong and China; and,
     •   BIS directives and procedures related to license monitoring.

Review of NIST and NOAA Activities under the S&T Agreement

Our methodology included the following activities:

Interviews at NIST and NOAA. At NIST, we interviewed key management staff from the
Office of International Academic Affairs, the Chief Counsel’s Office, Office of the Chief
Information Officer, Emergency Services Division, and Commerce’s Office of Security at NIST.
In addition, we interviewed key management officials and staff members from five of the seven
main NIST laboratories: Materials Science & Engineering; Electronics & Electrical Engineering;
Manufacturing Engineering; Physics; and Information Technology Laboratories.

At NOAA, we spoke with employees from NWS and the National Ocean Service (NOS) in the
metropolitan Washington, DC, area who had sponsored multiple Chinese foreign nationals
during FYs 2004 and 2005.40 In addition to NWS and NOS, we also spoke with managers and
key representatives from OAR, the National Marine Fisheries Service, the National
Environmental Satellite, Data, and Information Service, and the Office of Marine and Aviation
Operations to ascertain their understanding of deemed export controls. We also talked with
managers and staff from the Office of the Chief Administrative Officer, the Office of the General
Counsel, and Commerce’s Office of Security at NOAA.

Review of documentation related to the 1979 S&T Agreement. We reviewed the texts of the
four protocols – two for each bureau – that were entered into by both NIST and NOAA with the
Chinese government, lists of Chinese foreign national visitors and guest researchers who visited
NIST and NOAA facilities, and lists of the NIST and NOAA employees who visited China under
these protocols.41 We also reviewed NIST and NOAA documentation regarding the 1979 S&T
Agreement. Finally, we reviewed NIST and NOAA travel policies and regulations as well as
Office of Security policies and regulations on foreign national access to Commerce facilities.

We also spoke with the Director of the Department’s Office of Security and other OSY senior
managers and staff concerning OSY’s foreign national visitor clearance process and its
counterintelligence briefing program for Commerce travelers to China.


40
  NOS employees sponsored Chinese foreign nationals who were located at either OAR or NWS facilities.
41
  NIST did not explicitly identify Chinese national visitors as participants of protocol-driven activities. Thus, our
review included all Chinese citizens visiting NIST during FYs 2004-2005, excluding those who were permanent
U.S. residents.

                                                          16
U.S. Department of Commerce                                                   Final Report IPE-17500
Office of Inspector General                                                              March 2006


                          OBSERVATIONS AND CONCLUSIONS

I.     Export Control Regulations and Procedures Related to China Should Be
       Strengthened

The current dual-use export control regulations do not prevent the Chinese military from
receiving U.S. commodities that can be used in the development of conventional weapons.
Specifically, according to BIS, there is no regulatory basis to deny an export license application
for items the United States has determined should be controlled only for nonproliferation reasons
that potentially could be used to enhance China’s military capabilities solely on the basis of
military end-use if the item is not controlled for “National Security” (NS) reasons. In addition,
BIS’ public statements about export policy for military end-users in China are not consistent with
export control regulations. BIS publicly states that it has a policy of denial for exports to
military end-users in China, but the regulations provide only a limited range of items subject to
the denial policy.


A.     BIS regulations raise some conventional weapons concerns

According to BIS, there is currently no basis in the EAR to deny an export license application
solely on the basis of military end use if the exported item or technology is not controlled for NS
reasons under the CCL. As a result, Chinese military end users may be receiving sensitive U.S.
commodities that could be used in the development of conventional weapons. Specifically,
based on our review of license applications escalated to the OC and the ACEP in FYs 2004 and
2005, we found two instances where licenses were approved even though all of the licensing
review agencies agreed that there were significant concerns over the risk of diversion to
unauthorized end users and/or end use.

Reasons for Export Control

The Export Administration Act (EAA) of 1979, as amended, provides for several categories of
export controls, which include (1) national security, (2) foreign policy, and (3) short supply
based controls, and provide the authority for the “reasons for control” used in the EAR. The
foreign policy controls authorized by the EAA are not seen in the EAR as a specific “reason for
control,” but provide the statutory basis for other, specific reasons for control, such as missile
technology, chemical and biological weapons, crime control, and anti-terrorism controls.
National security and short supply are terms used by the EAA as a category of controls, as well
as in the EAR as specific “reasons for control.”




                                                17
U.S. Department of Commerce                                                   Final Report IPE-17500
Office of Inspector General                                                              March 2006


For each of these categories, the EAA imposes
particular criteria and limitations. Consequently,               CCL Reasons for Control
when a term such as “national security” is used as a
“reason for control,” it has a very specific meaning       • Anti-Terrorism (AT)
that reflects statutorily prescribed conditions and        • Chemical and Biological Weapons
limitations and does not necessarily coincide with           (CB)
general usage of the term. For example, the export         • Crime Control (CC)
of a particular item may raise national security           • Chemical Weapons Convention
concerns in the broad, general sense of the term,            (CWC)
but “national security controls” cannot be placed on       • Encryption Items (EI)
an item unless it meets specific requirements of the       • Firearms Convention (FC)
EAA. One such requirement for national security-           • Missile Technology (MT)
based controls is that multilateral controls (i.e.,        • National Security (NS)
Wassenaar Arrangement controls) must be in place           • Nuclear Nonproliferation (NP)
if the controls are to be in effect longer than six        • Regional Stability (RS)
months. By contrast, foreign policy-based controls         • Short Supply (SS)
may be imposed unilaterally, although other                • United Nation Embargo (UN)
conditions may apply.
                                                         Source: Export Administration Regulations

Part 742 of the EAR sets forth the licensing
requirements and policies for all reasons for control that are listed on the CCL for a particular
export control classification number (ECCN) (see box above). Read in combination with the
Commerce Country Chart, the reasons for control listed on the CCL for particular ECCNs
indicate whether a license is required to export an item to a particular country. For each reason
for control, the EAR provides a licensing policy that sets forth factors that will be considered
before approving or denying a license application. NS is the only reason for control that would
allow a license application for China to be denied solely on the grounds that the item may be
intended for military end-use.

China Cases of Concern

During our review, we identified two export license applications that raised general national
security concerns, which were approved because the items were not controlled for NS reasons in
the EAR. Details of the two cases are outlined below:

Case 1. The first case involved exporting 100,000 pounds of hydrofluoric acid solutions and
55,000 pounds of metal acid etchant solution to be used in the manufacturing of semiconductor
wafers. The chemicals are controlled for both chemical and biological (CB) weapons and anti-
terrorism (AT) reasons on the CCL. Supplement No. 1 to Part 738 of the EAR (the Commerce
Country Chart) provides that CB controls apply to China, but that AT controls do not. Section
742.4(b) of the EAR sets forth the licensing policy for CB reasons for control and provides that
license applications will be considered on a case-by-case basis to determine whether the export
would make a material contribution to the design, development, production, stockpiling or use of
chemical or biological weapons.



                                                18
U.S. Department of Commerce                                                              Final Report IPE-17500
Office of Inspector General                                                                         March 2006


Three of the four licensing review agencies (Commerce, Energy, and State) initially
recommended approval because there was no specific chemical and biological weapons
justification for denial. But Defense recommended denial so the case was automatically
escalated to the OC. At the November 2004 OC meeting, Commerce, Energy, and State
maintained their recommendations to approve the license application. Defense still had concerns
about the risk of diversion to unauthorized end users and/or end uses and escalated the
application to the ACEP. Derogatory intelligence presented at the December 2004 ACEP
meeting ultimately led all four licensing review agencies to deny the license application.

After the ACEP decision to deny the application, Commerce’s Office of Chief Counsel for
Industry and Security prepared an analysis concerning the regulatory basis for denial of an export
license for a CB-controlled item. The analysis summarized the licensing policy for CB-
controlled items, including the bases upon which a license may be denied. It stated that, “[i]f the
item is not controlled for national security reasons, it may not be denied solely on the grounds
that it may be intended for military end-use.”42 As a result, during the May 2004 ACEP meeting,
the four agencies reversed the decision to deny and instead recommended the license application
be approved with conditions “in light of the current export control regulations.”

Case 2. The second case involved the export of a gas analyzer to be used for analyzing
combustion of burning gases. The analyzer is controlled only for AT reasons and can be shipped
to China without a license.43 However, the transaction raised national security concerns with all
of the licensing review agencies.44 The exporter also was unable to verify the bona fides of the
end user, so BIS ultimately denied the license application in August 2003.

In September 2003, the U.S. exporter appealed the decision, arguing a license was not required
for the transaction. The former Under Secretary for Industry and Security re-opened the case and
sent it to the OC for further evaluation in January 2004. At the February 2004 OC meeting,
Commerce and Energy voted to return the license application without action because no license
was required, but Defense and State maintained their denials. Pursuant to authorities established
in Executive Order 12981, the OC Chairman decided to return the license application without
action because no license was required for the transaction.

The State Department formally objected to this decision and escalated the case to the ACEP. At
the March 2004 ACEP meeting, three of the four license review agencies (Defense, Energy, and
State) voted to deny this application but all agreed to have agency attorneys verify the legal basis
for the denial. Subsequently, attorneys from the various license review agencies reportedly met
and determined that there was no legal basis for requiring a license or for denying the license
application. Ultimately, all four licensing review agencies agreed to return the license
application without action.



42
   Memorandum for Operating Committee Chair from the Office of Chief Counsel’s Senior Counsel for Regulation,
May 21, 2004.
43
   The primary exception would be if there were concerns related to the Enhanced Proliferation Control Initiative
(EPCI). However, EPCI was not a factor in this case.
44
   The specific national security concerns are classified.

                                                       19
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


Conclusion

While the two cases highlighted above had different licensing requirements, a denial on the
grounds of “national security” could not be sustained in either of these situations because the
items were not controlled for NS reasons under the CCL. Section 742.1(f) of the EAR provides
that items on the CCL, other than those controlled for short supply reasons, may be reviewed for
missile technology, nuclear nonproliferation, or chemical and biological weapons activities
regardless of the stated reason for control under the EAR. This is commonly referred to as the
“cross-over provision.” Therefore, items controlled for CB reasons may also be reviewed for
missile technology and nuclear nonproliferation reasons, but not for national security reasons.
There is currently no cross-over provision for items on the CCL to be reviewed for NS reasons if
they are not already controlled for such, and, as explained above, they cannot be controlled for
NS reasons without corresponding multilateral controls.

To address the problems highlighted above, BIS officials initially informed us that they were
proposing a new “catch-all” 45 rule or regulation that would address this weakness in the
regulations. Specifically, the draft rule would reportedly require exporters to apply for a license
for any exports to China whenever they knew the item was going to an end user or end use that
could make a material contribution to the Chinese military capability. However, while the
proposed “catch-all” rule was supposed to be based on the agreement reached in December 2003
by the Wassenaar Arrangement members, which was aimed at countries subject to arms
embargos, it appeared that the United States was mostly alone in applying the restrictions for
exports to China. Given the many complaints from U.S. industry concerning its intentions on
this matter, BIS is currently working with its interagency partners to draft a rule that would meet
the policy goal of denying U.S. exports to Chinese military end uses, while having the least
impact on U.S. exporters and their efforts to increase legal exports to Chinese civilian end users.

In the current security environment, the U.S. government should give the interagency licensing
review agencies explicit authority to deny licenses for items that can be used to enhance the
military capabilities of countries of concern, including China. This will require adding a military
“catch-all” similar to the proposed Wassenaar Arrangement catch-all rule or a “national security
cross-over” provision to the EAR. A military “catch-all” for China also will help BIS fulfill its
stated policy of denying “military-related” export license applications for exports to China.

RECOMMENDATION:

We recommend that BIS review the issue to determine whether it warrants regulatory revision,
such as the addition of a military “catch-all” provisions to the EAR for items that could
contribute to the development of conventional weapons but are not specifically controlled for
national security reasons, and implement the revision, as appropriate.
45
  At the urging of the United States, the 33 members of the Wassenaar Arrangement agreed to a Statement of
Understanding on the control of otherwise uncontrolled dual-use items in December 2003. The SOU requires
member countries to take appropriate measures to ensure that a government authorization is required for exports of
non-listed dual-use items for military end uses in destinations subject to (1) a binding United Nations Security
Council arms embargo, (2) any relevant regional arms embargo that is binding, or (3) any relevant regional arms
embargo to which a participating state has voluntarily consented to adhere.

                                                        20
U.S. Department of Commerce                                                            Final Report IPE-17500
Office of Inspector General                                                                       March 2006




In its written response to our draft report, BIS stated that it has completed its review of this issue
and incorporated the results in a draft rule that BIS is preparing with respect to China in
accordance with the Wassenaar Statement of Understanding regarding exports to countries
subject to arms embargoes. BIS anticipates final interagency agreement on the draft rule and
publication in proposed form for public comment by late spring 2006. We look forward to
reviewing a copy of the proposed rule when it is completed.


B.      BIS’ public statements regarding licenses to China are inconsistent with the EAR

Section 742.4(b)(7) of the EAR sets forth the licensing policy for exports to China of items
controlled for NS reasons on the CCL:

        For the People’s Republic of China, the general licensing policy is to approve
        applications, except that those items that would make a direct and significant
        contribution to electronic and anti-submarine warfare, intelligence gathering,
        power projection, and air superiority receive extended review or denial. Each
        application will be considered individually. Items may be approved even though
        they may contribute to Chinese military development or the end-user or end-use
        is military [emphases added].

By contrast, BIS officials have repeatedly stated that BIS does not approve export licenses to
military end users in China. In testimony presented to Congress in April 2005, the then-Acting
Under Secretary for Industry and Security stated that “BIS . . . does not approve licenses for
military end-users or end-uses within China.”46 Again in June 2005, testifying before the U.S.-
China Economic and Security Review Commission, he stated that “we do not approve any
licenses for military end-users or end-uses within China …”47 Several BIS officials reiterated
this policy to us during the course of our inspection.

As a result of this inconsistency, export control licensing policy for China is not transparent to
exporters, who must rely on the regulations to know whether a license is required, if an
application is likely to be approved, and what the regulatory standard will be for reviewing the
application. The inconsistency may also cause difficulties in implementation and application of
export controls and send mixed signals to our allies, trading partners, the U.S. Congress, and the
public.


46
   Testimony of The Honorable Peter Lichtenbaum, Acting Under Secretary for Industry and Security, United States
Department of Commerce, Before the House Armed Services Committee and the House International Relations
Committee on the “EU Arms Embargo Against China,” April 14, 2005. Available at
http://www.bxa.doc.gov/News/2005/PeterTmony4_14_05.htm, accessed March 7, 2006.
47
   U.S.-China Economic and Security Review Commission. U.S.-China Trade Impacts on the U.S. Defense
Industrial Base: Hearing Before the U.S.–China Economic and Security Review Commission, 109th Cong., 1st sess.,
23 June 2005. Washington, D.C.: GPO, 2005. Available at
http://www.uscc.gov/hearings/hearingarchive.php#hearings2005, accessed March 13, 2006.

                                                      21
U.S. Department of Commerce                                                  Final Report IPE-17500
Office of Inspector General                                                             March 2006


BIS agrees that the export licensing policy in the EAR may not fully reflect BIS’ existing policy.
BIS reported that it is aware of the issue and is examining the issue. BIS officials informed us
that it is likely to be addressed in the pending regulation mentioned in section A above.

RECOMMENDATION:

We recommend that BIS develop one consistent policy regarding exports to military end users or
for military end uses in China and amend the regulations as necessary to reflect that policy.



In its written response to the draft report, BIS stated that the draft rule implementing the
Wassenaar Statement of Understanding with respect to China referred to in its response to
recommendation one will also address this issue. Again, we look forward to receiving a copy of
the proposed rule when completed.




                                                22
U.S. Department of Commerce                                                        Final Report IPE-17500
Office of Inspector General                                                                   March 2006


II.     BIS’ End-Use Check Programs in China and Hong Kong Need to Be Improved

End-use checks can play an important role in helping to ensure that exported technologies are
protected from diversion to unauthorized end users or end use. Given the importance of both
China and Hong Kong in U.S. export control matters, BIS assigns one of its export enforcement
agents to each of these posts to conduct end-use checks. While the reluctance of the Chinese
government to allow end-use checks has historically precluded the U. S. government from
performing many checks, agreement to the End Use Visit Understanding48 by both countries in
April 2004 afforded BIS the ability to conduct end-use checks on a wider spectrum of licensed
goods and technologies. Nonetheless, a number of the terms for conducting end-use checks
outlined in the agreement are restrictive. In addition, during the time of our review, we found
many PLCs and PSVs to be untimely. A more extensive discussion of these issues is provided in
the classified Appendix C.

Furthermore, while we believe the posting of an ECO in Hong Kong has served to strengthen the
strong U.S.-Hong Kong cooperation on export control matters by providing consistency in U.S.
government operations there, we determined that BIS is not aggressively monitoring potential
diversions of export-controlled items from Hong Kong to China. Specifically, despite BIS’ end-
use check requirements for Hong Kong and the placement of an ECO in Hong Kong in March
2004, there were a low number of PSVs conducted in FY 2005. In addition, we determined that
BIS was not adequately targeting
                                                            . Finally, we noted that BIS does not
have a formal staffing plan in place to ensure continuity in its assignments of ECOs in Hong
Kong and China.


A.      End-use checks in China still face challenges

Due to the classified nature of the material discussed in this section, we offer our specific
findings related to this topic in the classified Appendix C to this report.


B.      BIS needs to more aggressively monitor potential diversions of export-controlled items
        from Hong Kong to China

As mentioned previously, the U.S.-Hong Kong Policy Act of 1992 calls upon the U.S.
government to continue to treat Hong Kong as a separate territory with respect to economic and
trade matters and to support Hong Kong’s continued access to sensitive technologies so long as
such technologies are protected. The Act also requires the Secretary of State to provide
Congress with periodic reports on conditions in Hong Kong, including any significant problems
in cooperation between Hong Kong and the United States on export controls. According to
State’s 2005 U.S.-Hong Kong Policy Act Report, end-use checks have been a key factor in
evaluating the effectiveness of Hong Kong’s export control system. Given the strategic

48
 The U.S. Department of Commerce and the Chinese Ministry of Commerce signed the End Use Visit
Understanding on April 12, 2004.

                                                   23
U.S. Department of Commerce                                                            Final Report IPE-17500
Office of Inspector General                                                                       March 2006


importance of Hong Kong as a key transshipment hub49 for both China and other countries, BIS
placed an ECO at the U.S. consulate in Hong Kong in March 2004.

However, based on our review of BIS’ Hong Kong end-use check program, we determined that
BIS is not aggressively enough monitoring potential diversions of export-controlled items from
Hong Kong to China.

Number of PSVs conducted in Hong Kong did not meet BIS’ requirement

In response to problems identified during previous OEE Sentinel trips, the former Under
Secretary for Industry and Security approved a decision memorandum, dated January 2004, from
the former Assistant Secretaries of Export Administration and Export Enforcement instituting
various export enforcement policies related to Hong Kong. With regard to end-use checks, OEE
and OEA were instructed,                                                         once the ECO
was stationed at post. In addition, OEA was instructed to initiate a




Although the ECO arrived at post in April 2004,

                                                          While OEA did initiate PLCs on new
non-governmental entities associated with export license applications to Hong Kong during FY
2005, it did not fulfill the PSV requirement. OEA’s Director for the China/Hong Kong Division

49
  A transshipment hub is a global commerce port that processes large volumes of shipments. Most transshipment
hubs are located near countries of concern. The proximity of transshipment hubs to destinations of concern
increases the risk of sensitive technologies being diverted or illicitly re-exported to those destinations.
50




                                                      24
U.S. Department of Commerce                                                             Final Report IPE-17500
Office of Inspector General                                                                        March 2006


informed us that she did not learn of the Under Secretary’s guidance on end-use checks in Hong
Kong until July 2004. She also stated that her staff focused on meeting the PLC requirement
immediately and they did not put as much emphasis on the PSV requirement.

It should be noted that at some point in FY 2006, BIS made the decision to require all of its
ECOs,                                                                          . According to
the Deputy Under Secretary for Industry and Security, the rationale behind the

                      based on a “general rule of thumb.” Specifically, the expectation is that
the ECOs should                                                       Given that all of the
posts,                                                                                , it
appears that this new
performance metric may be rather
low (see Figure 9).

In a comparison of the five
overseas posts where BIS has an
ECO,

                        We noted
that prior Sentinel visits to
Hong Kong


                      For
example, the most recent Sentinel
visit to Hong Kong


        . Furthermore, during our
visit to Hong Kong in September
2005, we accompanied the ECO
on
              . As such, it seems reasonable that the ECO could conduct more than
                         —if headquarters requested them.

Lack of PSVs on “No License Required” Shipments

There are some commodities controlled for export to China that do not require a license to Hong
Kong. For example, exporters may export a range of items controlled for NS reasons, certain
high-performance computers, and some items controlled for chemical and biological reasons to
Hong Kong under the designation “No License Required” (NLR). By contrast, China is not
entitled to obtain any NS-controlled items on a NLR basis.

51
  BIS’ Sentinel program (formerly known as Safeguards) conducts on-site end-use check visits overseas using two-
person teams comprised of OEE special agents.

                                                       25
U.S. Department of Commerce                                                             Final Report IPE-17500
Office of Inspector General                                                                        March 2006


Given the concern about diversions of sensitive U.S. technologies from Hong Kong to China, it
seems reasonable that the U.S. government should target shipments for PSVs that may not
require a license to Hong Kong but would require a license to China. Toward that end,
                                                           However,      of the PSVs were
covered by a license exception and were eligible for re-export from Hong Kong to China without
a license. As a result, these checks were an inefficient use of ECO resources. Specifically, the
ECO ended up conducting checks on commodities that would not require a re-export license to
China at the expense of doing more checks on items that would. There appear to be two main
reasons for the poor targeting of NLR shipments to Hong Kong, including (1) inadequate upfront
research by OEA and (2) inadequate intelligence sharing between OEE and OEA.

Inadequate Upfront Research by OEA. With regard to Hong Kong, OEA mainly focused its
resources on reviewing actual export license applications submitted to BIS. OEA informed us
that it attempted to target some NLR shipments to Hong Kong that would require a license (or
re-export license from Hong Kong) to China, but had trouble doing so because of the limitations
in the Automated Export System (AES).52

AES is the automated system that U.S. exporters use to file their Shipper’s Export Declarations
(SEDs). Each SED must be filled out with relevant export transaction information, including (1)
the exporter’s contact information, (2) a description of the commodity to be exported, (3) the
consignee’s contact information, and (4) the shipment’s country of destination. If the
commodity involved requires a BIS export license, AES requires that a valid ECCN of up to the
first five digits be entered into one of the fields.53 If a license is not required, then the exporter
must note “NLR” or type in the applicable license exception on the SED. However, many
ECCNs contain subparagraphs that describe varying parameters of the items that might
determine whether NLR or a license exception may be used.

Because AES does not require (nor record) these subparagraphs, OEA is unable to definitively
know whether an item would qualify for shipment under NLR or a license exception.
Nevertheless, despite the known limitations in AES, OEA did not routinely contact U.S.
exporters for more information about particular transactions to determine if the export met a
license exception for China prior to initiating PSVs in Hong Kong.

We agree that having an expanded ECCN field within AES would allow OEA (or other export
enforcement officials) to better target PSVs that could identify questionable export transactions
whereby exporters might be misusing NLR or a license exception in attempts to divert the
licensed items to third countries. Both Census and OEA officials stated that they are open to the

52
   AES was primarily developed in 1994 by the U.S. Census Bureau and the former U.S. Customs Service for U.S.
exporters and authorized agents to electronically file their Shipper’s Export Declarations (SEDs)—a Census form
used to compile trade statistics and assist in export enforcement matters. The AES mainframe that processes the
export information belongs to U.S. Customs and Border Protection (one of the successor agencies to the U.S.
Customs Service) while AESDirect, the Internet based application that collects and sends export information to
AES, belongs to Census. Census is the agency responsible for collecting, compiling, and publishing export trade
statistics. AES is the primary media used for collecting export data.
53
   An ECCN typically consists of one number, followed by one letter and then three consecutive numbers (e.g.,
4A101).

                                                       26
U.S. Department of Commerce                                                 Final Report IPE-17500
Office of Inspector General                                                            March 2006


possibility of working together to modify AES by expanding the ECCN field. However, pending
the outcome of any AES modification, OEA should obtain as much information upfront about a
NLR transaction from the exporter prior to initiating a PSV request.

Inadequate Intelligence Sharing between OEE and OEA. During the course of our review,
we found that OEE had information that may have been useful to OEA for targeting end-use
checks (including NLR shipments) in Hong Kong. However, OEE did not forward that
information to OEA until after our discussions with OEE about it. We have included this
discussion in a classified appendix to this report (see Appendix D).

Conclusion

Based on discussions with BIS officials and various U.S. officials at the U.S. Consulate in Hong
Kong, the United States has close and beneficial relations with the Hong Kong Customs &
Excise Department and the Hong Kong Trade & Industry Department which provides the basis
for Hong Kong’s continued access to exports of controlled U.S. technologies. The U.S.
government remains committed to continuing its existing export control policy toward Hong
Kong, consistent with the provisions of the U.S.-Hong Kong Policy Act, as one means of
demonstrating its support for Hong Kong’s autonomy.

Nonetheless, some U.S. government officials have raised concerns about the actual and potential
risk of diversion of sensitive technologies through Hong Kong. These concerns center on
China’s possible use of Hong Kong to obtain sensitive technologies illicitly and as a medium
through which to ship controlled technologies to other countries of concern. While we believe
the posting of an ECO in Hong Kong has served to strengthen the strong U.S.-Hong Kong
cooperation on export control matters, it is important for the United States to aggressively
monitor trade with Hong Kong to ensure that exported technologies are protected from diversion
or misuse. Therefore, we believe BIS needs to use its available resources as effectively as
possible to ensure that end-use checks reflect the full range of U.S. export control concerns in
Hong Kong.

RECOMMENDATIONS:

We recommend that BIS take the following actions to improve its end-use check program in
Hong Kong:

•   Increase the number of end-use checks that should be conducted in Hong Kong based on past
    performance;
•   Improve the targeting of end-use checks in Hong Kong through (a) adequate upfront research
    on no-license-required shipments prior to post shipment verification requests, (b) enhanced
    and continuing intelligence sharing between its Office of Export Enforcement and its Office
    of Enforcement Analysis; and (c) the utilization of intelligence information to help identify
    appropriate end-use checks; and,
•   Work with the U.S. Census Bureau to modify the Automated Export System to expand the
    Export Control Classification Number field from the current five digits to eight digits.


                                               27
U.S. Department of Commerce                                                  Final Report IPE-17500
Office of Inspector General                                                             March 2006




In its written response to our draft report, BIS stated that it generally agreed with our
recommendation to reevaluate the number of end-use checks that should be conducted in Hong
Kong based on past performance. In addition, BIS’ response stated that in December 2005 BIS
Export Enforcement reassigned an analyst to assist on Hong Kong end-use check targeting. It
also noted that the upcoming reorganization of BIS’ Office of Enforcement Analysis, including
the selection of a senior executive service-level director, would result in an increase in the
quantity and quality of BIS resources supporting license reviews and end-use checks. The
response further stated that quality is as important as quantity in selecting end-use checks and
that it is important to target and select meaningful end-use checks that provide BIS with the most
targeted and relevant information possible to assist in making license decisions or in detecting
potential diversions to unauthorized end uses or end users. We agree that quality end-use checks
are a critical component to BIS’ end-use check program in Hong Kong and, as discussed below,
are encouraged by BIS’ commitment to focus on this matter. However, in addition to ensuring
good quality end-use checks are conducted, it is also important for BIS to ensure that it conducts
an appropriate number of end-use checks in Hong Kong given the placement of an ECO there
and the need to monitor Hong Kong’s ability to maintain an effective and transparent export
control regime. As noted in our report, it appears that BIS’ current performance metric of
conducting 50 end-use checks a year may be rather low given past performance and as a result,
we modified our recommendation in this area to encourage BIS to increase this number.

With regard to better targeting of end-use checks in Hong Kong, BIS’ written response stated
that it agreed with our recommendations and is already taking steps to improve efforts in this
area. Specifically, the response stated that based on feedback received during a conference with
all BIS Export Control Officers in October 2005, Export Enforcement revised its overall
targeting and selection of end-use checks to the locations where its ECOs are located, including
Hong Kong. In addition, BIS noted that the upcoming reorganization of OEA is designed in part
to improve coordination between OEA and OEE on sharing intelligence information which will
help to identify appropriate end-use checks in Hong Kong. To this end, and prior to the formal
completion of the reorganization, OEA and OEE reportedly began joint weekly meetings in
December 2005 to review all available export control intelligence information to ensure
maximum coordination between the two offices.

Furthermore, BIS stated that it agrees with our recommendation for BIS to work with the Census
Bureau to determine the applicability of modifying the Automated Export System to expand the
Export Control Classification Number field from the current five-digits to eight-digits. Towards
that end, BIS reported that it is drafting the regulatory changes necessary to implement this
recommendation and will soon publish an Advance Notice of Proposed Rule Making in the
Federal Register to solicit comments from industry on the impact of expanding the Automated
Export System fields. BIS stated that it will also consult with the Census Bureau in developing
this regulation. Again, as noted in our report, this modification should better enable OEA or
other export enforcement officials to better target PSVs that could identify questionable export




                                               28
U.S. Department of Commerce                                                            Final Report IPE-17500
Office of Inspector General                                                                       March 2006


transactions whereby exporters might be misusing a license exception in attempts to divert the
licensed items to third countries. We are encouraged by BIS’ actions to date and look forward to
reviewing the advance notice of proposed rule when complete.


C.          BIS needs to improve staffing continuity for its operations in Hong Kong and China

BIS does not have a formal staffing plan to help ensure continuity in its ECO assignments in
Hong Kong and Beijing, China.54 Currently, there is no pool of talent within BIS (e.g., personnel
with both Mandarin Chinese language skills and export enforcement experience) from which to
draw replacement ECOs. The ECO position is a limited non-career position within CS.
Normally, the ECO position is a two-year assignment (with possible extensions). BIS’ first ECO
in Hong Kong was originally scheduled to depart post in March 2006; however, he has recently
extended his tour until May 2006, thus lessening the gap between the time he leaves and the
placement of his successor. In addition, the term of the current Beijing ECO expires in
December 2006.

Interruptions in carrying out in-country BIS operations have and may continue to occur without a
plan to ensure continuous staffing of the ECO positions. With respect to China, end-use checks
must be scheduled and conducted per the terms of the End Use Visit Understanding, making it
important to continuously staff that position. Since 2001, there have been two gaps of 3-months
duration in BIS operations in China (see Figure 10). Specifically, in September 2001, the first
ECO’s term in Beijing expired. Though BIS had already selected a special agent with Mandarin
Chinese language skills from one of its domestic field offices, that agent was unable to assume
his post immediately upon the ECO’s departure. The second gap occurred in September 2004
when the second ECO resigned his post. In December 2004, BIS hired a special agent with
Mandarin Chinese language ability from another federal agency already stationed at post.
During both of these gaps, BIS relied on CS staff to conduct end-use checks.

Figure 10: Gaps in BIS Operations in China

               2001             2002                 2003                      2004            2005


                                 New ECO                                                         New ECO
     ECO’s                       assumes                                                         assumes
     assignment                  position,                  ECO resigns                          position,
     ends, 9/14/01               12/30/01                   position, 9/8/04                     12/28/04
                     Vacancy                                                      Vacancy

Source: Bureau of Industry and Security and the U.S. & Foreign Commercial Service


ECOs stationed in Hong Kong and Beijing are normally required to have export control
knowledge and skills needed to conduct end-use checks and handle other necessary export
control responsibilities. In addition, it is highly desirable for these ECOs to have Mandarin
54
  While our review focused only on Hong Kong and China, this issue may also be applicable for the ECO
assignments in Abu Dhabi, United Arab Emirates; Moscow, Russia; and New Delhi, India.

                                                      29
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006


Chinese language ability. While CS informed us that both Hong Kong and Beijing are language-
designated posts for its officers, the ECO positions are not language-designated positions.

However, the November 2005 vacancy announcement for the Hong Kong ECO position stated
that “[a]pplicants proficient in the host country language, Chinese, are highly desired.”
However, it should be noted that for a candidate with no Mandarin Chinese language ability to
attain the CS language requirement for either Hong Kong or Beijing would entail specialized
language training of up to one year.

Prior to establishing the ECO position in Hong Kong, BIS relied on CS staff and Sentinel teams
to conduct end-use checks there. However, as stated in section B of this Chapter, the posting of
an ECO in Hong Kong has served to further strengthen the strong U.S.-Hong Kong cooperation
on export control matters by providing consistency in U.S. government operations there. In
addition, it may be difficult to use Sentinel teams to conduct end-use checks in China given the
current terms of the End-Use Visit Understanding (see Appendix C for our assessment of end-
use checks in China). Further, given the importance of conducting end-use checks in a timely
manner by knowledgeable personnel, the use of occasional Sentinel teams may not suffice.

BIS knew of the Hong Kong ECO’s planned departure since the summer of 2005; however, it
did not post a vacancy announcement for this position until mid-November 2005. In February
2006, the Deputy Under Secretary for Industry and Security informed us that BIS had identified
a candidate for the ECO position in Hong Kong. This individual is an attorney but does not have
law enforcement experience or Mandarin Chinese language skills.55 Given the 10 weeks of basic
law enforcement training the new ECO will have to undertake and other pre-travel requirements
(e.g., security and medical clearances), he is not expected to arrive at post until July 2006. While
the process is moving forward, BIS needs to develop a plan to avoid future gaps in assignments
in these two critical, overseas posts.

RECOMMENDATION:

We recommend that BIS develop a staffing plan to provide continuity in the stationing of
qualified export control officers in Hong Kong and China to avoid interruptions in operations
and initiate that plan at least 6 to 12 months before the end of the term of the departing export
control officer.



In its written response to our draft report, BIS agreed with our recommendation and stated it will
include as a critical element in the performance plan of the OEE coordinator of the ECO program
a requirement to coordinate and prepare the necessary vacancy announcements 6 to 12 months
prior to the end of each ECO’s assignment. However, BIS noted that it may be difficult creating
a pool of qualified ECOs for future assignments given the relatively small size of its personnel,

55
  In addition to seeking candidates with Mandarin Chinese language ability, the vacancy announcement called for
candidates with specialized experience in conducting criminal investigations and a knowledge of U.S. export control
laws and regulations.

                                                        30
U.S. Department of Commerce                                                    Final Report IPE-17500
Office of Inspector General                                                               March 2006


and, therefore, cautioned that future gaps in coverage may still occur. However, BIS did state
that in order to minimize the impact of any future gaps in assignments, it will ensure that there is
coverage in place in case of such a vacancy. We acknowledge BIS’ concerns in this regard and
appreciate its commitment to ensure maximum coverage in future ECO assignments.




                                                 31
U.S. Department of Commerce                                                              Final Report IPE-17500
Office of Inspector General                                                                         March 2006


III.    BIS’ Monitoring of License Conditions Could Be Enhanced

The EAR states that an export license may be limited by conditions on the use of the export. The
ability to place conditions on a license is an important part of the license approval process as
well as an additional means to monitor certain shipments. Frequently, the conditions are the
result of lengthy negotiations among the licensing referral agencies.

Of the 55 possible standard conditions, six require the exporter to submit documentation to BIS
regarding the shipment. For example, two require the exporter to provide different types of
delivery verification documents; one involves notification to BIS after the temporary
demonstration of a U.S. item overseas; one requires notification to BIS after the return of an
aircraft on temporary sojourn to a foreign country; one involves the submission of a post
shipment report on exports of high-performance computers to certain countries; and one involves
the submission of a shipper’s export declaration (SED) following shipment of the item (so that a
PSV can be initiated). A seventh condition – referred to as “Write Your Own” (WYO) – allows
licensing officers (LO’s) to formulate unique requirements, which may include reporting
requirements for either the exporter or the end user. Licenses with reporting conditions are
tracked in either Export Administration’s or Export Enforcement’s Conditions Follow-up
Subsystem within ECASS.56

In our FY 1999 export licensing report and FY 2003 export enforcement report,57 we found that
Export Administration and Export Enforcement were not consistently monitoring licenses with
reporting conditions and therefore were not following up with exporters to ensure compliance.
In response to our recommendations, both EA and EE instituted procedures to (1) regularly
monitor licenses with reporting conditions that are marked for follow-up by LOs and (2) follow-
up with exporters to request any necessary reporting documentation.

Within EA, the Office of Exporter Services (OExS) is responsible for monitoring exporter
compliance with five of the seven reporting conditions, including WYO conditions that have
reporting requirements. Of these five conditions, four involve the submission of routine
documentation, such as delivery verification, that do not require a level of technical expertise to
verify. If an LO marks a license with any of these conditions, the license is automatically
entered into EA’s Follow-up Subsystem.

By contrast, WYO conditions may sometimes contain substantive reporting requirements, such
as maintenance reports and technology control plans, which require some level of technical
review. For these conditions, the LO must choose “yes” or “no” in the WYO screen indicating
(1) whether the condition requires follow-up and (2) whether the documentation requires an
LO’s review. The license is only entered into EA’s Follow-up Subsystem if the LO marks “yes”
for “follow-up” required.

56
   Licenses requiring exporters to submit post shipment reports on high-performance computer exports to certain
countries are monitored separately from Export Enforcement’s Conditions Follow-up Subsystem.
57
   U.S. Department of Commerce Office of Inspector General (Commerce OIG), June 1999. Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003
Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155.

                                                       32
U.S. Department of Commerce                                                  Final Report IPE-17500
Office of Inspector General                                                             March 2006


Within EE, the Office of Enforcement Analysis (OEA) is responsible for monitoring licenses
marked with the remaining reporting conditions— the submission of post shipment reports on
high-performance computer exports to certain countries, referred to as “Condition 34,” and of
SEDs, which is referred to as “Condition 14.” Licenses with Condition 14 require a PSV on a
specific foreign entity following the first shipment made against the license. Exporters are
required to submit a copy of the shipment’s SED directly to OEA, which then initiates the PSV.


A.      BIS should ensure that there is a technical review of technical documentation
        submitted by exporters or end users pursuant to license conditions

We reviewed all China export license applications processed at the OC and ACEP during FYs
2004 and 2005 and identified 15 that had WYO reporting conditions (excluding Condition 14).
Of the 15 cases involving such reporting conditions, four involved the submission of
documentation confirming the delivery of shipments, which could be verified by OExS staff.
However, 11 cases involved license conditions with more technical reporting requirements, but
none of them were marked for LO review. Aside from LO review, there is no procedure in place
to provide technical review of the documentation to ensure that exporters or end users are in
compliance with license conditions.

The reporting requirements, which were incorporated into the WYO condition of each license,
were designed to address particular concerns that either BIS or other licensing referral agencies
had about the parties to the transaction or about the transaction itself. In some cases, the
condition was designed to address concerns about unauthorized exports or re-exports. Two
licenses had conditions that required the end-user or consignee to develop and implement a
technology control plan prior to shipment. In another situation, a licensing referral agency was
concerned that the item would not be used for its stated purpose, prompting a condition
addressing the specific nature of the risk addressed to the exporter, end-user, or both. Other
conditions required the submission to BIS of (1) quarterly shipment reports of the exported
commodity, (2) an annual report summarizing demonstrations of the item and any measures
taken to ensure its security, or (3) a quarterly report on how the item was being utilized.

While these reporting conditions are placed on the exporter and/or end user, BIS does not require
any form of technical review of the documentation submitted to ensure that it meets the
requirements of the condition. In fact, OExS staff informed us that although LOs have the
opportunity to review the documentation, they rarely mark them for review. Without a technical
review to ensure compliance, the purpose of placing reporting conditions on the license is
defeated.

RECOMMENDATION:

We recommend that BIS put procedures in place to provide for a technical review of technical
documentation submitted by exporters and end users to ensure their compliance with license
conditions.



                                                33
U.S. Department of Commerce                                                               Final Report IPE-17500
Office of Inspector General                                                                          March 2006




In its written response to our draft report, BIS agreed that there may be instances where a
technical review of documentation submitted pursuant to license conditions may be warranted.
BIS stated that it would conduct an internal assessment, scheduled for completion by May 12,
2006, to determine an appropriate process for conducting technical reviews. We acknowledge
BIS’ effort and would appreciate a copy of the review results upon their completion.


B.      China post shipment verification license conditions were not properly marked for
        follow-up

As noted earlier, licenses with PSV conditions are marked with Condition 14 and are
automatically entered into EE’s Conditions Follow-up Subsystem for subsequent monitoring.
However, based on our review of China OC and ACEP licenses, we identified five licenses that
required PSVs but were not properly marked by the LO with Condition 14. Instead, the text of
the PSV condition for each license was recorded in the WYO condition, which, as discussed
previously, does not automatically add a license to either EE’s or EA’s Conditions Follow-up
Subsystem. These errors occurred despite the fact that each export license application is
reviewed and signed off by a countersigner (typically a division director) to ensure that license
applications are processed appropriately. For example, countersigners are responsible for
ensuring that license conditions agreed upon at the OC are reflected accurately in the license
application.

Of the five licenses, initial shipments were made against three of them – one in November 2004
and two in April 2005.58 Although the LOs responsible for these licenses neglected to mark
Condition 14 on the 5 licenses, it appears that the exporters were compliant in these three cases
by submitting copies of their SEDs. Normally, under Condition 14, exporters are instructed to
submit copies of SEDs to OEA. However, each of these three licenses contained language
instructing the exporter to submit the documentation to OExS. As such, OEA staff stated that it
was not aware that any of these licenses had a PSV condition. Had Condition 14 been marked
for each license, standard language about the SED requirement (including instructions to submit
the documents directly to OEA) would have been included automatically in the list of license
conditions that is provided to the exporter. In addition, each license would have been placed in
EE’s Conditions Follow-up Subsystem for OEA to monitor.

According to “step-by-step procedures” instituted by OExS in response to a recommendation
from our FY 2003 export enforcement report, OExS’ staff are required to forward to OEA a copy
of any license requiring a PSV that has been erroneously marked under the WYO condition
along with a standardized memorandum addressed to the Director of OEA notifying him of the
error. However, OExS could not find records of having forwarded to OEA copies of these five
licenses. OExS staff informed us that if they receive follow-up documentation (which would

58
   Per OExS, exporters had not shipped against the remaining two licenses as of January 17, 2006. However, export
licenses are normally valid for two years from the date of approval and at the time of our review, none of the five
licenses had expired.

                                                        34
U.S. Department of Commerce                                                 Final Report IPE-17500
Office of Inspector General                                                            March 2006


include SEDs) for a license that is not marked for follow-up, the documentation is scanned and
archived in a document storage system separate from ECASS without a review. Subsequent to
our inquiry, OExS forwarded copies of all five licenses and the three SEDs that had been
submitted by exporters to OEA.

Without Condition 14 on a license, OEA staff members do not know that a PSV is required when
it is written as a WYO condition and, as a result, a PSV cannot be initiated for the license. In
addition, with regard to the specific cases cited above, because of the time that elapsed between
the date of shipment and OEA’s receipt of the aforementioned SEDs from OExS, OEA informed
us it was not able to proceed with a PSV request for any of the Chinese end users associated with
these three licenses because of the terms of the End-Use Visit Understanding. (See Appendix C
for more information on this issue.)

RECOMMENDATIONS:

We recommend that BIS take the following actions to improve its efforts to monitor exporter
compliance with license conditions:

•   Review the process of marking and countersigning license applications with Condition 14 to
    identify and correct any weaknesses to ensure that these license applications are properly
    entered into Export Enforcement’s Followup Subsystem and monitored by the Office of
    Enforcement Analysis.
•   Ensure that the Office of Exporter Services promptly forwards to the Office of Enforcement
    Analysis any copies of shipper’s export declarations that are submitted by an exporter.



In its written response to our draft report, BIS stated that on March 16, 2006, it had issued
guidance to Licensing Officers and Counter Signers in the form of an email reminding them of
the proper procedures for marking Condition 14 and other standard license conditions. While
this action partially meets the intent of our recommendation, the response did not discuss
whether BIS would review its current process of countersigning licensing applications to ensure
that standard license conditions, including Condition 14 and other reporting conditions, are
accurately recorded into ECASS and, if applicable, entered into the appropriate conditions
follow-up subsystem for monitoring. We would appreciate receiving the results of BIS’ review
of its license countersigning process in its action plan.

With regards to our recommendation on forwarding SEDs to OEA, BIS’ written response stated
that staff in the Operations Support Division of the Office of Exporter Services was issued
guidance in the form of an email on March 16, 2006, requiring them to forward such documents
to OEA within 48 hours of receipt to ensure that PSVs are initiated promptly.




                                               35
U.S. Department of Commerce                                                                Final Report IPE-17500
Office of Inspector General                                                                           March 2006


IV.        NIST and NOAA Conduct Various Activities Pursuant                    to the 1979 U.S.-China
           Science and Technology Agreement

Pursuant to our mandate under the NDAA for FY 2003, we sought to determine what activities
Commerce bureaus were engaged in pursuant to the 1979 U.S.-China S&T Agreement and, to
the extent practicable, whether they are adhering to export control regulations. Within
Commerce, there are two bureaus - NIST and NOAA - that maintained active protocols under
the agreement during FYs 2004 and 2005.

We found that NIST appears to be complying with deemed export control regulations with
respect to activities undertaken pursuant to the 1979 S&T Agreement. Specifically, the EAR-
controlled items we reviewed at NIST appeared to be protected from Chinese foreign national
visitors. We found that NOAA still is in the process of developing its export control compliance
program; however, NOAA has reportedly placed access controls on all EAR-controlled
technology where foreign nationals are present, including Chinese nationals.

We also found that emDlovees from both NIST and NOAA who traveled to China




A.         NIST's Science and Technology exchange activities with China

One ofNIST's core missions is to exchange information and collaborate on research with similar
institutions all over the world to provide products and services of the highest quality. Thus,
through its Foreign Guest Researcher Program, NIST offers foreign scientists, including Chinese
foreign nationals, the opportunity to work collaboratively with NIST scientists. The Office of
International and Academic Affairs oversees all ofNIST's interactions with foreign entities and
persons and collects information on foreign national visitors and guest researchers at NIST.

During FYs 2004 and 2005, NIST had one active protocol with China's General Administration
of Quality Supervision, Inspection, and Quarantine in place.61 Signed on December 9, 2003, this
protocol supports cooperation in the fields of metrology and standards. However, the protocol is
very general, and specific activities NIST conducts with its Chinese counterpart organizations
and their researchers-such   as conferences and joint research projects-are not always identified




6I   NIST signed a second protocol with the Chinese Academy of Sciences at the end of FY 2005, but did not conduct
any activities   under it during the period of our review.


                                                             36
U.S. Department of Commerce                                                                 Final Report IPE-17500
Office of Inspector General                                                                            March 2006


in relation to it. Several NIST employees we interviewed were not even aware that the protocol
is in place.

Many Chinese Foreign Nationals Visited NIST During FYs 2004 and 2005

As with all foreign nationals, NIST categorizes Chinese foreign nationals who visit its facilities
into two main groups: short-term visitors who are at NIST for 10 days or less, and long-term
visitors who are at NIST for 11 days or more.62 NIST further segregates long-term visitors into
four sub-categories: (1) “foreign guest researchers”, (2) “facility users”, (3) “contractors”, and
(4) “Cooperative Research and Development Agreement (CRADA) participants.”63 (See Table 3
for a breakdown of the number and types of Chinese foreign national visitors recorded by NIST
during FYs 2004-2005.)

Long-Term Visitors. During FYs 2004 and 2005, a total of 209 long-term Chinese foreign
national visitors were at NIST’s Gaithersburg, Maryland, and Boulder, Colorado, campuses.
NIST’s Material Science and Engineering Laboratory hosted 146 of them. Of those, 50 were
foreign guest researchers and 95 were facility users at the NIST Center for Neutron Research.
The remaining one visitor worked as a CRADA participant at the NIST Center for Neutron
Research.

Short-Term Visitors. NIST recorded a total of 352 Chinese foreign nationals visiting NIST
facilities on a short-term basis during this same two-year period.64 These Chinese visitors
comprised approximately 11 percent of the 3,230 short-term foreign visitors from over 100
countries who came to NIST during FYs 2004 and 2005. Most of the Chinese short-term visitors
came from China’s General Administration of Quality Supervision, Inspection and Quarantine;
the Chinese Academy of Sciences; other Chinese governmental organizations and laboratories;
or universities.




62
   NIST did not explicitly identify Chinese foreign national visitors as participants of protocol-driven activities.
Therefore, our review included all Chinese citizens visiting NIST during FYs 2004-2005, excluding those who were
permanent U.S. residents.
63
   Foreign scientists who are invited to conduct research at NIST are called “foreign guest researchers”. “Facility
users” refers to researchers who come to NIST on a short-term basis—10 days or less—to utilize NIST facilities and
equipment available for public use and include foreign citizens. (Although they are technically short-term visitors,
NIST places them into the long-term category. If facility users require more than 10 days to complete their research,
NIST will reclassify them to “foreign guest researcher” status, which requires additional security assurance
reviews.) “Contractors” are researchers who are temporarily employed via a sole-source provider to conduct
specific research tasks requested by NIST researchers. Finally, while NIST generally does not allow foreign
nationals to participate in CRADAs—which may include publication restrictions that could subject the research to
export controls—exceptions can be made.
64
   NIST’s Office of International and Academic Affairs and the Mountain Region Security Office—which maintains
records of foreign national visitors to NIST’s Boulder, Colorado, campus— stated that their records of short-term
Chinese national visitors during FYs 2004-2005 might be incomplete because NIST’s operating units may not
always report these visitors to their offices. Further, this figure does not capture all conference attendees at NIST.

                                                         37
U.S. Department of Commerce                                                                      Final Report IPE-17500
Office of Inspector General                                                                                 March 2006


EAR-Controlled Items Appear to Be Protected

According to NIST, no Chinese foreign national visitors had access to EAR-controlled items in
FY s 2004 and 2005 that would have required a deemed export license. Since the issuance of our
FY 2004 report on deemed exports,65 NIST's Emergency Services Division has developed and
maintained an inventory of 129 EAR-controlled items. Most of the EAR-controlled items
identified by NIST were controlled for "physical" exports to China, with some of them also
controlled for "use" technology that would require a deemed export license.

We inspected 12 of the 129 EAR-controlled items at the Gaithersburg, Maryland, campus to
determine whether Chinese foreign national visitors could possibly have access to the controlled
technologies. NIST reported that all short-term Chinese foreign national visitors are escorted by
NIST personnel at all times, minimizing the possibility that they would have undetected access
to EAR-controlled technologies. Although long-term Chinese foreign national foreign guest
researchers could gain access to some rooms or laboratories that contained EAR-controlled
items, those items were locally secured
                   . In addition, although we found that Chinese foreign national facility users
and a few Chinese foreign national foreign guest researchers did have access to certain
laboratory equipment that involved EAR-controlled items, it appears that the technology
remained protected.

For example, the Neutron Spin Echo Spectrometer
at the NIST Center for Neutron Research (see
photo to the right) contains three tri-axial fluxgate
magnetometers that are controlled for "National
Security" reasons by the EAR. However, we were
told by the Director of the Center that the items-
with the dimensions of approximately 3cm x 3cm
x 20cm-are embedded deep inside the massive
apparatus, and the entire floor area is under
constant surveillance
_.66        Moreover, although these items were
controlled for exports to China, they were not
                                                                     The Neutron Spin Echo Spectrometer at the NIST
controlled for "use" technology, and thus, deemed                    Centerfor Neutron Research
export controls were not applicable in this case.

In addition to the development of an inventory for its EAR-controlled equipment, NIST recently
implemented a program to conduct "upfront" review of its research activities. 67 Specifically,
NIST laboratory managers conduct reviews ofNIST researchers' ongoing and foreseeable
upcoming research to determine whether technology used and/or created by NIST researchers

65   U.S. Department of Commerce, Office of Inspector General. Deemed Export Controls May Not Stop the Transfer
of Sensitive Technology to Foreign Nationals in the Us., IPE-16176,.March 2004.
66 The NIST Center for Neutron Research is subject to the Nuclear Regulatory Commission's           regulations for
facilities with nuclear source material. NIST officials said that the entire facilitY is under 24-hour surveillance.

07This program was initiated in response to the OIG's 2004 report on deemed exports.

                                                            38
U.S. Department of Commerce                                                              Final Report IPE-17500
Office of Inspector General                                                                         March 2006


and their staff (which includes foreign guest researchers) are subject to U.S. export control laws.
These findings are then recorded in the NIST researchers’ performance plans by their managers.
If it is determined that any of the technology to be used and/or created during NIST research
activities is controlled for export control purposes, NIST would either seek a deemed export
license or protect the technology from disclosure to foreign nationals, as appropriate. However,
with two cycles of performance reviews conducted in the spring and fall of 2005, NIST informed
us that it did not identify any instances where a deemed export license would be required for on-
going or upcoming research.


B.      NOAA’s Science and Technology exchange activities with China

Staff at five of NOAA’s line offices68 collaborate internationally on many projects and issues.
Pursuant to the 1979 U.S.-China S&T Agreement, Chinese foreign nationals may visit or work at
NOAA research facilities or data centers to undertake joint research projects. Conversely,
NOAA scientists and other staff may travel to China to promote the exchange of scientific or
technical information through activities such as lectures, collaborative projects, and participation
in workshops and conferences.

NOAA has entered into two protocols pursuant to this agreement. The first protocol, with the
China Meteorological Administration, is managed on the U.S. side by the National Weather
Service (NWS) and covers the field of atmospheric science and technology (subsequently
referred to as the atmospheric protocol). The second protocol, with China’s State Oceanic
Administration, is managed on the U.S. side by the Office of Oceanic and Atmospheric Research
(OAR) and covers the field of marine and fishery science and technology (subsequently referred
to as the marine and fisheries protocol). We surveyed a sample of U.S.-China S&T activities at
NOAA’s Silver Spring and Camp Springs, Maryland facilities in order to assess the bureau’s
compliance with export controls. Although our survey focused on export compliance as it relates
to Chinese foreign nationals, we found that NOAA has made progress in fulfilling the
recommendations made in our March 2004 deemed export report.

Chinese Nationals Visit NOAA Within and Outside the Protocols

To facilitate our survey, OAR and NWS provided us with lists of Chinese foreign national
visitors and guest researchers with access to their facilities both within and outside of the S&T
protocols. During FYs 2004 and 2005, 73 Chinese foreign nationals visited NWS facilities under
the atmospheric protocol, while 48 Chinese foreign nationals visited OAR facilities under the
marine and fisheries protocol. An additional 77 Chinese foreign nationals visited the NWS and
OAR facilities for activities outside the protocols.



68
  The five NOAA line offices referred to above include the National Ocean Service, the National Weather Service,
the National Marine Fisheries Service, the Office of Oceanic and Atmospheric Research, and the National
Environmental Satellite, Data, and Information Service. NOAA’s sixth line office, Program Planning and
Integration, does not engage in international projects.

                                                       39
U.S. Department of Commerce                                                                 Final Report IPE-17500
Office of Inspector General                                                                            March 2006


We interviewed six officials who, together, had sponsored 27 current and former Chinese foreign
national visitors and guest researchers. Based on our interviews, it appears that most of these
particular individuals were involved with computer and software development, operations, and
support, rather than laboratory research. Much of their work involved routine activities to
support daily NOAA operations, such as writing computer programs using publicly available
information and open source software to translate daily weather satellite data. Similarly, those
who did conduct research, reportedly worked with publicly available information only, such as
weather and climate data, and published all of their results. However, it should be noted that
NOAA plans to develop a process in FY 2006 to review all of its research to determine the
applicability of deemed export control issues.

EAR-Controlled Equipment and Technologies at NOAA Have Been Partially Inventoried

In response to our FY 2004 deemed export recommendations, NOAA established a Deemed
Export Steering Committee in mid-2005 to coordinate compliance with dual-use export controls.
The Steering Committee, which is composed of senior NOAA managers and staff, instructed
each of NOAA’s line offices plus the Office of Marine and Aviation Operations to (1) conduct a
NOAA-wide inventory review of technology and software, (2) develop technology control plans
governing access to export-controlled technologies, and (3) identify all foreign nationals with
access to their facilities.

With its operations encompassing over 800 physical locations (including NOAA’s ships and
airplanes), NOAA divided its export compliance review into two phases, beginning with Priority
1 sites, defined as any location that either has foreign nationals present or contains critical
infrastructure. This included any NOAA facilities where research is conducted and foreign
nationals are present. By December 2005, NOAA had completed its inventory of equipment and
technology at Priority 1 sites, and specifically identified 132 EAR-controlled items in various
locations, including some in which Chinese foreign nationals were present.69 NOAA made a
preliminary determination that no deemed export licenses were required, but also submitted this
assessment to BIS for a final review. According to NOAA, on February 16, 2006, BIS provided
favorable feedback regarding NOAA’s inventories and assessment, including NOAA’s
conclusion that there are no instances where deemed export licenses are needed for any foreign
nationals currently working in NOAA facilities. NOAA managers at these locations have
reportedly secured their EAR-controlled equipment to prevent foreign national access, pending
the implementation of formal access control plans, which were submitted to NOAA’s Office of
the Chief Administrative Officer on December 12, 2005, for review.70 According to the hosts we
interviewed, none of the Chinese foreign nationals they were hosting had access to EAR-
controlled “use” technology.




69
   Officials at one location reported having items controlled under ECCN 4A994 but did not provide a specific count
of the items involved. However, they also reported no foreign nationals present at that location.
70
   According to a January 2006 status report in response to our FY 2004 deemed export report, NOAA is
formulating a strategy to conduct inventories at its remaining facilities, known as “Priority 2” sites, and intends to
carry out those inventories in FY 2006.

                                                         40
U.S. Department of Commerce                                                    Final Report IPE-17500
Office of Inspector General                                                               March 2006


Employees involved in the inventory review process attended a two-day, intensive export control
training session provided by BIS. Although NOAA has not yet implemented export-control
awareness training for all employees, those we interviewed, including those who hosted Chinese
foreign nationals or traveled to China, had at least a general awareness of export controls.

NOAA Presentations Reviewed by OIG Appear to Involve Publicly Available Information

NOAA Administrative Order (NAO) 201-32G states that each line office is “responsible for the
scientific and technical quality of materials they originate and provide for the scientific review of
manuscripts prior to releasing them for publication in NOAA and non-NOAA media.” Staff we
interviewed said that their managers do review their presentations before they are released to
ensure technical accuracy and consistency with NOAA policies. Furthermore, they stated that
the information contained in those presentations involved publicly available information;
therefore, export controls would not apply. We reviewed several NOAA presentations that had
been delivered at public forums in China as part of S&T activities and found that they appear to
contain only publicly available information.

Chinese Foreign National Access to NOAA Facilities Appears to Adhere to Departmental Policy

OSY officials at NOAA and Commerce headquarters said that Chinese foreign national visitors
and guest researchers are allowed unescorted access into NOAA facilities only after the
completion and adjudication of a background investigation. Those who have not been cleared by
OSY are required to sign in daily, receive and wear visitor stickers, and be escorted by their
respective hosts. According to OSY, one-day foreign national visitors or open conference
attendees at NOAA facilities normally are not required to undergo background investigations
prior to receiving access because those foreign nationals are supposed to be either escorted by
their hosts or prevented by the guard force from accessing areas where only authorized NOAA
employees or contractors are allowed. According to OSY, NOAA is complying with the escort
requirement; however, due to time constraints, we were unable to verify whether these
procedures were being followed for Chinese foreign nationals at NOAA facilities.




                                                 41
U.S. Department of Commerce                                                   Final Report IPE-17500
Office of Inspector General                                                              March 2006


                           SUMMARY OF RECOMMENDATIONS

We recommend that the Under Secretary for Industry and Security ensure that the following
actions are taken:

1) We recommend that BIS review the issue to determine whether it warrants regulatory
   revision, such as the addition of a military “catch-all” provision to the EAR for items that
   could contribute to the development of conventional weapons but are not specifically
   controlled for national security reasons, and implement, as appropriate (see page 17).

2) We recommend that BIS develop one consistent policy regarding exports to military end
   users or for military end uses in China and amend the regulations as necessary to reflect that
   policy (see page 21).

3) Increase the number of end-use checks that should be conducted in Hong Kong based on past
   performance (see page 23).

4) Improve the targeting of end-use checks in Hong Kong through (a) adequate upfront research
   on no-license-required shipments prior to post shipment verification requests, (b) enhanced
   and continued intelligence sharing between its Office of Export Enforcement and its Office
   of Enforcement Analysis; and (c) the utilization of intelligence information to help identify
   appropriate end-use checks (see page 23).

5) Work with the U.S. Census Bureau to modify the Automated Export System to expand the
   Export Control Classification Number field from the current five-digits to eight-digits (see
   page 23).

6) We recommend that BIS develop a staffing plan to provide continuity in the stationing of
   qualified export control officers in Hong Kong and China to avoid interruptions in operations
   and initiate that plan at least 6 to 12 months before the end of the term of the departing export
   control officer (see page 29).

7) We recommend that BIS put procedures in place to provide for a technical review of
   technical documentation submitted by exporters and end users to ensure their compliance
   with license conditions (see page 33).

8) Review the process of marking and countersigning license applications with Condition 14 to
   identify and correct any weaknesses to ensure that these license applications are properly
   entered into Export Enforcement’s Followup Subsystem and monitored by the Office of
   Enforcement Analysis (see page 34).

9) Ensure that the Office of Exporter Services promptly forwards to the Office of Enforcement
   Analysis any copy of a shipper’s export declaration that is submitted by an exporter
   (see page 34).



                                                42
U.S. Department of Commerce                                         Final Report IPE-17500
Office of Inspector General                                                    March 2006


                                  APPENDICES

                              Appendix A: Acronyms

               ACEP            Advisory Committee on Export Policy
               AES             Automated Export System
               AT              Anti-Terrorism
               BIS             Bureau of Industry and Security
               CB              Chemical/Biological
               CCL             Commerce Control List
               CIA             Central Intelligence Agency
               EAR             Export Administration Regulations
               ECASS           Export Control Automated Support System
               ECCN            Export Control Classification Number
               ECO             Export Control Officer
               FY              Fiscal Year
               IPE             Inspections and Program Evaluations
               LO              Licensing Officer
               MOFCOM          Ministry of Commerce, People’s Republic of China
               NDAA            National Defense Authorization Act
               NAO             NOAA Administrative Order
               NIST            National Institute of Standards and Technology
               NLR             No License Required
               NOAA            National Oceanic and Atmospheric Administration
               NS              National Security
               NWS             National Weather Service
               OAR             Office of Oceanic and Atmospheric Research
               EA              Export Administration
               EE              Export Enforcement
               OEA             Office of Enforcement Analysis
               OC              Operating Committee
               OIG             Office of Inspector General
               OSY-NIST        (Commerce) Office of Security at NIST
               PLC             Pre-License Check
               PSV             Post shipment verification
               WINPAC          Center for Weapons Intelligence, Nonproliferation, and
                               Arms Control
               S&T             Science and Technology
               SED             Shipper’s Export Declaration




                                        A-1
Final Report IPE-17500
           March 2006




                                                                                                  0 Days                                  9 Days                                         39 Days                                  90 Days
                                                                                                         Pre-                       License, Deny, or                              License, Deny, or                         License, Deny, or
                                                                                                        License                          Return                                         Return                                    Return
                              Appendix B: Interagency Dual-Use Export Licensing Process




                                                                                                        Check
                                                                                                        (PLC)
                                                                                              BIS Initial                                     Not
                                                                                              Screening/          Enforcement                 Referred                                                                                        Post
                                                                                              Technical             Review                                                                                                                 Shipment
                                                                                               Review                                                                                                                                      Verificatio
                                                                                                                                                                    CIA                                                                     n (PSV)
                                                                                                                                                                Information
                                                                                             (Registration                                                                                               Disagree
                                                                                                                                       Decision                                         Decision
                                                                                                  of
                                                                                                                                         (1)                                              (2)
                                                                                             Application)




                                                                                                                                                                                                                                                                                               B-1
                                                                                                                   Initial Case                                Referral Process                                     Dispute Resolution Process
                                                                                                                    Analysis                                         CIA
                                                                                                                                              Referred
                                                                                                                                                                  Defense                                    OC => ACEP => EARB => President
                                                                                                                                                                   Energy           Recommendations          (3)    (4)     (5)       (6)
                                                                                                                                                                   Justice
                                                                                                                                                                    State
U.S. Department of Commerce




                                                                                                                                                                                                                                                         Source: Office of Inspector General
                                                                                                                                                                    PLC
Office of Inspector General




                                                                                          (1) On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
                                                                                          (2) On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
                                                                                          (3) On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
                                                                                          (4) On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
                                                                                          (5) On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
                                                                                          (6) On or before day 90 of registration, the application can be escalated to the President.
                                                                                          Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
U.S. Department of Commerce                                                 Final Report IPE-17500
Office of Inspector General                                                            March 2006


                              Appendix C: End-Use Checks in China




                     This appendix classified at the CONFIDENTIAL level
                and is available separately from the Office of Inspector General.




                                              C-1
U.S. Department of Commerce                                                 Final Report IPE-17500
Office of Inspector General                                                            March 2006




           Appendix D: Intelligence Sharing Issues for End-Use Check Targeting




                  This appendix is classified at the SECRET/NOFORN level
                and is available separately from the Office of Inspector General.




                                              D-1
U.S. Department of Commerce                                         Final Report IPE-17500
Office of Inspector General                                                    March 2006


                              Appendix E: BIS Management Response




                                              E-1
u.s. Department of Commerce                                                                      Final Report IPE-17500
Office of Inspector General                                                                                 March 2006




                         BUREAU OF INDUSTRYAND SECURITY COMMENTS:
                      U.S. Dual-USE Export Controls for China Need to be Strenl!thened
                             Draft Inspection Report No. IPE-17500. March 2006

             Part 1- Response IG Recommendations

             Prior to publication of this repo~ the Bureau oflndustry and Security (BIS) bad already
             and independently taken steps to meet many of the report's recommendations. BIS will
             also begin steps to meet the remaining recommendations.

             Recommendation 1: We recommend that BIS review the issue [of cbanging the
             regulations to permit denial solely on the basis of military end-use if the exported item or
             technology is not controlled for NS reasonsl to determine whether it w'arrants regulatory
             revision. such as the addition of a military "catch-all" provisions to the EAR for items
             that could contribute to the development of conventional weapons but are not specificallY
             controlled for national security reasons (see page 17).

             BIS Response: BIS has completed its review of the issue and incorporated the results in
             a draft rule that BISis preparing in order to implement with respect to China the
             Wassenaar Statement of Understanding regarding exports to countries subject to arms
             embargoes. BIS anticipates final interagency agreement on the draft rule and publication
             in proposed form for public comment by late spring 2006.

             Recommendation 2: We recommend that BIS develop one consistent policy regarding
             exports to militarY end users or for military end uses in China and amend the regulations
             as necessary to reflect tbat policy (see page 21).

             BIS Response: The draft rule referred to in the response to Recommendation 1 will also
             address this issue.

             Recommendation 3: Reevaluate the number of end-use checks that should be conducted
             in Hong Kong based on past performance (see page 23).

             HIS Response: BIS generally agrees with this recommendation and is already taking
             steps consistent with it. For example, on December 15,2005, BIS's Export Enforcement
             reassigned an analyst to assist on Hong Kong end-use check targeting. In addition, the
             upcoming reorganization ofBIS's Office of Enforcement Analysis (OEA), including the
             selection of an SES-Ievel director, "\liJIresult in an increase in the quantity and quality of
             BIS resources supporting license reviews and end-use checks.

             Quality is as important as quantity in selecting end-use checks. It is important to target
             and select meaningful end-use cbecks that provide BIS with the most targeted and
             relevant information possible to assist in making licensing decisions or in detecting
             potential diversions to unauthorized end-uses or end-users. Therefore, BIS focuses on the
             quality of checks to ensure maximum security benefit.




                                                          E-2
U.S. Department of Commerce                                                                    Final Report IPE-17500
Office of Inspector General                                                                               March 2006




             The report also highlights a limitation BIS faces in targeting and selecting meaningful
             post-shipment verifications (PSVs) in Hong Kong due to the lack of sub-paragraph
             Export Control Classification Number (ECCN) information in the Automated Export
             System. BIS's response to this constraint is detailed below in response to
             Recommendation 5.

             Recommendation 4: Improve the targeting of end-use checks in Hong Kong through (a)
             adequate upfront research on no-license-required shipments prior to post shipment
             verification requests. (b) enhanced and continued intelligence sharing between its Office
             of Export Enforcement and its Office of Enforcement Analysis' and (c) the utilization of
             intelligence information to help identify appropriate end-use checks (see page 23).

             BIS Response: BIS agrees with the IG recommendation and is already taking steps to
             improve targeting of end-use checks. Based on feedback received during a conference
             \\-;th all BIS Export Control Officers (ECOs) in Washington, D.C., in October 2005,
             Export Enforcement revised its overal1 targeting and selection of end-use checks to the
             locations where our ECOs are located, including Hong Kong.

             In addition, the upcoming reorganization of OEA is designed in part to improve
             coordination between OEA and the Office of Export Enforcement (OEE) on sharing
             intelligence information which will help to identify appropriate end-use checks in Hong
             Kong and elsewhere. To this end, and prior to the formal completion of the
             reorganization, OEA and OEE began joint weekly meetings in December 2005 to review
             all available export control intelligence information to ensure maximum coordination
             between the two offices.

             Please see the Confidential attachment for additional comments on this recommendation.

             Recommendation 5: Work with the U.S. Census Bureau to determine the applicability
             and costs associated with modifying the Automated Export System to expand the Export
             Control Classification Number field from the current five-digits to eight-digits (see page
             23).

             BIS Response: BIS agrees with the IG recommendation and is already taking steps to
             fill this gap. BIS is drafting the regulatory changes necessary to implement tills
             recommendation and will soon publish an Advance Notice of Proposed RuIe Making in
             the Federal Register to so1icit comments from industry on the impact of expanding
             Automated Export System fields. BIS will also consult with the Census Bureau in
             developing this regulation.

             Recommendation 6: We recommend that BIS develop a staffing plan to provide
             continuity in the stationing of qualified e""port control officers in Hong Kong and China
             to avoid interruptions in operations and initiate that plan at least 6 to 12 months betore
             the end of the term of the departing export control officer (see page 28).




                                                         E-3
U.S. Department of Commerce                                                                    Final Report IPE-17500
Office of Inspector General                                                                               March 2006




             JUS Response: BIS agrees with this IG recommendation. OEE will specifically include
             as one of the critical elements of the performance plan for the OEE coordinator for BIS
             ECOs a requirement to coordinate and prepare the necessary vacancy announcements 6 to
             12 months prior to the end of each ECO' s assignment.

             However, it is important to note that no staffing plan can cover every contingency. BIS
             currently has fewer than 400 personnel, so is unlikely to be able to create a ready pool of
             language-qualified ECOs that can be deployed on short notice. Thus, it is reasonable to
             assume that, despite the best efforts ofBlS, gaps in ECO coverage will occasionally
             occur. In order to minimize the impact of such gaps, BIS will ensure that there is
             coverage in place in case of such a vacancy.

             Recommendation 7: We recommend that BIS put procedures in place to provide for a
             technical review of technical documentation submitted by exporters and end-users to
             ensure their complianceand license conditions(see page 31).

             HIS Response: HIS agrees that there may be instances where technical review of
             documentation submitted pursuant to a license condition is warranted. BIS plans to
             complete an internal assessment by May 12,2006, to determine the appropriate process
             for conducting these reviews.

             Recommendation 8: Review the process of marking and countersigning license
             applications with Condition 14 to identifY and correct any weaknesses to ensure that
             these license applications are properly entered into Export Enforcement's Follow-up
             Subsystem and monitored by the Office of Enforcement Analvsis (see page 32).

             BIS Response: On March 16, 2006, BIS issued guidance to Licensing Officers and
             Counter Signers reminding them of the proper procedures for marking Condition 14 and
             other Standard Conditions. A copy of that guidance is attached.

             Recommendation 9: Ensure that the Office of Exporter Services promptly forwards to
             the Office of Enforcement Analysis any copy ofa shipper's export declaration that is
             submitted by an exporter (see page 32).

             HIS Response: On March 16, 2006, the Operations Support Division (OSD) of Export
             Enforcement's Office of Exporter Services was issued guidance requiring staff to forward
             Shipper's Export Dec1aratiow'Automated Export System (SEDI AES) documents to OEA
             within 48 hours of receipt. OSD was also instructed to place a copy of the documents
             and the transmittal memo in the Multipurpose Archival Records Retrieval System
             (MARRS), which is the permanent record retention system for documents related to
             export applications and classifications. A copy of this guidance is attached.




                                                         E-4
U.S. Department of Commerce                                     Final Report IPE-17500
Office of Inspector General                                                March 2006


                         Appendix F: NOAA Management Response




                                         F-1
U.S. Department of Commerce         Final Report IPE-17500
Office of Inspector General                    March 2006




                              F-2
Appendix C. Department of Defense Report




                     C-1
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DTSA                  Defense Technology Security Administration
USXPORTS              US Exports System
                    Department of Defense Office of Inspector General
Report No. D-2006-067                                                                   March 30, 2006
      (Project No. D2005-D000LG-0220.000)


                               Controls Over Exports to China

                                        Executive Summary

Who Should Read This Report and Why? Personnel who are responsible for advising
DoD management on releasing exports to China should read this report because it
discusses the effectiveness of the DoD process for reviewing applications to export
technology to China.

Background. Public Law 106-65, “National Defense Authorization Act for FY 2000,”
requires the Inspectors General of the Departments of Commerce, Defense, Energy, and
State to conduct annual reviews on the transfer of militarily sensitive technology to
countries of concern. For 2006, the Inspectors General decided to review controls over
exports to China.

According to the Export Administration Regulation, the Department of Commerce can
consult with other Federal departments, including DoD, on reviews of export license
applications. Within DoD, the Director of the Defense Technology Security
Administration is responsible for reviewing license applications and making decisions on
export license applications, to include documenting the analytical basis of the decisions.
If the other departments disagree with DoD decisions, DoD can appeal.

Results. The Defense Technology Security Administration (the Administration) had
controls in place and operating for its application review process. The Administration
was reviewing and processing 97 percent of its export applications related to China
exports within the 30-day regulatory time limit. However, improved controls were
needed in:
      •    documenting its analyses on export applications. Of the 90 applications 1
           reviewed, 69, or 76.6 percent, did not have sufficient analyses documented to
           support Administration decisions,

      •    inserting documents into its automated system to support its analyses. Of the
           90 applications reviewed, 62, or 68.8 percent, did not contain documents
           supporting the analysis on applications, and

      •    elevating disagreements with its decisions. Of 21 denial decisions, 13, or
           61.9 percent, of the export denial decisions were overturned and approved by the
           Department of Commerce; those decisions were not elevated in the appeal
           process.

1
    Judgment sample percentages do not generalize to the universe export applications processed by the
    Administration in FY2004.
As a result, the Administration made some unsupported decisions and other decisions
were not elevated to the full extent. The Administration decisions could allow the export
of technology that could threaten U.S. efforts to maintain regional stability; hinder
nonproliferation of nuclear, chemical, and biological weapons; and adversely effect
national security. The Director, Defense Technology Security Administration needs to
record analyses and documentation supporting reviews in the export automated system.
(See the Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Acting Deputy Under Secretary for
Technology Security Policy and National Disclosure Policy concurred or partially
concurred with five of the seven recommendations and nonconcurred with the other
two recommendations. The Acting Deputy Under Secretary concurred with updating
export review process guidance; informing users to maintain access with the automated
export application processing system; and providing written responsibilities, as well as
recording training, for the management control program.

The Acting Deputy Under Secretary partially concurred with adjusting her program for
assessing the effectiveness of management controls, but during the audit, she revised the
management control plan and issued it in March 2006. We consider this action as
meeting the intent of this recommendation. The Acting Deputy Under Secretary also
agreed to elevate decisions as much as the appeal process will allow, which meets the
intent of the recommendation.

The Deputy Under Secretary stated that she nonconcurred with recording additional
analyses and documents to support decisions on some export applications. However, the
Export Administration Regulation requires any analyses to be recorded that includes the
factual and analytical basis supporting the advice, recommendations, or decisions made
on an export application. Therefore, we request the Acting Deputy Under Secretary
reconsider her position and provide additional comments by May 2, 2006.
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Finding
     Controls Over Exports to China                                          4

Appendixes
     A.   Scope and Methodology                                             16
     B.   Prior Coverage                                                    18
     C.   Export Application Appeal Process                                 20
     D.   Report Distribution                                               21

Management Comments
     Deputy Under Secretary of Defense for Technology Security Policy and
          National Disclosure Policy                                        23
Background
           Annual Review of Technology Transfers. In FY 2000, Congress passed Public
           Law 106-65,1 requiring that transfers of sensitive technology to countries of
           concern be reviewed starting in 2000 and ending in 2007. For 2006, six
           Inspectors General decided to review controls over exports to China. The six
           Inspectors General represented the Departments of Commerce, Defense, Energy,
           Homeland Security, State, and the Central Intelligence Agency. This audit report
           addresses the DoD portion of the 2006 interdepartmental review.

           Legislative Controls Over Exports. The primary legislative authority for
           controlling the export of goods and technologies with both civilian and military
           uses (dual-use) is the Export Administration Act of 1979, as amended
           (section 2401, title 50, United States Code.)2 The Export Administration
           Regulation states that the Export Administration Act authorizes the Secretary of
           Commerce to issue procedures for exporting dual-use items.

           Department of Commerce. The Export Administration Act authorizes the
           Bureau of Industry and Security, Department of Commerce to oversee the export
           of dual-use items. The Export Administration Regulation implements the
           requirements of the Export Administration Act and includes the Commerce
           Control List of dual-use items—goods and technologies—that are subject to the
           export review process.

           U.S. Export Process. All items on the Commerce Control List must have an
           approved license, or an exception granted by the Department of Commerce, to be
           exported from the United States. The type of item being exported, the country of
           final destination, and the end-use of the item determines whether an export
           license is needed or an exception can be granted.

           DoD Role in the Export Process. Within DoD, the Deputy Under Secretary of
           Defense for Technology Security Policy and National Disclosure Policy is
           responsible for developing and issuing policies controlling exports. The Deputy
           Under Secretary also serves as the Director of the Defense Technology Security
           Administration (DTSA), who is responsible for coordinating reviews of license
           applications and reporting decisions on those reviews to the Department of
           Commerce. DTSA processed 1,719 applications amounting to more than
           $811 million in FY 2004 for exports to China.


1
    We performed this audit to comply with Public Law 106-65, “National Defense Authorization Act for
    FY 2000,” section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to Countries
    and Entities of Concern,” October 5, 1999.
2
    The Export Administration Act expired in August 1994. However, the President, under the authority of
    the International Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the
    Export Administration Act through Executive Orders 12924 and 13222, “Continuation of Export Control
    Regulations,” August 19, 1994, and August 17, 2001, respectively. Each year thereafter, and most
    recently on August 2, 2005, the President issued a notice, “Continuation of Emergency Regarding Export
    Control Regulations,” continuing the emergency declared by Executive Order 13222.

                                                     1
Objectives
    The overall audit objective was to determine whether controls over exports to
    China were in place and operating as intended. Specifically, we determined
    whether DoD assessed applications for exports to China in accordance with the
    requirements of the Export Administration Regulation. We also reviewed the
    management control program as it related to the overall objective. See
    Appendix A for a discussion of the scope and methodology and Appendix B for
    prior coverage related to the objectives.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management controls over the export application review process, and we also
    reviewed the adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. DTSA established a management control
    program that included:

               •   maintaining an inventory of assessable areas (or units) based on its
                   organizational functions;

               •   evaluating the effectiveness of its controls in those assessable
                   units; and

               •   publishing an annual statement of assurance on the adequacy of its
                   controls.

    DTSA had established 11 assessable units. Of the 11 units, 3 (policy
    development, export license application processing, and technology security
    assessments), were controls for processing export applications. However, we
    identified weaknesses in the DTSA self-assessment of its controls for processing
    export applications. The recommendations in this report, if implemented, should
    correct the identified weaknesses and could result in preventing exports of
    potentially militarily sensitive technology to China. A copy of this report will be
    provided to the senior official responsible for management controls in the Office
    of the Deputy Under Secretary of Defense for Technology Security Policy and
    National Disclosure Policy.

    Adequacy of Management’s Self-Evaluation. DTSA did not always support its
    decisions on export applications because it did not fully achieve requirements in


                                         2
the export administration regulation and the self-assessment of its internal
controls did not detect weaknesses in:

   •   providing complete analyses on export applications, and

   •   inserting documents into its automated system to support its analyses.

In addition, we determined that the senior management control official was not
held responsible in writing for administering the program. Further, DTSA did not
have evidence to show that operating and assessable unit managers were trained
to perform their management control duties.




                                     3
                    Controls Over Exports to China
                    The DTSA controls were in place and operating for reviewing applications
                    to export to China. Specifically, the DTSA reviewed and processed
                    97 percent of its export applications for China within the 30-day
                    regulatory time limit. However, improved controls were needed in:

                        •   documenting its analyses on export applications. Of the
                            90 judgmentally selected applications3 reviewed, 69, or
                            76.6 percent, did not have sufficient analyses documented to
                            support DTSA decisions,

                        •   inserting documents into its automated system to support its
                            analyses. Of the 90 applications reviewed, 62, or 68.8 percent, did
                            not contain documents supporting the analysis on applications,

                        •   elevating disagreements with its decisions. Of 21 decisions, 13, or
                            61.9 percent, of export denial decisions, were overturned and
                            approved by the Department of Commerce; those decisions were
                            not always elevated in the appeal process, and

                        •   assigning management control responsibilities in writing and
                            recording management control training.

                    These conditions existed because the DTSA did not fully achieve
                    requirements in the Export Administration Regulation and because
                    management’s assessment of its internal controls did not detect
                    weaknesses in the application review process.

                    As a result, DTSA made some unsupported decisions that could allow the
                    export of technology that could threaten U.S. efforts to maintain regional
                    stability; hinder nonproliferation of nuclear, chemical, and biological
                    weapons; and adversely effect national security.


Controls Over the Export Application Process
           DTSA controls were in place for reviewing applications for exports to China.
           However, DTSA analyses were not always sufficient and its decisions on those
           applications were not always supported with documents. DTSA processed
           1,719 applications for export licenses to China during FY 2004.

           Processing Export Applications. DTSA generally processed applications for
           exports to China in a timely manner. The Export Administration Regulation
           states that an agency such as DoD that is reviewing export applications must
           provide the Department of Commerce with a recommendation either to approve

3
    Judgment sample percentages do not generalize to the universe of export applications processed by
    DTSA in FY 2004.

                                                      4
(with or without conditions) or deny a license application within 30 days of
receipt. In FY 2004, DTSA processed 1,719 applications for exports to China and
1,668 of the 1,719 applications, 97 percent, were processed in 30 days or less.

License Review and Analysis Process. DTSA pre-screens applications from the
Department of Commerce and decides whether to refer them to other DoD
organizations for review. DTSA did not refer the applications to other DoD
organizations if the applications could be processed in a thorough, responsive,
and consistent manner, and complied with guidance. If the pre-screen criteria
were not met, DTSA referred applications to other DoD organizations for review.
The export application review process is shown in the following figure.


   Application            Prescreening               Application           DoD Organizations
  Received From              Shows                   Referred to             Reply to DTSA
   Commerce               Application                   DoD               as DTSA Develops its
                             Needs       Yes        Organizations               Decision
                             Further                 for Review
                            Review
                  No




                                    DTSA and
                                       DoD                Can DTSA and     No     Deputy Under
      Do the DTSA and              Organizations              DoD                   Secretary
      DoD Organizations               Discuss             Organizations              Makes
      Decisions Agree?             Differences in            Resolve                Decision
                             No      Decisions            Disagreement?
       Yes
                                                              Yes
                                                                                    Decision
                                                                                     Sent to
                                                                                   Commerce

  Figure 1. License Application Review and Analysis Process


Role of DoD Organizations in Review Process. The Deputy Secretary of
Defense issued a memorandum on October 4, 1999, which directed DoD
organizations to follow the review process for DoD export licenses.
Subsequently, the Deputy Under Secretary of Defense for Technology and
Security Policy (currently the Deputy Under Secretary of Defense for Technology
Security Policy and National Disclosure Policy) issued a memorandum on
November 18, 1999, which provided detailed guidance to DoD organizations for
reviewing export applications. In that guidance, the Deputy Under Secretary
cited 18 DoD organizations that were responsible for reviewing export
applications.


                                            5
We compared the names of those 18 DoD organizations with a list that DTSA
provided of 42 organizations with access to the U.S. Exports System
(USXPORTS)—USXPORTS is the DTSA automated system for processing
export applications. We determined that 4 of the 18 organizations in the Deputy
Under Secretary’s guidance did not have access to the USXPORTS system;
therefore, those organizations, such as the International Security Affairs’ office
for Asia and the Pacific, were unable to electronically review export applications.
Therefore, DTSA should provide the 4 DoD organizations with access to
USXPORTS to facilitate reviews of export applications.

In addition, we noted that the Deputy Under Secretary for Technology and
Security Policy memorandum was not updated to reflect current DoD
responsibilities or organizations processing export applications. For example, the
memorandum states that the Defense Threat Reduction Agency will develop the
final DoD decision on export applications with input from DoD reviewing
organizations even though DTSA currently has this responsibility.

In addition, the memorandum cites organizations, such as the Ballistic Missile
Defense Organization, which is now the Missile Defense Agency. Therefore, the
Deputy Under Secretary of Defense for Technology and Security Policy and
National Disclosure Policy should update the guidance in the November 1999
memorandum to reflect the current organizations and responsibilities in the DoD
application review process.

Developing Decisions on Export Applications. DTSA established a process for
developing decisions on export applications, but the analyses and documentation
supporting those decisions needed improvement. Table 1 shows DTSA decisions
on applications requesting export licenses to China during FY 2004. Also,
Table 1 shows that DTSA made decisions (with conditions) to approve
1,400 export applications and to deny 253 applications. Those 1,653 applications
represented 96.1 percent of the 1,719 applications processed in FY 2004. We
judgmentally selected 30 of the 1,400 applications that DTSA approved (with
conditions) and 60 of the 253 applications that DTSA denied and reviewed them
for sufficient documentation and analyses supporting the DTSA decisions.
Documentation and Analysis Supporting Decisions on Export Applications.
Although export applications were generally processed timely, 69 of the
90 applications in our judgment sample, 76.6 percent, lacked either a sufficient
written analysis or documentation supporting the DoD decision. According to the
Principal Statutory Authority for the Export Administration Regulation:
       Recordkeeping.--The Secretary [of the Department of Commerce], the
       Secretary of Defense, and any other department or agency consulted in
       connection with a license application under this Act or a revision of a
       list of goods or technology subject to export controls under this Act,
       shall make and keep records of their respective advice,
       recommendations, or decisions in connection with any such license
       application or revision, including the factual and analytical basis of the
       advice, recommendations, or decisions.




                                           6
              Table 1. Decisions Made on Applications for Export Licenses in FY 2004
                                                Approve               Returned
                                                 with                 without                   No       Total
               Type of Export      Approve     Conditions    Deny      Action      Split4     Decision   Types
            Nuclear Materials         0              2         2          0          0           0          4
            Chemicals and             0           128         14          8          4           0        154
             Toxins
            Materials                  0           419         47          7          3          0        476
            Processing
            Electronics                0           356         84        18           8          1        467
            Computers                  0            80          4         2           0          0         86
            Telecommunications         1           332         26         6           1          1        367
            Sensors and                0            54         62         3           0          0        119
            Lasers
            Navigation and             0            15          1          1          0          0         17
             Avionics
            Marine                     0              4         2          0          0          0          6
            Propulsion Systems         0              4         2          0          1          0          7
            Other Types                0              6         9          1          0          0         16
            of Exports
            Total Applications         1         1,400        253        46         17           2       1,719


           In addition, DoD Directive 5010.38 states that each DoD field activity—DTSA is
           a DoD field activity—must implement management controls that provide
           reasonable assurance that programs, as well as administrative and operating
           functions, are efficiently and effectively carried out in accordance with applicable
           laws and management policy. Further, the Government Accountability Office,
           “Standards for Internal Control in the Federal Government,” November 1999,
           state that:
                   Control activities occur at all levels and functions of the entity. They
                   include a wide range of diverse activities such as approvals,
                   authorizations, verifications, reconciliations, performance reviews,
                   maintenance of security, and the creation and maintenance of related
                   records which provide evidence of execution of these activities as well
                   as appropriate documentation.

           DTSA used the USXPORTS system to store documents that supported analyses
           of export applications; however, USXPORTS did not contain documents that
           supported the analysis of 62 of the 90 applications, 68.8 percent, in our review.
           For example, USXPORTS did not contain documents such as intelligence reports
           to support some analyses. For those 90 applications, DTSA approved 30 with
           conditions and denied the 60 other applications. For 69 of the 90 applications,
           76.6 percent, in our review, the analysis recorded in USXPORTS was not
           sufficient to support the DTSA decision on the application. For example, DTSA

4
    DTSA personnel informed us that split decisions involve approving and/or denying certain elements
    within the same license application. For example, DTSA might approve (with conditions) some end
    users on a license application but deny some of the other end users on that same application.

                                                      7
           did not record any analyses for some items, but decided to approve the items
           (with conditions) for export.

           During our review, we determined that DTSA returned some applications to the
           Department of Commerce that were not reviewed by other DoD organizations. In
           FY 2004, DTSA returned 2765 of the 1,719 applications, 16.1 percent, that it
           processed during pre-screening to the Department of Commerce without referring
           them to other DoD organizations. DTSA returned those applications to the
           Department of Commerce in an average of 5 days (25 days before the required
           time limit). We reviewed each of the 2766 applications and determined that
           DTSA did not record its analyses as well as documents did not exist that could
           support any of those applications in USXPORTS.

           Although DTSA generally processed applications for exports to China timely, it
           should have recorded its analyses and documentation in USXPORTS to support
           the basis for its decisions. Previously documented analyses with supporting
           documentation from an identical application could be copied from prior
           application files and inserted into the current application file if no new
           information is received.

           Also, in cases where an application is similar to a prior application, an analysis
           should be performed on the differences between the old and the new application
           and the results recorded in USXPORTS, along with the applicable analysis and
           documentation from the prior application. Those actions could help DTSA to
           comply with the Export Administration Regulation and DoD Directive 5010.38.

           Elevating Decisions in the Export Application Review Process. The Export
           Administration Regulation requires the Departments of Commerce, Defense,
           Energy, and State to recommend decisions on reviewed applications to the
           Department of Commerce within 30 days. If all the decisions are the same, for
           example, if each Department recommends approval of an export application, the
           Department of Commerce generally makes a final decision that reflects the
           consensus of all the departments.

           If the departments’ decisions differ, the application is automatically elevated to
           the Department of Commerce Operating Committee7 for resolution. The
           Chairman of the Operating Committee considers the recommendations of each
           department and any information provided by the applicant before making a
           decision on the application.

           Each department is informed of the chairman’s decision and, if any department
           disagrees, that department may elevate the decision within 5 days by appealing to
           the Chairman of the Advisory Committee on Export Policy. This committee has
           assistant Secretariat-level membership.
5
    Our sampling of 90 applications includes prescreened applications included in the 276 applications which
    were returned to the Department of Commerce without further review.
6
    Sixteen of the 90 applications in our initial sample were also present in the sample of 276 applications.
7
    The Operating Committee’s membership includes representatives from the Departments of Commerce,
    State, Defense, Energy, the Arms Control and Disarmament Agency, the Joint Chiefs of Staff, and the
    Director of the Nonproliferation Center of the Central Intelligence Agency.

                                                        8
 Each Department Sends
 a Decision to Commerce


   Do All Departments
   Agree with Advisory           Elevate              No
   Committee on Export
     Policy Decision?                  Do All
                                     Departments
              Yes                    Agree with                                  Are all
       No                             Operating                           No   Departments
                                     Committee                  Elevate
                                                                               Decisions the
                                         Decision?                               Same?

                    Do All Departments          Yes                                 Yes
                    Agree with Export
 Elevate                                         No        Elevate
                      Administration                                               The
                      Review Board                                               President
                        Decision?

                               Yes

                                               Final Decision

 Figure 2. Export Application Appeal Process

DTSA did not always exercise its option to elevate decisions overturned by the
Operating Committee. We determined that 13 of 21 DTSA denial decisions had
sufficient analysis and documentation in USXPORTS, but that the Operating
Committee overturned the decisions. DTSA decided not to appeal and elevate
these decisions to the Advisory Committee; however, its records did not disclose
why these decisions were not elevated in the appeal process.

If the Advisory Committee had not approved its decision, DTSA could have
appealed to the Export Administration Review Board. This Board has
Secretariat-level membership. If the Board disagreed with DTSA’s decision,
DTSA could elevate its decision to the President of the United States. See
Appendix C for details on the membership and responsibilities of the committees
and board in the application appeal process.

DTSA Actions to Gain Agreement with its Decisions to Deny Applications.
During the audit, DTSA took action to gain agreement on some of its denial
decisions. For example, in September 2005, DTSA sent a memorandum to the
Department of Commerce requesting a change in the Export Administration
Regulation. DTSA requested the Department of Commerce to change the Export
Administration Regulation to deny exports to China if an approval would have an
effect on national security. To emphasize its concerns, DTSA provided the
following examples:



                                           9
       . . . at the March 26, 2004 ACEP [Advisory Committee on Export
       Policy meeting], the agencies voted 3-1 to deny a gas analyzer to a
       Chinese end-user. . . . However, a denial could not be issued because
       the item was not controlled for NS [National Security] reasons.

       A similar case, . . . for CB [Chemical and Biological] controlled
       hydrofluoric acid and nitric acid to a Chinese end-user was initially
       denied 4-0 at the December 19, 2003 meeting of the Advisory
       Committee on Export Policy. Commerce issued an approval, as the
       interagency could not legally sustain an NS [National Security]-based
       denial for CB [Chemical and Biological]-controlled items, despite
       serious concerns that this item was being used by the Chinese military.

Thus, DTSA took positive actions to appeal the final decision on these
applications. However, for the 13 applications that DTSA denied and were
subsequently approved, DTSA could have taken further actions toward appealing
and elevating its decisions.

In FY 2004, DTSA made decisions to deny 253 of the 1,719, 14.7 percent, export
applications it processed for China. We reviewed 60 of those 253 denial
decisions, which represented all the DTSA denial decisions in our sample of
90 applications, to determine whether DTSA appealed and elevated its decisions.
According to data recorded in USXPORTS, DTSA appealed and elevated one
decision above the Operating Committee level.

Further review showed that 21 of the 60 decisions to deny applications had
sufficient analysis and documentation in USXPORTS. The other 39 denial
decisions may have been justifiable, but insufficient analysis or documentation in
the USXPORTS system did not allow us to determine their validity. For 13 of the
21 decisions, 61.9 percent, DTSA decided not to elevate its denial decisions. Of
the 13 decisions, 1 application was approved to export chemicals that may be
used as precursors for toxic chemical agents. The other 12 applications were
approved to export thermal imaging systems, which could potentially be used for
military purposes by China.

In response to our findings, DTSA stated that the greatest obstacle to elevating
decisions is a system bias that favors approving licenses. In addition, DTSA
contended that DoD was burdened with the responsibility for elevating decisions
because it was rendering a decision to deny a license. Further, DTSA responded
to a draft of this report and stated that:
       . . . DTSA has consistently made sound decisions about escalation
       based upon the relative importance of national security concerns, prior
       precedent, effectiveness of mitigation measures, and the likelihood of
       success, carefully weighting the collective judgment of licensing
       officers, technical experts, policy advisors, and threat assessment
       officers with years of experience in the export licensing business. . . .

While DTSA cited concerns that the Export Administration Regulation was
written to promote the approval of export licenses, the regulation also establishes
controls over exports to countries of concern to the United States. We
coordinated with the Inspector General, Department of Commerce on potential
                                         10
     recommendations that could modify the current export policies, practices, and
     regulations related to China and focus on denying items that potentially contribute
     to China’s military development. However, until the export rules for China
     change, DoD assumes part of the risk that exports may have an adverse effect on
     the United States when valid denial decisions are overturned and not elevated in
     the appeal process. The Department can mitigate this risk by elevating decisions
     to the fullest extent possible when the appeal process does not produce a decision
     that supports the national security posture.


Assessment of Controls for Export Applications
     DTSA did not adequately document its decisions on applications for making
     exports to China because its program for assessing the adequacy of internal
     controls was not fully effective. DoD Instruction 5010.40 states that each DoD
     Component must establish and maintain a process that identifies, reports, and
     corrects management control weaknesses.

     DTSA Management Control Program. The DTSA management control
     program included:

                •   maintaining an inventory of assessable areas or units based on its
                    organizational functions;

                •   evaluating the effectiveness of its controls in those assessable
                    units; and

                •   publishing an annual statement of assurance on the adequacy of its
                    controls.

     DTSA had established 11 assessable units. Three of the 11 units (policy
     development, export license application processing, and technology security
     assessments) were controls for processing export applications.

     DTSA Assessment of Controls. The DTSA self-assessment of its internal
     controls for the three assessable units responsible for processing export
     applications, was not fully effective. An effective self-assessment program
     should have found the weaknesses in documenting analyses on export
     applications and inserting documents into USXPORTS to support analyses.

     DTSA management did not provide written responsibilities to the senior
     management control official for administering the program. In addition, DTSA
     could not provide documentation showing that operating and assessable unit
     managers were trained to perform their duties. DTSA needs to adjust its self-
     assessment program to monitor more closely the analyses and documentation
     recorded in USXPORTS.




                                          11
Impact of DoD Decisions on Exports
    DTSA made some decisions that it did not support with sufficient documentation
    in USXPORTS. Also, DTSA accepted some risks to national security when it did
    not elevate valid denial decisions, which had been overturned and approved by
    the Department of Commerce. Those overturned decisions could allow exports of
    technology that may threaten U.S. efforts to maintain regional stability; hinder
    nonproliferation of nuclear, chemical, and biological weapons; or adversely affect
    national security. Table 2 shows the number of applications with insufficient
    analyses or documentation for the four types of exports in our review.

     Table 2. Types of Items Approved for Export to China Without Sufficient
              Analysis or Documentation and their Potential Impact

                                                          National       Chemical
                                        Proliferation     Security/         and          Total
                              Regional of Nuclear         Regional       Biological   Applications
        Type of Export       Instability Weapons         Instability     Weapons       Reviewed
     Chemicals and
     Toxins                      0           0                0               2            2
     Materials Processing*      23           0                0               0           23
     Electronics                 0           7                0               0            7
     Sensors and Lasers          0           0               37               0           37
     Total                      23           7               37               2           69
    *Materials processing includes nuclear materials handling and processing.

    The Acting Under Secretary for Industry and Security, Department of Commerce,
    testified on the potential effects of exports to China at the June 23, 2005, U.S.-
    China Economic and Security Review Commission hearing.

    The Acting Under Secretary is responsible for overseeing the Bureau of Industry
    and Security’s mission to advance U.S. national security, foreign policy, and
    economic interests by regulating the export of sensitive dual-use goods and
    technologies. The Bureau of Industry and Security works with other U.S.
    Government agencies, including the Departments of State, Defense, Energy,
    Homeland Security, and Justice to protect the national security of the United
    States.

    The Acting Under Secretary testified to the following:
            China poses particular challenges for U.S. dual-use export control
            policy, because there are immense potential benefits from expanding
            trade, but, there are also serious security concerns . . .

            U.S. exports to China have continued to rise for the past 20 years, and
            in 2004, U.S. exports to China went up over 22 percent. The increase
            in U.S. exports, not surprisingly, has included some dual-use goods,



                                               12
       such as semiconductor manufacturing equipment, chemicals, chemical
       manufacturing equipment, and high performance computers.

       From a security standpoint, the U.S. Government remains concerned
       about China's modernization of its conventional military forces and the
       risk of diversion of sensitive dual-use items and technology to Chinese
       military programs. . . . Advanced telecommunications equipment–if
       illegally diverted to military end-users–could provide the Chinese
       missile, nuclear weapons and other military programs with the means
       to enhance performance capabilities in military radar applications. . . .

       In conclusion, it serves our common security, foreign policy, and
       economic interests for the United States and China to expand our
       economic relationship. At the same time, we continue to have
       significant differences with China on security and foreign policy issues
       that dictate a cautious way forward in our overall political, economic,
       and strategic relationship. While this may slow the entry of certain
       sensitive U.S. industry sectors into the Chinese marketplace, we must
       protect U.S. national security and foreign policy interests.

This testimony clearly depicts the potential adverse effects of exporting militarily
sensitive items to China. Therefore, DTSA needs to record its analyses and insert
documentation in USXPORTS to support its decisions. DTSA should also
consider elevating decisions to the fullest extent possible when the appeal process
does not produce a decision that supports the national security posture. These
actions may help to reduce unjustified exports to China and strengthen U. S.
efforts to maintain regional stability; hinder proliferation of nuclear, chemical,
and biological weapons; and offset adverse effects on national security.




                                         13
Recommendations, Management Comments, and Audit
  Response
    Revised, Redirected, and Renumbered Recommendation. As a result of
    management comments from the Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy, we revised,
    redirected, and renumbered Recommendation 1. in the draft report to the Director,
    Defense Technology Security Administration, shown as Recommendation 1.a.
    below. Draft Recommendations 2. and 3. have been renumbered as
    Recommendations 1.b. and 2., respectively.

    1. We recommend that the Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy:

          a. Grant access privileges to the four DoD organizations, currently
    without access to USXPORTS, to facilitate reviews of export applications.

          b. Update the guidance for the export review process to reflect
    current organizations and responsibilities.

    Management Comments. The Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy concurred and
    stated that they would inform users, within 60 days of becoming disconnected
    from USXPORTS, of the need to maintain access. In addition, the Deputy Under
    Secretary concurred with reflecting organizational changes accurately in the
    export review process guidance.

    2. We recommend that the Director, Defense Technology Security
    Administration:

           a. Prepare written analyses to support decisions on export
    applications and maintain documents in USXPORTS to support those
    decisions.

           b. Elevate decisions to the extent possible when the appeal process
    does not produce a decision that supports the national security posture.

    Management Comments. The Acting Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy nonconcurred
    with Recommendations 2.a. and b., stating that the conclusions forming the basis
    of the recommendations were supported by incomplete and untimely data.

    Although the Acting Deputy Under Secretary generally agreed that complete
    analysis was a necessary and proper part of the licensing process, she did not
    agree that inclusion of every facet of analysis was necessary in every application
    case file. Further, she stated that the need to augment application cases with
    additional documentation was unwarranted and demonstrated a lack of
    understanding of the review and decision process.


                                        14
In addition, the Acting Deputy Under Secretary stated that USXPORTS was
designed to avoid redundancy and to permit data retrievals via searches in
USXPORTS. Further, the Acting Deputy Under Secretary stated she had a highly
professional staff of engineers with advanced degrees and experience in DoD
laboratories, as well as analysts with intelligence, policy, and licensing
experience. This staff enabled DTSA to make most decisions without relying on
outside experts or needing to extensively document analyses performed.

Audit Response. The comments were partially responsive. In regard to
Recommendation 2.a., the Export Administration Regulation requires DoD to
make and keep records of advice, recommendations, or decisions in connection
with any license application or revision to include the factual and analytical basis
of the advice, recommendations, or decisions.

Although DTSA recorded and documented thorough analyses for some decisions,
other decisions either had no recorded analyses or needed additional analyses or
documentation recorded to support the DoD recommended decisions. In addition,
if supporting documentation exists in USXPORTS, DTSA should ensure that
cross-references are placed within the case files to link the analyses to the stored
or archived supporting documentation. Therefore, we request the Acting Deputy
Under Secretary reconsider Recommendations 2.a. and provide additional
comments by May 2, 2006, on this final report.

In regard to Recommendation 2.b., although the Acting Deputy Under Secretary
non-concurred with our finding, she agreed to elevate decisions on applications to
the extent possible; which meets the intent of the recommendation.

        c. Provide written responsibilities to the senior management control
official for administering the management control program.

       d. Maintain documentation of training that managers of operating
and assessable units receive.

Management Comments. The Acting Deputy Under Secretary concurred with
Recommendations 2.c. and d. and stated that DTSA’s management control plan,
signed in March 2006, accomplished these recommendations.

        e. Adjust the internal management control program to more
effectively assess internal controls for recording analyses and documentation
in USXPORTS.

Management Comments. The Acting Deputy Under Secretary partially
concurred with Recommendation 2.e., stating that adjustments were made to the
management control plan in March 2006 to accomplish the recommendations.
Specifically, she stated that the plan was revised and updated to include standard
operating procedures and position descriptions that assigned clear responsibilities,
roles, and duties concerning the processing of licenses. This action met the intent
of the recommendation.




                                     15
Appendix A. Scope and Methodology
   We reviewed the following documents to determine DoD responsibilities in the
   export license application review process. We reviewed Executive Orders and
   Federal laws and regulations, including the Export Administration Act and the
   associated Export Administration Regulation. In addition, we evaluated the
   adequacy of DoD directives, policies, and regulations related to the transfer of
   militarily sensitive technology to countries of concern.

   We performed this audit from June 13, 2005, through March 15, 2006, in
   accordance with generally accepted government auditing standards.

   We interviewed personnel in the following organizations:

          •   Department of Commerce;

          •   Immigrations and Customs Enforcement, Department of Homeland
              Security;

          •   Bureau of Economic and Business Affairs, Department of State;

          •   Department of the Army;

          •   Department of the Navy;

          •   Office of the Deputy Under Secretary of Defense for Technology
              Security Policy;

          •   Office of Export Controls and Conventional Arms Nonproliferation
              Policy;

          •   Washington Headquarters Services, Office of the Secretary of
              Defense;

          •   Defense Security Service;

          •   DTSA;

          •   Air Products and Chemicals, Incorporated;

          •   FLIR Systems, Incorporated; and
          •   Princeton Instruments, Incorporated.

   Our contacts with personnel in these organizations included discussions on the
   export license application review process and their roles and responsibilities.



                                        16
           We assessed the effectiveness of the DoD export license application review
           process to determine that militarily sensitive goods and technology were not
           exported to countries of concern. To complete this assessment, we judgmentally
           selected a total of 350 items1 from the 1,719 applications for China exports that
           the DTSA processed during FY 2004.

           We reviewed the applications to determine whether the DTSA was properly
           analyzing, documenting, and opining on export license applications. Also, we
           compared the DTSA final decisions on the applications with the Department of
           Commerce final decisions on the applications to identify discrepancies.

           For our sample, we obtained a database from the DTSA of all export license
           applications for exports to China. The database showed the Department of
           Commerce received 1,719 dual-use license applications requesting to make
           exports to China. We judgmentally designed a sample for reviewing 90 of the
           applications from the database. We judgmentally selected export applications
           which were approved with conditions or that DTSA denied. These two categories
           of applications represented 96.1 percent of the applications that DTSA processed
           in FY 2004. We reviewed these applications for the existence of documentation
           and the sufficiency of analyses supporting the DTSA decisions.

           Use of Computer-Processed Data. We relied on computer-processed data from
           the USXPORTS system. We summarized detailed data contained within this
           automated export licensing system. We did not find any material errors that
           would preclude our use of the computer-processed data to meet the audit
           objectives or that would change the conclusions in this report. We concluded that
           the system controls were adequate for our purposes in conducting this audit.

           Use of Technical Assistance. We received technical assistance from the DoD
           Office of Inspector General’s Quantitative Methods Division, which advised us
           on the selection of the sample size. We also received technical assistance from
           the General Counsel and Assistant Inspector General for the Office of Legal
           Counsel on the Tiananmen Square sanctions.




1
    We initially selected 90 export applications to assess whether analyses were recorded and documents
    existed to support those analyses. We determined that DTSA was returning some applications to the
    Department of Commerce without review by other DoD organizations and that 276 of the total
    1,719 applications were returned to the Department of Commerce without review by other DoD
    organizations. We reviewed each of the 276 applications to determine whether analyses were recorded
    and documents existed to support those applications. Of the 90 applications in our initial sample, 16 were
    also in the sample of 276 applications.

                                                      17
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews discussing the adequacy of export controls. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports. The following
    previous reports are of particular relevance to the subject matter in this report.


GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 14, 2001


DoD IG
    DoD IG Report No. D-2005-042, “Controls Over the Export Licensing Process
    for Chemical and Biological Items,” March 30, 2005

    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    DoD IG Report No. D-2003-021, “Security: Export Controls Over Biological
    Agents (U),” November 12, 2002

    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001


Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    Homeland Security, Agriculture, and the Central Intelligence Agency Report No.
    D-2005-043, “Interagency Review of the Export Licensing Process for Chemical
    and Biological Commodities,” June 10, 2005



                                         18
Inspectors General of the Departments of Commerce, Defense, Energy, Homeland
Security, and State and the Central Intelligence Agency Report No. D-2004-062,
“Interagency Review of Foreign National Access to Export-Controlled
Technology in the United States,” April 16, 2004

Inspectors General of the Departments of Commerce, Defense, State, and the
Treasury; the Central Intelligence Agency; and the United States Postal Service
Report No. D-2003-069, “Interagency Review of Federal Export Enforcement
Efforts,” April 18, 2003

Inspectors General of the Departments of Commerce, Defense, Energy, State, and
the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
Export Licensing Systems,” March 29, 2002

Inspectors General of the Departments of Commerce, Defense, Energy, and State
Report No. D-2001-092, “Interagency Review of the Commerce Control List and
the U.S. Munitions List,” March 23, 2001




                                   19
Appendix C. Export Application Appeal Process
   Operating Committee. The Operating Committee’s voting members include
   representatives of appropriate agencies in the Departments of Commerce, State,
   Defense, Energy, and the Arms Control and Disarmament Agency. The
   appropriate representatives of the Joint Chiefs of Staff and the Director of the
   Nonproliferation Center of the Central Intelligence Agency are non-voting
   members. The Department of Commerce representative, appointed by the
   Secretary, is the chairperson of the Operating Committee and serves as the
   Executive Secretary of the Advisory Committee on Export Policy.

   The Operating Committee may invite representatives of other Government
   agencies or departments (other than those identified in this definition) to
   participate in the activities of the Operating Committee when matters of interest
   to such agencies or departments are under consideration.

   Advisory Committee on Export Policy. Voting members of the Advisory
   Committee on Export Policy include the Assistant Secretary of Commerce for
   Export Administration, and Assistant Secretary-level representatives from the
   Departments of State, Defense, Energy, and the Arms Control and Disarmament
   Agency. The appropriate representatives of the Joint Chiefs of Staff and the
   Director of the Nonproliferation Center of the Central Intelligence Agency are
   non-voting members. The Assistant Secretary of Commerce for Export
   Administration is the chairperson.

   An acting Assistant Secretary, Deputy Assistant Secretary, or equivalent of any
   agency or department may serve instead of the Assistant Secretary. Such
   representatives, regardless of rank, will speak and vote on behalf of their agencies
   or departments. The Advisory Committee on Export Policy may invite Assistant
   Secretary-level representatives of other Government agencies or departments,
   other than those identified above, to participate in the activities of the Advisory
   Committee on Export Policy when matters of interest to such agencies or
   departments are under consideration. Decisions are made by majority vote.

   Export Administration Review Board. The Export Administration Review
   Board’s voting members are the Secretary of Commerce, the Secretary of State,
   the Secretary of Defense, the Secretary of Energy, and the Director of the Arms
   Control and Disarmament Agency. The Chairman of the Joint Chiefs of Staff and
   the Director of Central Intelligence are non-voting members. The Secretary of
   Commerce is the chairperson of the Board.

   No alternate Export Administration Review Board members may be designated,
   but, the acting head or deputy head of any agency or department may serve
   instead of the head of the agency or department. The Export Administration
   Review Board may invite the heads of other Government agencies or
   departments, other than those identified in this definition, to participate in the
   activities of the Export Administration Review Board when matters of interest to
   such agencies or departments are under consideration.


                                        20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Under Secretary of Defense for Policy
   Deputy Under Secretary of Defense (Technology Security Policy and National
      Disclosure Policy)
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director, Plans and Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army
Director, Joint Program Executive Office (Chemical and Biological Defense)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           21
Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Central Intelligence Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
Senate Committee on Banking, Housing, and Urban Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Permanent Select Committee on Intelligence




                                         22
Deputy Under Secretary of Defense (Technology
Security Policy and National Disclosure Policy)
Comments




                       23
     Final Report
      Reference




     Redirected,
     renumbered,
     and revised
     to
     Recommen-
     dation 1.a.




     Renumbered
     to
     Recommen-
     dation 1.b.




     Renumbered
     to
     Recommen-
     dation 2.c.
     and 2.d.,
     respectively




24
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.a.
     and 2.b.,
     respectively




25
26
27
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.b.




28
29
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.e.




30
31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Dennis L. Conway
Jerry H. Adams
Chuck J. Chin
Woodrow W. Mack
Gustavo Rivera-Morales
Jerel L. Morton
Keyla Centeno-Aviles
Jacqueline N. Pugh
Lusk F. Penn
Dharam V. Jain
Sharon L. Carvalho
Frank R. Niranjan
Michael J. Guagliano
Appendix D. Department of Energy Report




                     D-1
              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
The Department of Energy’s Review of
Export License Applications for China




DOE/IG-0723                                     April 2006
THE DEPARTMENT OF ENERGY’S REVIEW OF EXPORT
LICENSE APPLICATIONS FOR CHINA


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objectives ……………………………              1

              Observations and Conclusions ………………………..             2


              DETAILS OF FINDINGS

              Background ………………………………………………. 3

              Energy Review of Licenses .......……….………………. 3

              Interagency Coordination …......……….……………….          4

              Observations …………………......……….……………..                4


              RECOMMENDATIONS ………………………………...                      5


              MANAGEMENT COMMENTS …………………………                       5


              INSPECTOR COMMENTS …………………………….                      5


              APPENDICES

              A. Scope and Methodology ……………………………                 6

              B. Status of Recommendations from Prior
                 National Defense Authorization Act Reports ….….   7

              C. Prior Export Control Related Reports ………..……      13

              D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   2000 provides that beginning in the year 2000 and ending in the
                 year 2007, the President shall annually submit to Congress a report
                 by the Inspectors General of, at a minimum, the Departments of
                 Energy (Energy), Commerce (Commerce), Defense (Defense), and
                 State (State) of the policies and procedures of the United States
                 Government with respect to the export of technologies and
                 technical information with potential military application to
                 countries and entities of concern. The NDAA for Fiscal Year 2001
                 also requires the Inspectors General to include in each annual
                 report the status of the implementation or disposition of
                 recommendations that were set forth in previous annual reports.

                 The People’s Republic of China (China), which since 1997 has
                 included Hong Kong, is one of the world’s largest trading nations.
                 China’s trade includes the substantial import and export of
                 technologies. An interagency working group comprised of
                 representatives from the Offices of Inspector General (OIGs) for
                 Energy, Commerce, Defense, State, the Department of Homeland
                 Security, and the Central Intelligence Agency (CIA) selected the
                 export of sensitive U.S. technologies and technical information to
                 China as the topic for its 2006 review.

                 The objective of our inspection was to determine if Energy
                 appropriately participated in the export license review process to
                 control the export of critical technologies to China. Within
                 Energy, the Office of International Regimes and Agreements
                 (OIRA), which is part of the National Nuclear Security
                 Administration’s, Office of Defense Nuclear Nonproliferation, is
                 the primary entity responsible for export control issues and is the
                 focus of our review. To accomplish this objective, we examined:

                     •   Energy’s roles and responsibilities relevant to the review
                         of escalated export license applications regarding China.
                         Escalated export license applications are those applications
                         that were appealed to higher levels of agency review when
                         the reviewing agencies could not come to agreement after
                         their initial reviews; and

                     •   Coordination by Energy officials with other Federal
                         agencies regarding cases escalated to the dispute resolution
                         process.

                 Additionally, we reviewed the status of recommendations set forth
                 in previous Energy OIG reports on annual export control reviews
                 conducted pursuant to the NDAA for Fiscal Year 2000.

Page 1                                The Department of Energy’s Review of
                                      Export License Applications for China
OBSERVATIONS AND   We concluded that Energy appropriately participated in the export
CONCLUSIONS        license review process to control the export of critical technologies to
                   China. Specifically, we found that:

                   •   OIRA conducted reviews of all escalated export license
                       applications referred to them during Fiscal Year 2004 that were
                       relevant to China; and

                   •   OIRA effectively coordinated with the formal interagency
                       entities mandated by Executive Order 12981 for the conduct of
                       its license reviews.

                   We observed that access by Energy officials conducting license
                   reviews to end-user review information maintained by the
                   Lawrence Livermore National Laboratory (Livermore) could be
                   improved. We also observed that access by OIRA to intelligence
                   information within the Energy Office of Intelligence and
                   Counterintelligence (IN) has recently been enhanced.

                   Regarding the status of recommendations set forth in previous
                   Energy OIG reports on annual export control reviews conducted
                   pursuant to the NDAA for Fiscal Year 2000, we determined that 12
                   of the 15 recommendations have been closed. Details regarding
                   the recommendations can be found in Appendix B.

                   The Energy OIG has conducted numerous reviews related to the
                   topic of export controls. A listing of these reports is contained in
                   Appendix C.




Page 2                                               Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act of
                                     1979 and the Nuclear Non-Proliferation Act of 1978. The provisions
                                     of the Export Administration Act have been updated by Executive
                                     Order, most recently by Executive Order 12981, which grants the
                                     Secretary of Commerce the authority to refer export license
                                     applications to other agencies for review and gives agencies such as
                                     Energy the authority to look at any export license application
                                     submitted to Commerce. This Executive Order also establishes the
                                     Operating Committee (OC) and the Advisory Committee on Export
                                     Policy (ACEP). This Executive Order stipulates that the OC
                                     examines all license applications in which the reviewing departments
                                     are not in agreement and that if a department disagrees with an OC
                                     decision, they may appeal to the ACEP for resolution.

                                     Energy’s export control efforts, as coordinated by OIRA, includes
                                     the review of licenses for nuclear, chemical, biological, and
                                     missile-related commodities. OIRA utilizes the expertise of
                                     Energy officials at headquarters and the Department’s field sites to
                                     conduct end-user reviews (analysis of intelligence information
                                     relevant to the final user of an item) and technical reviews
                                     (analysis of a specific item by a subject matter expert). In addition
                                     to reviewing licenses, OIRA participates in working level groups
                                     for licensing and nonproliferation activities that include China-
                                     related issues; represents Energy at meetings of the Nuclear
                                     Suppliers Group, an informal international regime that works to
                                     prevent the misuse of nuclear materials for military reasons; and
                                     leads an outreach effort that trains Federal officials at the nation’s
                                     borders on how to recognize proliferation items and potential
                                     weapons of mass destruction.

ENERGY REVIEW                        We found that Energy conducted reviews of all escalated export
OF LICENSES                          license applications relevant to China referred to them during
                                     Fiscal Year 2004.

                                     We and the OIG interagency group examined 102 cases relevant to
                                     China and Hong Kong that were addressed by the OC and/or
                                     ACEP during Fiscal Year 20042. We determined that Energy
                                     officials conducted required end-user reviews for each case.
                                     However, we found that the end-user review for one case was not

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.
2
    104 separate China cases were examined by either the OC and/or the ACEP in Fiscal Year 2004. Two of these
    104 cases were withdrawn by the applicant, resulting in a total of 102 cases analyzed by the OIG. Of these 102
    cases, three were reviewed by both the OC and ACEP in Fiscal Year 2004.

Page 3                                                                                     Details of Findings
               completed in time for the relevant OC meeting. Although the
               review was not timely, the results of that review did not alter the
               position already established by Energy and the other reviewing
               agencies or effect the processing of that application.

INTERAGENCY    Energy effectively coordinated with the formal interagency entities
COORDINATION   mandated by Executive Order 12981 for the conduct of its license
               reviews. Energy has participated in the OC and the ACEP since
               1965. The OC and the ACEP include senior officials from Energy,
               Commerce, Defense, and State, which are voting members, and the
               CIA, which is a non-voting member. We determined that Energy
               officials participated in the review of all 102 cases relevant to
               China and Hong Kong addressed by the OC and the ACEP in
               Fiscal Year 2004. Export control officials with Commerce,
               Defense, State, and the CIA advised that Energy coordinated with
               them on all export license applications, including those for China,
               and that Energy provided them with analysis relevant to the export
               license review process.

OBSERVATIONS   We observed that access by Energy officials conducting license
               reviews to end-user review information maintained by Livermore
               could be improved. Currently, technical reviewers must wait until
               an end-user review is completed by Livermore before being able to
               access this end-user information. Several field officials who
               perform technical reviews indicated that it would be an
               improvement if they could access end-user information at any time
               instead of waiting until the end-user review is completed.
               Livermore officials said that they are developing a new database
               that will allow any technical reviewers at Energy to have real-time
               access to end-user information. An OIRA official indicated that
               had this database been in place for the one late end-user review
               addressed above, that review would have likely been completed in
               time for the OC meeting. We believe that the implementation of
               this new Livermore database will help expedite Energy’s export
               license reviews.

               We also observed that access by OIRA to intelligence information
               within IN has recently been enhanced. Specifically, IN controls
               the access for Energy officials to Sensitive Compartmented
               Information (SCI), which includes intelligence information that
               can be used by OIRA to conduct their license reviews. During our
               review, OIRA officials advised that they could not access IN’s SCI
               computers or hand-carry SCI documents and relied upon: an IN
               employee who dedicated part of his time to OIRA efforts; field
               officials at IN’s Field Intelligence Elements; or other Federal
               agencies.

Page 4                                                       Details of Findings
                  An IN official informed us that based on established Energy policy
                  on the use of and access to SCI, only Federal Energy employees
                  that are part of IN can have direct access to SCI computers and be
                  able to hand-carry SCI documents. The official added, however,
                  that his office could arrange for OIRA-affiliated management and
                  operating contractor officials who are members of a Field
                  Intelligence Element, to access SCI at IN headquarters because
                  Field Intelligence Element members are managed by IN for
                  intelligence purposes.

                  We learned that IN had previously sponsored direct SCI access by
                  one OIRA-affiliated management and operating contractor
                  stationed at Energy headquarters, but that the relevant contract
                  ended in July 2005. In recognition of this problem and concurrent
                  with our review, in February 2006, IN management granted three
                  OIRA-affiliated management and operating contractors access to
                  IN and is processing them to have SCI computer and hand-carrying
                  access. We believe that this improved access should enhance
                  OIRA’s analysis of export control issues, including those relevant
                  to China. Because this type of arrangement between IN and OIRA
                  had lapsed before, we believe that actions need to be taken to
                  ensure that OIRA representatives continue to have access to SCI
                  computers and be able to hand-carry SCI documents.

RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation;

                  1. Expedite the development and implementation of the new
                     Lawrence Livermore National Laboratory database for
                     processing end-user reviews; and

                  2. Coordinate with the Director, Office of Intelligence and
                     Counterintelligence, to ensure personnel affiliated with the
                     Office of Defense Nuclear Nonproliferation who conduct
                     export license reviews have continual access to Sensitive
                     Compartmented Information computers and be able to hand-
                     carry Sensitive Compartmented Information documents.

MANAGEMENT        In comments on our draft report, management agreed with
COMMENTS          our report recommendations and will implement corrective actions.
                  These comments are included in their entirety at Appendix D.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.




Page 5                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor Energy officials at
METHODOLOGY   headquarters and field facilities, including personnel who perform
              end-user reviews and technical reviews. We reviewed Energy and
              Commerce documentation for 102 export license applications to
              China and Hong Kong that were addressed by the Operating
              Committee and the Advisory Committee on Export Policy in Fiscal
              Year 2004. We also reviewed relevant export control regulations.

              As part of our review, we evaluated Energy’s implementation of
              the “Government Performance Results Act of 1993.” We did not
              identify any performance measure issues regarding the review of
              export license applications for China and Hong Kong.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                               Scope and Methodology
Appendix B

                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the NDAA for Fiscal Year 2001 amended Section 1402(b) of the NDAA for
Fiscal Year 2000 to require the specified Offices of Inspectors General (OIGs) to include in each
annual report the status of the implementation or other disposition of recommendations that have
been set forth in previous annual reports under Section 1402(b). To date, six reports have been
completed by the Energy OIG under this requirement. Two reports: “Inspection of Status of
Recommendations from the Office of Inspector General’s March 2000 and December 2001
Export Control Reviews,” INS-L-03-07, May 2003, and “Inspection of the Department of
Energy’s Role in the Commerce Control List and the U.S. Munitions List,” INS-O-01-03, March
2001, did not contain recommendations. The following is the status of the recommendations
from the other reports. Of 15 total recommendations, 12 have been closed.

“The Department of Energy’s Review of Chemical and Biological Export License
Applications,” DOE/IG-0682, March 2005:

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, take appropriate action to ensure that Energy licensing officers have access to
the Department of Commerce’s Export Control Automated Support System (ECASS).

Energy management reported that Commerce promised to provide support to the office as
needed. Currently, new National Nuclear Security Administration (NNSA) staff are completing
new registration forms to receive their passwords. Energy management is awaiting response
from Commerce on the NNSA letter requesting training on accessing ECASS.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, take appropriate action to ensure that Energy licensing officers are properly
trained in the use of this system.

Energy management reported that Commerce promised to provide support to the office as
needed. Currently, new NNSA staff are completing new registration forms to receive their
passwords. Energy management is awaiting response from Commerce on the NNSA letter
requesting training on accessing ECASS.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004:

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance, expedite issuance of a draft unclassified foreign visits and assignments

Page 7                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees. The Energy OIG determined that DOE Order 142.3
includes training requirements and responsibilities for hosts of foreign nationals.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

Energy management reported that the updated DOE “Guidelines on Export Control and
Nonproliferation” were undergoing review at Energy headquarters through August. In
September they were transmitted to the Department’s Executive Secretary for final review and
signature. Subsequently, DOE General Counsel (GC) performed a second review and presented
their comments in November, and the DOE Office of Nuclear Energy, Science, and Environment
(NE) also sent a comment. NNSA management is reviewing and coordinating comments with
GC and NE to finalize the Guidelines in January 2006. In the First Quarter of Fiscal Year 2006,
Energy management began developing elements of a training module to help strengthen
contractor compliance with deemed export controls. The goal of the training is to specifically
address the needs of employees serving as foreign national hosts who are actively initiating
visits. Energy management tasked a national laboratory with drafting a training program, which
was subsequently briefed in September 2005 to export compliance representatives from five sites
for comment. Comment incorporation was being finalized in the First Quarter of Fiscal Year
2006, with pilot implementation at a national laboratory planned for Second Quarter of Fiscal
Year 2006. In the Second Quarter of Fiscal Year 2006 work will commence on designing a
survey to gain insight of the export control programs at laboratories/sites with the goal of making
preliminary assessments in the Third Quarter of Fiscal Year 2006. Assuming the satisfactory
resolution of any management and operating contractual issues that may arise, on-site surveys
may begin as early as the Fourth Quarter of Fiscal Year 2006.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001:

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with Commerce and Treasury to ensure access by
Energy to information within the Automated Export System regarding the purchase and/or



Page 8                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

shipment of commodities under an approved export license, and develop guidelines for Energy’s
access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000:

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce

Page 9                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce Web site and that Commerce would continue to strengthen its
outreach training programs for Energy’s National Laboratories.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations, ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central data base, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy further
advised that Draft Order 142.X includes a requirement for Energy sites to enter required foreign
national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG previously agreed to close this
recommendation and track this issue under recommendation 8.

Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are

Page 10                                                  Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary.

The Energy OIG agreed to close this recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations, ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes clear identification of requirements for foreign
national visits and assignments, and identifies responsible officials and organizations.

The Energy OIG agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations, revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement for documentation in FACTS
for all visit and assignment requests in a timely manner.

The Energy OIG agreed to close this recommendation.

Page 11                                                   Status of Recommendations from
                                                          Prior National Defense Authorization
                                                          Act Reports
Appendix B (continued)

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations, require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement that all sites having foreign
national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS.

The Energy OIG agreed to close this recommendation.




Page 12                                                Status of Recommendations from
                                                       Prior National Defense Authorization
                                                       Act Reports
Appendix C
                  PRIOR EXPORT CONTROL RELATED REPORTS

•    “The Department of Energy’s Review of Chemical and Biological Export License
     Applications,” DOE/IG-0682, March 2005;

•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 13                                             Prior Export Control Related Reports
Appendix D




Page 14      Management Comments
Appendix D (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0723

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
Appendix E. Department of State Report




                      E-1
                          UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Ofﬁce of Inspector General




                   Ofﬁce of Audits
Review of Export Controls
Report Number AUD/IP-07-01, October 2006




                            IMPORTANT NOTICE

This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




                           UNCLASSIFIED
                                        UNCLASSIFIED




                                       SUMMARY

         Sound export controls and licensing operations are essential to preventing
the spread of weapons of mass destruction technologies and to provide convention-
al technologies only to those entities that will use them responsibly. The Department
of State (Department) registers U.S. companies and universities and issues licenses
for the export of defense articles and defense services, including sensitive technical
information, on the U.S. Munitions List (USML). The Bureau of Political-Military
Affairs, Directorate of Defense Trade Controls (PM/DDTC), in accordance with
the Arms Export Control Act and the International Trafﬁc in Arms Regulations,1 is
charged with controlling the export and temporary import of defense articles and
defense services covered by the USML. It has among its primary missions taking
ﬁnal action on license applications for defense trade exports and handling matters
related to defense trade compliance, enforcement, and reporting.

    In response to requirements of the National Defense Authorization Act for
FY 2000,2 the Ofﬁce of Inspector General (OIG) conducted a review of the
Department’s export licensing process. OIG’s objective was to assess the effective-
ness of the export control policies and practices with respect to preventing the
transfer of sensitive U.S. technologies and technical information to the People’s
Republic of China (P.R.C.), which includes Macau and Hong Kong. OIG evaluated
the program’s effectiveness by (1) determining whether PM/DDTC executed licens-
ing responsibilities in accordance with established policies and procedures, and (2)
reviewing PM/DDTC’s “end-use” monitoring program, known as Blue Lantern.

    OIG found that although PM/DDTC followed its procedures and policies
before issuing a license, there were cases where its end-use checks, conducted
either before or after issuing the licenses, resulted in “unfavorable determinations.”
Unfavorable means that PM/DDTC found derogatory, incomplete, or inaccurate
information in the license application or there was a violation of export control
policies and procedures. PM/DDTC’s 12 end-use checks for Hong Kong in FY
2004 resulted in three unfavorable ones.3 In one case, the recipient may have actually


1
 22 U.S.C. 2778 and 22 CFR Parts 120-30.
2
 Pub. L. No. 106-65.
3
 PM/DDTC did not conduct end-use checks for P.R.C. or Macau in FY 2004



OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                     1 .


                                        UNCLASSIFIED
                                 UNCLASSIFIED



      received the item before PM/DDTC approved the license application. In the second
      case, a company received technical data without the required PM/DDTC registra-
      tion. In the third case, the Licensing Division denied a license because the purported
      end user was not, in fact, to be the end user.

          Although OIG’s original objective was to focus on the People’s Republic of
      China, Macau, and Hong Kong, as a result of the unfavorable determinations cited
      above, OIG expanded its scope and reviewed all of the 132 postlicense end-use
      checks that PM/DDTC completed worldwide during FY 2004. OIG selected postli-
      cense checks because the militarily sensitive items had been exported before
      PM/DDTC conducted its indepth review. PM/DDTC reported 19 unfavorable
      checks, including seven cases where the purported recipient of the shipments did not
      order the items. The seven cases included such items as aircraft cargo C-130 spare
      parts and aircraft gyroscopes.
            PM/DDTC adhered to its export licensing policies and procedures before issu-
      ing licenses. However, PM/DDTC still made unfavorable postlicense determinations.
      For example, in the seven cases cited above, PM/DDTC reviewed the license
      applications against a number of factors, including the purported recipient. How-
      ever, during the postlicense end-use checks, the recipients denied placing the orders.
      As a result of all the unfavorable postlicense checks, PM/DDTC needs to reassess
      its licensing policies and procedures to prevent the unauthorized transfer of militar-
      ily sensitive items. OIG recommended that PM/DDTC reassess its licensing policies
      and procedures and report to OIG within 60 days of report issuance the changes it
      plans to make to reduce and eliminate unfavorable postlicense end-use checks.

           During this review, OIG found that PM/DDTC did not have performance
      measures that detail how it plans to reduce and eliminate unfavorable end-use checks.
      OIG recognizes that it is a challenge to balance an export program to provide allies
      the necessary military items while preventing the acquisition of sensitive U.S. tech-
      nology by countries and entities of concern. Performance measures could be an
      important tool in addressing this challenge by helping PM/DDTC improve its licens-
      ing policies and procedures. As a result, OIG recommended that PM/DDTC estab-
      lish performance measures within 60 days of report issuance that detail the bench-
      marks and timeframes for reducing and eliminating unfavorable postlicense end-use
      checks.

           According to PM/DDTC, most commercial defense trade is legitimate.
      PM/DDTC was taking several actions to improve its export controls, including
      revising its end-use monitoring manual and developing a training module for Foreign
      Service personnel that conduct end-use checks at post.


2 .                                 OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                 UNCLASSIFIED
                                        UNCLASSIFIED




        OIG discussed its ﬁndings and proposed recommendations with PM/DDTC
ofﬁcials. A senior PM/DDTC ofﬁcial said that unfavorable end-use checks were
not a relevant indicator of the program’s success or failure, and therefore, the ofﬁcial
disagreed with OIG’s recommendations. OIG provided a draft copy of this report
to the Bureau of Political-Military Affairs. The bureau reviewed the draft and did not
provide any comments.




OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                       3 .


                                        UNCLASSIFIED
      UNCLASSIFIED




4 .    OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


      UNCLASSIFIED
                                        UNCLASSIFIED




                                  BACKGROUND

         The Inspectors General of the Departments of Commerce, Defense,
Energy, Homeland Security, and State, in consultation with the Director of Central
Intelligence and the Director of the Federal Bureau of Investigation, are required
by Section 1402 of the National Defense Authorization Act (NDAA) for FY 2000
to conduct an eight-year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology
and technical information by countries and entities of concern. The NDAA man-
dates that the Inspectors General report to the Congress no later than March 30 of
each year, until 2007, on the status of efforts to maintain and improve export con-
trol.

    To comply with the NDAA’s requirement, the overall objective of the Inspectors
General for FY 2006 was to assess the effectiveness of the U.S. government’s export
control policies and practices with respect to preventing the transfer of sensitive U.S.
technologies and technical information to the P.R.C.

    In accordance with the Arms Export Control Act (AECA) and the International
Trafﬁc in Arms Regulations (ITAR), PM/DDTC is charged with controlling the
export and temporary import of defense articles and defense services covered by the
USML. PM/DDTC received about 60,000 export license requests in FY 2004.

     PM/DDTC must approve a license application before the export of defense ar-
ticles or services. In FY 2004, the Department approved 56 license applications for
USML commodities to P.R.C., including Hong Kong. There were none to Macau.
These commodities included such items as gas masks, anthrax biological threat alert
test strips, and CS grenades.

     PM/DDTC reviews the license applications against a number of factors,
including:

         • applicant eligibility,
         • foreign policy objectives,
         • stated end use and end user,
         • commodity,
         • quantity,


OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                       5 .


                                        UNCLASSIFIED
                                 UNCLASSIFIED



              • national security interests,
              • regional stability,
              • human rights issues and concerns,
              • multilateral agreements and nonproliferation regimes,
              • intelligence information, and
              • Presidential waiver, as required.

          PM/DDTC refers about 30 percent of the applications to other Department
      ofﬁces as well as other agencies (e.g., Defense) for their comments and recommenda-
      tions.

          AECA, as amended in 1996,4 requires the President to establish a program for
      end-use monitoring of defense articles and services sold or exported under the
      provisions of the act and the Foreign Assistance Act.5 The requirement states that,
      to the extent practicable, end-use monitoring programs should provide reasonable
      assurance that recipients comply with the requirements imposed by the U.S. govern-
      ment on the use, transfer, and security of defense articles and services. In addition,
      monitoring programs, to the extent practicable, are to provide assurances that
      defense articles and services are used for the purposes for which they are provided.

           To comply with AECA, PM/DDTC conducts end-use monitoring of the
      commercial export of defense articles, services, and related technical data. End-use
      monitoring refers to the procedures used to verify that foreign recipients of con-
      trolled U.S. exports use such items according to U.S. terms and conditions of trans-
      fer. PM/DDTC’s end-use monitoring is conducted through the “Blue Lantern”
      Program and entails an indepth review either before (prelicense) or after issuing the
      license (postlicense). U.S. embassy, or in some cases PM/DDTC, personnel conduct
      end-use checks abroad to verify the speciﬁc use and recipient of commercial defense
      exports and transfers controlled under AECA. Some of the areas examined during
      the end-use checks are:

          • corroboration of foreign end user,
          • reconciliation of quantities shipped under the license to allowable
            shipments, and
          • substantiation of the actual end use of the product.




      4
      22 U.S.C. 2785.
      5
      22 U.S.C. 2151.


6 .                                  OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                 UNCLASSIFIED
                                        UNCLASSIFIED



    The end-use monitoring program provides numerous beneﬁts according to
PM/DDTC, including (1) deterring diversions; (2) aiding the disruption of illicit sup-
ply networks by rogue governments and international criminal organizations; and (3)
helping the Department make informed licensing decisions and ensuring compliance
with AECA and ITAR.



PRIOR OIG REPORTS

        To comply with NDAA, OIG has issued reports on different aspects of
export controls. In 2005, for example, OIG addressed the export licensing process
the Department used to help deter the proliferation of chemical and biological weap-
ons of mass destruction.6 OIG limited its objective to analyzing the ﬁles of selected
chemical and biological commodities to determine whether the Department executed
licensing responsibilities in accordance with established policies and procedures. As
such, OIG did not examine any end-use checks in the 2005 report. OIG found
that the export licensing process was working as intended and that the Department
consistently executed its export licensing responsibilities in regard to chemical and
biological commodities in accordance with established policies and procedures.




6
 Export Licensing of Chemical and Biological Commodities (AUD/PR-05-29, Apr. 2005).



OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                     7 .


                                        UNCLASSIFIED
      UNCLASSIFIED




8 .    OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


      UNCLASSIFIED
                                        UNCLASSIFIED




    OBJECTIVE, SCOPE, AND METHODOLOGY

        OIG’s objective was to conduct a review of the Department’s export licens-
ing process to assess the effectiveness of the export control policies and practices
with respect to preventing the transfer of sensitive U.S. technologies and technical
information to P.R.C. and Macau. In addition, although U.S. export control policy
treats Hong Kong as a nonsovereign entity distinct from P.R.C., OIG’s review in-
cluded a review of export licenses to Hong Kong.

      To achieve its objective, OIG ﬁrst focused its efforts on licensing. OIG planned
to analyze all 56 licenses that PM/DDTC approved for P.R.C. and Hong Kong dur-
ing FY 2004.7 (There were no license applications for Macau during FY 2004.) OIG
analyzed these licenses to determine whether the Department executed licensing
responsibilities in accordance with established policies and procedures. OIG com-
pared the information contained in the applications against PM/DDTC’s standard
operating procedures for licensing requirements. OIG’s review included determining
whether each export request in the ﬁles contained the information required to make
a licensing decision. This included the following:

     • license number and expiration date,
     • organization requesting the license,
     • export item,
     • dollar value of the order,
     • shipping company,
     • destination of items,
     • application review by other bureaus and agencies,
     • ﬁnal disposition (i.e., approved, denied, etc.), and
     • Presidential waiver, if required.




7
 PM/DDTC personnel were unable to locate one license application ﬁle.



OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                     9 .


                                        UNCLASSIFIED
                                  UNCLASSIFIED



            After reviewing the license applications, OIG obtained information on end-use
       checks. First, to obtain a worldwide perspective on unfavorable determinations, OIG
       obtained information on the number of end-use checks initiated and the number of
       unfavorable determinations from FY 2001 through FY 2004. Next, OIG examined
       all 12 end-use checks that PM/DDTC performed for Hong Kong during FY 2004.
       OIG reviewed each end-use check to ascertain whether the documentation contained
       in the ﬁles addressed the following:

          • end user of the item is the actual user,
          • item was used for intended purposes,
          • item was transferred without approval to another entity,
          • quantities shipped exceeded the approved amount, and
          • companies listed in the license application actually existed.

             OIG then obtained data on the number and reasons for all unfavorable end-
       use checks worldwide for FY 2004. Finally, OIG reviewed all 132 postlicense end-
       use checks that PM/DDTC reported in FY 2004. OIG selected postlicense checks
       because they demonstrate the effectiveness of export control policies and proce-
       dures, as PM/DDTC makes its determinations after the items are exported. OIG
       examined these cases using the same criteria it used during its review of the 12 Hong
       Kong cases.

           To determine the long-term strategies for export control, and whether there
       were any performance measures addressing end-use checks, OIG reviewed PM’s FY
       2006 Bureau Performance Plan and discussed the plan with PM/DDTC ofﬁcials on
       January 19, 2006. OIG consulted with PM/DDTC ofﬁcials and with OIG ofﬁcials
       from the Departments of Commerce, Defense, Energy, Homeland Security, and the
       Central Intelligence Agency.

              OIG’s Ofﬁce of Audits, International Programs Division conducted this
       review from July 2005 through January 2006 in the Washington, DC, area. OIG
       limited its examination to Department records and did not independently verify the
       accuracy of the information at overseas locations. OIG performed this work in
       accordance with government auditing standards and included such tests and auditing
       procedures as were considered necessary under the circumstances. OIG discussed
       its ﬁndings and proposed recommendations with PM/DDTC ofﬁcials. On March
       15, 2006, a senior ofﬁcial said that unfavorable end-use checks were not a relevant
       indicator of the program’s success or failure, and therefore, the ofﬁcial disagreed
       with OIG’s recommendations. OIG provided a draft copy of this report to the
       Bureau of Political-Military Affairs. The bureau reviewed the draft and did not pro-
       vide any comments.


10 .                                  OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                  UNCLASSIFIED
                                        UNCLASSIFIED




                              REVIEW RESULTS

        OIG found that although PM/DDTC adhered to its export licensing poli-
cies and procedures before issuing a license, the unfavorable postlicense end use
checks, particularly cases where the authorized recipient of the items denied placing
the order, demonstrate that PM/DDTC needs to reassess its licensing policies and
procedures to prevent the unauthorized transfer of militarily sensitive items. Also,
OIG recommended that PM/DDTC establish performance measures for the export
control program within 60 days that would detail the benchmarks and timeframes for
reducing and eliminating unfavorable postlicense end-use checks.



LICENSING POLICIES AND PROCEDURES
    OIG reviewed 55 of the 56 license applications that PM/DDTC approved for
Hong Kong and P.R.C. during FY 2004.8 OIG found that PM/DDTC adhered to its
export licensing process, consistently executing its export licensing responsibilities in
accordance with established policies and procedures.

     OIG veriﬁed that PM/DDTC had initially screened all license applications to
establish that the company submitting the application, commodity involved, intended
user, and importing country were eligible to receive an export license. OIG also sub-
stantiated that PM/DDTC had established the eligibility of each shipping company
for export control purposes.

      OIG conﬁrmed that PM/DDTC tracked interagency and intra-agency refer-
rals to ensure it received their responses in a timely manner. PM/DDTC considered
information provided in the referrals when making its licensing decisions and in all
cases accepted the respondents’ recommendations. In addition, PM/DDTC did not
make any licensing decisions before it received the requested information. Finally,
the conclusions reached by PM/DDTC personnel were fully supported by ﬁle docu-
mentation.



8
 PM/DDTC personnel were unable to locate one license application ﬁle.



OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                        11 .


                                        UNCLASSIFIED
                                               UNCLASSIFIED



       END-USE MONITORING
           OIG considers the effectiveness of export control policies and procedures to
       be measured in part by the number of unfavorable determinations PM/DDTC
       made in the end-use monitoring program. “Unfavorable” means that the application
       contained incomplete, derogatory, or inaccurate information or there was a violation
       of export procedures or laws. Chart 1 details the number of end-use reviews initi-
       ated by PM/DDTC and the number of unfavorable determinations from FYs 2001
       through 2004.9

       Chart 1: Worldwide End-Use Checks and Unfavorable Determinations by Fiscal Year

                                600
                                                                                       530
              Number of Cases




                                500
                                      410           428              413
                                400
                                300
                                200
                                        71                50               76               93
                                100
                                  0
                                        2001            2002              2003             2004

                                            Cases       Unfavorable Determinations
           Source: Congressional Budget Justification, Foreign Operations (FYs 2001-04).


           The unfavorable determinations involve a wide range of commodities, includ-
       ing ﬁrearms and ammunition; aircraft spare parts; electronics and communications
       equipment; missile spare parts; military training equipment; and night-vision equip-
       ment. Depending on the reason for the unfavorable determination, PM/DDTC can
       take several actions, including placing the license applicant on a watch list for future
       scrutiny or referring the matter for civil or criminal action. According to PM/
       DDTC, although most commercial defense trade is legitimate, a small percentage of
       cases can fall into wrongful hands.




       9
        PM/DDTC ofﬁcials used a targeted approach to selecting cases for review, and as a result, ana-
       lysts must use caution when using these data for statistical purposes.


12 .                                                OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                               UNCLASSIFIED
                                        UNCLASSIFIED



    After obtaining this multiyear worldwide perspective on end-use checks, OIG
reviewed all of the FY 2004 end-use cases for China, which includes Macau and
Hong Kong. PM/DDTC conducted a total of 12 end-use checks for Hong Kong.
PM/DDTC did not conduct any end-use checks for exports to P.R.C. or Macau dur-
ing FY 2004.

     The 12 Hong Kong cases consisted of nine prelicense and three postlicense
checks. PM/DDTC concluded that three were “unfavorable.” All the unfavorable
determinations were from prelicense checks. In one case, the recipient may have
actually received the item before PM/DDTC approved the license application. In the
second case, a company located in Hong Kong received technical data without the
required PM/DDTC registration. In the third case, the Licensing Division denied a
license because the purported end user was not, in fact, to be the end user.
    Considering the results of its review of the Hong Kong cases, OIG obtained
information on the number and reasons for all worldwide unfavorable end-use
checks reported by PM/DDTC in FY 2004. As shown in Chart 2, 35 out of a total
of 93 unfavorable end-use checks, or 37.6%, concerned a purported end user that
did not order the commodity.

Chart 2: Worldwide Unfavorable End-Use Checks in FY 2004
                  40
                       35
                  35
Number of Cases




                  30
                  25                                                    21
                  20
                  15                    9
                            11                       7           10
                  10
                   5
                   0
                       A    B            C           D           E       F
                                   Unfavorables by Type
Legend:
         A. Purported recipient of the shipment did not order the commodity.
         B. Derogatory information on parties involved.
         C. Misuse or unauthorized transfers.
         D. Inadequate justiﬁcation for quantities ordered.
         E. Foreign companies were not found or did not cooperate with the inquiry.
         F. Miscellaneous all other.
Source: OIG analysis of unfavorable cases as shown in PM/DDTC’s Report to Congress on
End-Use Monitoring of Defense Articles and Defense Services Commercial Exports, FY 2004.




OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                       13 .


                                        UNCLASSIFIED
                                      UNCLASSIFIED




           PM/DDTC provided examples to illustrate its FY 2004 end-use checks. In
       one case, PM/DDTC made an unfavorable determination on a prelicense end-use
       check for gyroscopes to a Southeast Asian country for use in CASA 212 aircraft.
       The end user as well as the foreign consignee denied ever placing the order. As a
       result, PM/DDTC did not approve the license. In another case, PM/DDTC made
       an unfavorable determination on a postlicense end-use check. The export was for
       C-130 aircraft parts to a government in the Middle East via Southeast Asian foreign
       intermediate consignees. PM/DDTC found that the government did not have either
       a contract or a ﬁrm order with the company. PM/DDTC placed the company on its
       watch list requiring special scrutiny.
            Recognizing that once militarily sensitive items are exported, they can be di-
       verted to countries of concern, including China, OIG then expanded its review to
       all of the 132 postlicense checks conducted worldwide by PM/DDTC in FY 2004.
       PM/DDTC reported unfavorable determinations on 19 of these postlicense checks.
       Reasons for the unfavorable checks are shown in Chart 3.

       Chart 3: Worldwide Unfavorable Postlicense End-Use Checks in FY 2004

                              8
                                  7
                              7
            Number of Cases




                              6
                                                                          5
                              5
                                                                                       4
                              4
                              3
                                      2
                              2
                                                             1
                              1
                              0
                                  A   B          C            D           E            F
                                           Unfavorables by Type
       Legend:
          A. Purported recipient of the shipment did not order the commodity.
          B. Derogatory information on parties involved.
          C. Misuse or unauthorized transfers.
          D. Inadequate justiﬁcation for quantities ordered.
          E. Foreign companies were not found or did not cooperate with the inquiry.
          F. Miscellaneous all other.


           Source: OIG computation.



14 .                                      OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                      UNCLASSIFIED
                                        UNCLASSIFIED



    The charts and examples provided by PM/DDTC demonstrate that, worldwide,
some entities seek to obtain militarily sensitive items by providing false or incomplete
information on their license application. Regularly, PM/DDTC’s prelicense end-use
checks resulted in unfavorable determinations, thus preventing items from being
exported in violation of export laws and the Department’s policies. In other cases,
PM/DDTC approved the licenses and made unfavorable determinations after the
items were exported. As a result, PM/DDTC could not prevent unauthorized trans-
fers of militarily sensitive items in those cases.



FACTORS CONTRIBUTING TO UNFAVORABLE DETERMINATIONS
    A senior PM/DDTC ofﬁcial said that no system is foolproof and that there are
ways to fool or evade the licensing process. For example, applicants could photo-
copy purchase orders and use them for multiple requests. They could counterfeit
documentation. They could slightly conceal the identity of a commodity sought.
However, ﬁxing the system to eliminate these few examples would likely result in a
much more elaborate export control program that would impede good defense trade,
according to the ofﬁcial.

        Further, according to this ofﬁcial, the number and complexity of license
requests are increasing each year, as is the number of countries where trade is au-
thorized. In 1990, PM/DDTC reviewed and took action on approximately 50,000
license requests, while in FY 2004, it received about 60,000 license requests. More
requests are in the form of technical assistance and manufacturing license agree-
ments (150% increase during those years), whose technology transfer is much more
complex than a hardware transaction.

         Finally, there are limited human resources. PM/DDTC has ﬁve compliance
specialists (three civil servants and two contractors) in the Research and Analysis
Division and one division chief. Only four of the ﬁve specialists are devoted to the
Blue Lantern Program.




OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                       15 .


                                        UNCLASSIFIED
                                 UNCLASSIFIED



       ACTIONS TO STRENGTHEN EXPORT CONTROL PROGRAM
           PM/DDTC is taking several actions to strengthen its export control program.
       During 2006, PM/DDTC plans to issue a revised Blue Lantern Policy document,
       which will establish new guidelines, criteria, and timelines for conducting end-use
       checks. PM/DDTC is working with ofﬁcials from the Foreign Service Institute to
       develop a training module for Foreign Service personnel serving overseas who are
       responsible for end-use checks. Finally, PM/DDTC intends to continue its Outreach
       Program, visiting posts and host governments overseas to educate and encourage
       host government support for and participation in the Blue Lantern Program.
       PM/DDTC expects that these domestic and international efforts will, in the me-
       dium- to long-term, yield overall improvements in the quality and timeliness of the
       end-use monitoring program. Although OIG believes that these efforts can enhance
       PM/DDTC’s reporting of unfavorable determinations, they do not include changes
       to the licensing policies and procedures, which could reduce and eliminate unfavor-
       able postlicense end-use checks.



       PERFORMANCE MEASURES
           In its FY 2006 Bureau Performance Plan, PM recognizes that sound export
       controls and licensing operations are essential to preventing the spread of dangerous
       weapons of mass destruction technologies and providing conventional technolo-
       gies only to those entities that will use them responsibly. PM’s long-term strategies
       include expanding compliance reviews, registration requirements, and onsite visits to
       defense industry exporters to increase compliance with AECA and ITAR.

           Performance measures for end-use checks could demonstrate progress toward
       reducing and eliminating unfavorable determinations. However, PM/DDTC has not
       developed performance measures. Additionally, PM/DDTC could use the measures
       to track performance and identify areas for improvement and make decisions about
       resource allocation.




16 .                                 OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006


                                 UNCLASSIFIED
                                        UNCLASSIFIED



CONCLUSIONS
    PM/DDTC adhered to its export licensing policies and procedures before issu-
ing licenses. However, the unfavorable postlicense end-use checks, particularly cases
where the authorized recipient of the items denied placing the order, demonstrate
that PM/DDTC needs to reassess its licensing policies and procedures to prevent
the unauthorized transfer of militarily sensitive items. PM/DDTC should report to
OIG within 60 days of report issuance the changes it plans to make to reduce and
eliminate unfavorable postlicense end-use checks. Also within 60 days, PM/DDTC
should establish performance measures for its export control program that detail its
progress toward reducing and eliminating the number of unfavorable postlicense
end-use checks.



    Recommendation 1: OIG recommends that the Bureau of Political-Military
    Affairs, Directorate of Defense Trade Controls reassess its licensing poli-
    cies and procedures and report to OIG within 60 days of report issuance the
    changes it will make to reduce and eliminate unfavorable postlicense end-use
    checks.



    Recommendation 2: OIG recommends that within 60 days of report issu-
    ance the Bureau of Political-Military Affairs, Directorate of Defense Trade
    Controls establish performance measures that detail the benchmarks and time-
    frames for reducing and eliminating the number of unfavorable postlicense
    end-use checks.




OIG Report No. AUD/IP-07-01, Review of Export Controls, October 2006                    17 .


                                        UNCLASSIFIED
UNCLASSIFIED




 UNCLASSIFIED
